<html>
<title> - U.S. GOVERNMENT EFFORTS TO COUNTER VIOLENT EXTREMISM</title>
<body><pre>[Senate Hearing 111-822]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-822
 
          U.S. GOVERNMENT EFFORTS TO COUNTER VIOLENT EXTREMISM

=======================================================================



                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
63-687                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                     BILL NELSON, Florida, Chairman

ROBERT C. BYRD, West Virginia        GEORGE S. LeMIEUX, Florida
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         ROGER F. WICKER, Mississippi
EVAN BAYH, Indiana                   SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
JEFF BINGAMAN, New Mexico            SUSAN M. COLLINS, Maine
EDWARD E. KAUFMAN, Delaware

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

          U.S. Government Efforts to Counter Violent Extremism

                             march 10, 2010

                                                                   Page

Reid, Garry, Deputy Assistant Secretary of Defense for Special 
  Operations and Combating Terrorism.............................     2
Benjamin, Ambassador Daniel, Coordinator for Counterterrorism, 
  Department of State............................................     9
Kearney, LTG Francis H., III, USA, Deputy Commander, U.S. Special 
  Operations Command.............................................    15
Atran, Scott, Professor of Anthropology and Psychology, 
  University of Michigan and John Jay College of Criminal Justice    33
Stone, Douglas, President and Chairman, Transportation Networks 
  International..................................................    42
Forest, James J.F., Director of Terrorism Studies and Associate 
  Professor of Political Science, U.S. Military Academy..........    53

                                 (iii)


          U.S. GOVERNMENT EFFORTS TO COUNTER VIOLENT EXTREMISM

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:58 a.m. in 
room SR-222, Russell Senate Office Building, Senator Bill 
Nelson (chairman) presiding.
    Committee members present: Senators Bill Nelson, Reed, 
Graham, and LeMieux.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Jessica L. Kingston, research 
assistant; Michael J. Kuiken, professional staff member; 
William G.P. Monahan, counsel; and Michael J. Noblet, 
professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; and Dana W. White, professional 
staff member.
    Staff assistants present: Paul J. Hubbard and Christine G. 
Lang.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Carolyn A. Chuhta, assistant to 
Senator Reed; Greta Lundeberg, assistant to Senator Bill 
Nelson; Patrick Hayes, assistant to Senator Bayh; Jennifer 
Barrett, assistant to Senator Udall; Roger Pena, assistant to 
Senator Hagan; Brian Walsh, assistant to Senator LeMieux, and 
Kevin Kane, assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good morning. Thank you all for 
coming.
    We're going to hear from two panels. Appearing on the first 
panel are Garry Reid, Deputy Assistant Secretary of Defense for 
Special Operations and Combating Terrorism; Ambassador Dan 
Benjamin, Coordinator for Counterterrorism at the Department of 
State (DOS); and Lieutenant General Frank Kearney, Deputy 
Commander of U.S. Special Operations Command.
    We want to welcome you all.
    The topic today is timely because it has been 9 years since 
September 11, 2001, and the United States has been engaged in 
this fight with al Qaeda, and now associated groups, 
particularly in the Afghan/Pakistan region, as well as Iraq. Of 
course, al Qaeda is metastasizing and now we find it over parts 
of Africa, on the Arabian Peninsula, et cetera.
    We also had the Christmas Day attempted bombing. It reminds 
us that they still have the capability of launching attacks, 
and they can launch them from many different places in the 
world.
    This threat of violent extremism is complex, and it has the 
ability to destabilize countries, create economic crisis, and, 
of course, cause violence. What we want to do is better 
understand the extent of the threat posed by this loose network 
of groups that comprise all of these terrorist groups and 
affiliates.
    In light of this threat, we are understanding that we can't 
rely on overwhelming military power; we need a comprehensive 
strategy that works and a strategy that will counter this 
violent extremism that is now coming out in various forms. We 
have to employ the full spectrum of instruments of national 
power: military, diplomatic, economic, intelligence, 
informational, and a lot of other things, like helping poverty, 
digging wells, growing crops, getting kids educated, and bring 
that all into a cohesive vision for action.
    I want to welcome our panelists. We're going to insert your 
written statements. They will be part of the official record. 
What I'd like to do is this--let's have a conversation.
    We'll just go right down the line, with you, Mr. Reid, 
first. Share your thoughts with us for about 5 minutes. We'll 
next go to the Ambassador, then to the General, and then we 
want to get into a discussion with some questions.
    Mr. Reid.

STATEMENT OF GARRY REID, DEPUTY ASSISTANT SECRETARY OF DEFENSE 
         FOR SPECIAL OPERATIONS AND COMBATING TERRORISM

    Mr. Reid. Thank you very much, Mr. Chairman, and I do 
appreciate the opportunity to be here and share your views on 
the importance and the urgency of this particular issue. I 
appreciate you entering my statement into the record. I would 
just like to take a couple of minutes to hit three key points 
that are in that statement.
    The first is, right upfront, that, as you said, Mr. 
Chairman, the urgency and the importance of this topic, and to 
emphasize that countering extremism is the pathway to long-term 
success out of this period of current active conflict that 
we're in, and have been in, as you said, Mr. Chairman, for many 
years.
    Counterterrorism activities, for good reasons, get a lot of 
attention, but the counterideology efforts are the more 
strategic and the more important, and they are in some ways 
more complex. We share your views on that.
    We recognize and the Secretary recognizes, and he's said 
that we cannot capture/kill our way to victory. But, even 
within that, the manner in which we go about our 
counterterrorism activities, more and more we are learning and 
adapting that even within those approaches, so we can support 
and reinforce our counterideology and counterextremist 
objectives, as well.
    Collaboration across the government is crucial. We know 
that. I think we're doing a pretty good job of that, but I know 
we have more to do in that area. We're also getting strong 
convergence with allies. I think the greatest recent example of 
that is the acceptance from our North Atlantic Treaty 
Organization (NATO) allies of the new strategy in Afghanistan/
Pakistan, and the things that are coming together there; and 
also the appointment of a NATO senior civilian. All of these 
types of things that are coming out of Afghanistan are very 
symbolic of some of our learning and our adaptation, on our 
side, to this problem.
    At the same time, the enemy is significant, agile, and 
adaptive. I would say the enemy has maximized the use of global 
technology and global information tools to great advantage. The 
radicalization process has been accelerated. You talked about 
the Christmas bombing. Our understanding of that was about a 6-
week process from contact to training to recruitment to 
dispatch to execution. September 11, from when bin Laden 
approved it, was about 2\1/2\ years in the making. It was a 
more complex operation, but I think the point of that is, they 
have really improved their ability to radicalize people and 
bring them into the fight, which, of course, severely hampers 
our ability to disrupt and get ourselves involved in the 
process.
    They have a captive audience. A lot has been said about 
media exploitation, their use of the Internet and chat rooms to 
spread virulent messages and false information. They have an 
advantage there; they can spread lies and untruths, and we 
obviously operate in a different environment.
    My third point is just that, for the Department of Defense 
(DOD), the implications vary by the environment and by the area 
where we are operating. In Iraq and Afghanistan, in the sort of 
theater-of-war context, we have a wider range of activities 
that range from the tactical to operational to strategic, 
tightly nested with the diplomatic and DOS objectives, although 
down on the tactical end, obviously, there's a little more 
scope and scale of activities that we do along with the full 
range of information operations--supporting the host nation, 
supporting their media needs and objectives, and supporting the 
U.S. Ambassador in our national strategic objectives.
    The key, here, in these areas is that we reinforce and 
establish the role, the sufficiency, and the capability of the 
partner nation's security force. The DOD role is always going 
to be heavily on the creating security-space side, whether 
that's creating a security force's capability or creating space 
on our own, to allow these counterideology initiatives and 
efforts to take root and lead to governance, development, and 
all the long-term factors.
    In the rest of the world, we have a different role, largely 
in support of our DOS colleagues, largely in support of the 
U.S. Ambassador in these countries outside of Iraq and 
Afghanistan. We have a well-developed, embedded information 
support team capability there. This manifests itself, as you've 
seen, Mr. Chairman, in different task forces and 
counterterrorism initiatives in the different theaters. Of 
course, we still have work to improve the capabilities of the 
host nation and to get them more and more in the lead.
    I think there are many examples of success within each of 
these areas. I included some of those in my statement.
    For us, going forward, we know within DOD that we need to 
continue along the path the Secretary has put us on, in terms 
of rebalancing our capabilities to address some of these areas 
that have been enabling or supporting capabilities, but really 
to take a front seat in our ability to field and support these 
activities. We want to build our expertise. We're spending a 
lot of time on building regional expertise, the things that 
General McChrystal's been coming out with, about understanding 
the environment and understanding the culture. We're bringing 
those in and building those into our force development, our 
premission training, and all of these sorts of things, which, 
for us, feed right into how we relate to the population. This 
is a primary step for us. We have, probably, more surface 
contact than anybody, and we certainly have a lot of young 
troops out there, and they have a vital role in this. They have 
to understand the environment, understand the people, and we're 
placing emphasis on that.
    Within the government, we continue, at the national level, 
the Washington level, to refine the strategies, do the best we 
can to define the lanes in the road. I don't think there's 
confusion on the lanes in the road, but, understandably, this 
is all a relatively new endeavor in the grand scheme of things, 
and we continue to learn as we go. We'll continue to do that 
and continue to collaborate.
    Mr. Chairman, I look forward to your questions and, again, 
thank you for inviting me here today.
    [The prepared statement of Mr. Reid follows:]
                    Prepared Statement by Garry Reid
    Chairman Nelson, Senator LeMieux, and members of the committee, 
thank you for inviting me to this important hearing.
                  countering violent extremism defined
    I am pleased to be here today to express the Department of Defense 
(DOD) view on the U.S. Government's strategy and efforts to counter 
violent extremism and radicalization, and to describe in part the U.S. 
military's role in these efforts in Iraq, Afghanistan, and elsewhere in 
the world.
    Countering Violent Extremism is described in our national strategy 
and policy as the collective efforts of the United States and its 
partners to diligently undermine the spread of violent extremism and 
impede the radicalization process around the world in an effort to deny 
terrorists the next generation of recruits. The administration has 
emphasized the importance of engaging Muslim communities 
comprehensively even as we focus on countering violent extremism. The 
challenge we face is that the radicalization process has been 
developed, refined, and some might say mastered, by al Qaeda and its 
allies.
    While poverty, repressive regimes and lack of opportunity play a 
role for some people in the appeal of violent extremist groups, we must 
not lose sight of the role of ideology in attracting new recruits--and 
we must find appropriate ways to counter the ideology that drives 
violent extremism.
    Enabled by 21st century technology, extremists have optimized the 
use of Internet chat rooms, Web sites, and email chains to spread their 
virulent messages and reach a global audience of potential recruits. 
What was once a lengthy process of establishing contact, exchanging 
ideas, arranging meetings, providing training, and developing attack 
plans can now be condensed into a much shorter timeline, across 
multiple international boundaries, and beyond the reach of any single 
law enforcement agency or military task force. It is this highly 
evolved radicalization process that enabled al Qaeda in the Arabian 
Peninsula to make contact with a wealthy Nigerian student living in 
London, recruit, train, and equip him in the remote tribal regions of 
Yemen, position him in the Netherlands, and ultimately dispatch him on 
a suicide mission to the United States, all within a period of weeks. 
By contrast, the September 11 operation took about 2\1/2\ years to 
develop from the time Osama bin Laden approved it in April 1999. The 
condensed timeline of the December 25 attempted terrorist attack over 
the United States underscores the critical need to get in front of the 
radicalization cycle sooner, and more effectively, than ever before.
                            national efforts
    As the President said in Cairo, violent extremism is the first 
issue we must confront if we are to resolve sources of tension that 
fuel the conflicts in Iraq, Afghanistan, and other areas. The 
administration has emphasized that the primary goal of countering 
violent extremism is precise: to prevent extremists from becoming 
``violent extremists.'' Framing our overall interaction with the rest 
of the world, especially with Muslim communities, through the lens of 
counterterrorism or countering violent extremism can be counter-
productive. This is why the United States is committed to engaging 
Muslim communities broadly--based on mutual respect and the pursuit of 
mutual interests, as the President said in Cairo--and not just around 
counterterrorism. There is no doubt that this broader engagement also 
helps further marginalize violent extremists by contrasting our 
positive vision with al Qaeda's commitment to murder, violence, and 
destruction.
    For those involved in the counter-radicalization process, the 
phrase ``actions speak louder than words'' has new meaning in that it 
takes both the right words, and the right actions, to achieve our 
desired effects. Actions and words are interdependent: what we say must 
be supported by corresponding actions, and our actions must be 
highlighted and accurately characterized through our words. Some refer 
to this as avoiding the word-deed gap, or as ``the battle of the 
narrative.'' The Obama administration understands that getting the 
right message out is equally important as doing good deeds, and has 
strengthened the global outreach capabilities of the U.S. Government in 
several important areas.
    The implications for DOD have been significant. In June 2009, to 
facilitate effective strategic communication and ensure that efforts to 
counter violent extremism are appropriately addressed across the 
Department, the Undersecretary of Defense for Policy created the Global 
Engagement Strategy Coordination Committee. One core function of this 
group is to ensure that countering violent extremism is adequately 
addressed in long term planning and strategy documents, doctrine, and 
other DOD directives and instructions. In fostering interagency 
coordination, members represent the Department at the National Security 
Staff's Strategic Communications Interagency Policy Committee (IPC), 
the Global Engagement IPC, and the Counterterrorism Security Group. 
Also, the Department participates in the countering violent extremism 
Interagency Coordination Group and Senior Interagency Support Team, 
chaired by the National Counterterrorism Center.
    In terms of interagency coordination, DOD's relationship with the 
Department of State is particularly strong. The Secretary of Defense 
has made a commitment to work closely with our Department of State 
colleagues to ensure that the Department provides them all of the 
requisite support possible in Washington and in the field. In numerous 
key locations, the Department provides the U.S. Ambassador with a 
tailored military information support team that works through and with 
the host nation to promote effective strategic communications to 
counter violent extremism. Here in Washington, we are in regular 
dialogue with the office of the Undersecretary of State for Public 
Diplomacy and Public Affairs and with the Ambassador At Large for 
Counterterrorism, as well as with regional bureaus on challenges 
specific to their area of responsibility.
                            the defense view
    The Defense Department understands, perhaps better than anyone, the 
limitations of military firepower in the complex global security 
environment. As Secretary Gates has said many times, we cannot capture 
or kill our way to victory in war against al Qaeda and its affiliates. 
Although we will continue to take immediate, necessary actions to 
protect the United States from terrorist attacks, our long-term focus 
is on working through and with partner nations to build their security 
capabilities, reverse the momentum of insurgents and extremist groups, 
create conditions that promote development opportunities, and disrupt 
the forces of violent radicalization that provide terrorists and 
extremists with new recruits.
    At the same time, we will continue efforts within DOD to balance 
capabilities essential to success in a counterinsurgency environment. 
These include expanding our language training programs, developing 
regional expertise, improving partnering skills, adding more Civil 
Affairs units, and recognizing the importance of knowing the ``human 
terrain'' as well as we know the physical terrain. Strengthening our 
capabilities in each of these areas enriches the contacts and 
relationships our forces have with local populations.
    Although our efforts to counter violent extremism are tailored to 
each specific region, they all rely on the concurrent execution of 
counterterrorism operations, partnered counterinsurgency, training and 
equipping local security forces, increased intelligence collection, and 
tailored civic action programs linked and nested with those of our 
interagency colleagues and international assistance organizations.
    Finally, in these efforts to persuade and influence, DOD is a 
supporting agency. We take guidance and focus from the Department of 
State, and work in close collaboration with the country team. Our 
campaigns and products are reviewed and approved by the U.S. 
Ambassador. What DOD does and how our efforts are framed in conflict 
zones is necessarily different from our efforts elsewhere.
                          afghanistan/pakistan
    In President Obama's December 1, 2009 address to the Nation, he 
announced the strategy the administration will pursue to bring the war 
in Afghanistan to a successful conclusion. He described the 
Afghanistan-Pakistan border region as an ``epicenter of violent 
extremism practiced by al Qaeda'' which poses a serious threat to the 
United States, and endangers the people and governments of both 
Afghanistan and Pakistan. Accordingly, our engagement strategy views 
them as one theater of operations, in which our actions must be 
synchronized and coordinated on both sides of the border.
    In Afghanistan, the most significant military-related recent 
development in the realm of countering violent extremism is the 
emphasis we are now placing on providing security for the population. 
As Secretary Gates has said, ``Defeating al Qaeda and enhancing Afghan 
security are mutually reinforcing missions. They cannot be untethered 
from one another, as much as we might wish that to be the case.'' Our 
new approach in Afghanistan has several key supporting elements. First 
and foremost, our revised close air support procedures have signaled to 
Afghans that we care deeply about civilian casualties. This carefully 
considered modification, and just as importantly, the manner in which 
our forces announced the change in policy, has had a tremendously 
positive effect on gaining popular support for the North Atlantic 
Treaty Organization-International Security Assistance Force (ISAF). It 
has undercut the enemy's powerful propaganda enterprise, and sparked a 
wave of counter-extremism in areas only recently under strong Taliban 
control. We have also made significant changes to our driving policy, 
to be more careful of Afghan civilians on the roads. We also 
implemented an overarching Tactical Directive which provides guidance 
and intent for the employment of force in support of ISAF operations. 
It is designed to gain and maintain the support of the people, 
restricts the use of night raids, and establishes guidance on entry 
into Afghan medical facilities to respect and protect innocent 
civilians.
    The Tactical Directive has rebaselined our methodology for engaging 
with Afghan National Security forces in what is best described as 
``partnered counterinsurgency.'' This equates to a significant rise in 
combined military operations in which the Afghan forces are 
increasingly put in the lead, going door to door in villages, 
reassuring civilians, and rousting insurgents from their sanctuaries. 
The ongoing operation in Marjeh, in Central Helmand province, 
illustrates the value of partnered operations in countering violent 
extremism. Strategic messaging in the weeks before tactical operations 
began informed Afghans of the impending assault, and set favorable 
conditions for the advance of Afghan and coalition forces into the 
populated areas. Strong involvement by Afghan officials in 
decisionmaking leading up to the operation strengthened the legitimacy 
of the Karzai Government, and despite an early misstep by U.S. forces 
that led to a rocket strike that caused civilian casualties, popular 
support has been maintained.
    Clearing areas from enemy control is only the first step in 
countering extremism in Afghanistan, and clearing alone will not set 
the necessary conditions for long-term stability. Therefore, it is 
essential to follow quickly with the personnel and resources that 
support holding a cleared area, and facilitate introduction of public 
and private ventures that promote economic and social development 
programs. The ``hold phase'' is crucially important. The host nation 
must provide security, and essential goods and services, to the ``at 
risk'' population. By so doing the government demonstrates that it is a 
viable alternative to extremist control, strengthens its own 
legitimacy, and debunks the enemy's narrative. The Defense Department 
supports these efforts by deploying Civil Affairs capabilities, 
fielding medical and dental assistance teams, conducting information 
support operations, and by manning and leading Provincial 
Reconstruction Teams.
    In Pakistan, where our access is significantly limited, we provide 
equipment, training, and assistance to Pakistan security forces to help 
improve their capabilities to defeat al-Qaida and its extremist allies 
in their country. Our Office of the Defense Representative for Pakistan 
serves as the central hub for DOD engagements with Pakistan, and 
synchronizes the delivery of assistance, training, and other supporting 
activities. Expanded engagements with Pakistani security forces, 
facilitated by fusion centers and border crossing centers, have 
fostered new relationships among tactical units that portend a future 
of improved trust and cooperation between the armed forces of the U.S. 
and Pakistan. Using resources and authorities, which have been granted 
through DOD's Pakistan Counterinsurgency Fund, and which will now 
migrate to State's Pakistan Counterinsurgency Capability Fund, DOD will 
continue to work closely with the State Department and our Pakistani 
allies to identify the capabilities they need to counter violent 
extremism and provide them with the training and equipment needed to 
succeed.
                                  iraq
    As extremist organizations in Iraq continue to be degraded and as 
we implement the responsible drawdown, our focus on countering violent 
extremism is increasingly more strategic. Iraqi forces are leading 
tactical operations, advised and assisted by U.S. forces who generally 
provide intelligence, command and control systems, forensics, and other 
enabling capabilities. As the transition in Iraq progresses, our 
support to Iraqi security forces and the U.S. Department of State will 
continue to shift towards public affairs and public diplomacy.
                        other areas of interest
    Outside Iraq and Afghanistan, DOD is in a supporting role for U.S. 
and Coalition efforts to counter violent extremism. The level of effort 
and intensity of these activities varies by region, and the pace of 
operations is generally set by Department of State, working through the 
host nation government.
    In Saharan Africa, we support the Department of State's Trans-
Sahara Counterterrorism Partnership, which is a multi-year U.S. 
interagency program aimed at defeating terrorist organizations by 
strengthening regional counterterrorism capabilities, enhancing and 
institutionalizing cooperation among the region's security forces, 
promoting democratic governance, discrediting terrorist ideology, and 
reinforcing bilateral military ties with the United States.
    In the Horn of Africa, our long term strategy is led by Combined 
Joint Task Force-Horn of Africa, which employs an ``indirect approach'' 
to counter violent extremism, conducting operations to strengthen 
partner nation security capacity to enable long-term regional 
stability, prevent conflict and protect U.S. and coalition interests. 
Across the continent, U.S. Africa Command collaborates closely with the 
Department of State to ensure that countering violent extremism 
activities are coordinated and deconflicted based upon the objectives 
and security situation in each country.
    In the Arabian Peninsula, DOD cooperates closely with Yemeni 
security forces to increase their capabilities to prevent cross border 
arms trafficking and regional foreign-fighter flows, develop competent 
counterterrorism forces, and mitigate the threat of improvised 
explosive devices. We anticipate continuing a high level of commitment 
to developing Yemen's military and counterterrorism capacity in the 
future. In addition to counterterrorism cooperation, the Department 
will continue security assistance and training exercises to expand the 
capacity of the Yemeni Coast Guard and Navy to counter regional 
maritime security challenges, including smuggling, trafficking-in-
persons, and piracy. Through a broad array of bilateral and 
multilateral initiatives, the Department supports U.S. Government 
efforts to address Yemen's political, economic, and humanitarian 
concerns.
    In South Asia, our efforts are anchored by the Joint Special 
Operations Task Force-Philippines (JSOTF-P) and are supported by other 
training and assistance engagements throughout Southeast Asia. The 
mission of JSOTF-P is to support the comprehensive approach of the 
Armed Forces of the Philippines (AFP) in their fight against terrorism 
in the southern Philippines. At the request of the Government of the 
Philippines, JSOTF-P works alongside the AFP to defeat terrorists and 
create the conditions necessary for peace, stability and prosperity.
    In each of these endeavors our approach is to improve the 
capabilities of our partners--not just of their kinetic forces, but 
also their general ability to provide security. When the host nation 
can counter the threats to its security posed by violent extremists, 
and increase its legitimacy in the eyes of its population, we are on 
the road to successfully countering violent extremist messages of 
intolerance and hatred.
                                summary
    Effectively countering violent extremism requires a fully 
integrated national and international approach that addresses the 
problem in three dimensions: (1) the message, (2) the media, and (3) 
the messenger. Getting the right message requires in-depth 
understanding of the people, the culture, and the social dynamics at 
the village, district, national, and regional levels. We clearly have 
more work to do in this area. The U.S. Government, including the 
military, lacks the depth of expertise to operate in the areas of the 
world where violent extremism poses the greatest threat. Although 
programs across the U.S. Government programs are underway to strengthen 
our knowledge of the most important issues, it will take continued 
long-term efforts to build the depth we need. Leveraging the various 
forms of media is equally important, and also requires both micro and 
macro understanding of the information landscape.
    On one end of the media scale, low-power portable transmitters, 
delivered to key leaders in remote villages, help reduce the ability of 
violent extremists to intimidate and mislead local civilians. On the 
other end of the spectrum, al Qaeda's use of highly advanced Internet 
technology, including social network sites and mass messaging, is one 
of the reasons for our development of media sites that promote 
positive, truthful messages that provide an alternative narrative the 
narrative of the violent extremists. We recognize, however, that in 
many cases messages propagated and delivered by U.S. officials have 
limited impact on our intended audience. For this reason, it is 
essential that we involve our partners and allies as the primary 
messengers in their struggle. Ultimately, it is local officials that 
must shoulder the burden of governance, and provide their people with a 
credible message of vision, hope and pride.
    DOD contributions to countering violent extremism will vary by 
region, and will be driven by the political circumstances at hand. We 
recognize that our most effective work will be done in support of 
broader interagency initiatives, and be implemented through and with 
partners. To that end, we continue to build our capabilities that 
improve the quality of our interactions, promote mutual understanding, 
and inculcate a counterinsurgency mindset across the force. We are 
continually looking for ways to be adaptive and progressive in our 
efforts to counter violent extremism. I thank you again for the 
opportunity to discuss countering violent extremism from the 
Department's perspective, and I look forward to your questions.

    Senator Bill Nelson. Thank you, Mr. Reid.
    Mr. Ambassador, before I call on you, let me call on my 
colleague, Senator LeMieux.

              STATEMENT OF SENATOR GEORGE LeMIEUX

    Senator LeMieux. Thank you, Mr. Chairman. Thank you for 
holding this important hearing.
    I want to add my welcome to that of the chairman for the 
folks who are here to testify today.
    This subcommittee has an important role to play, not only 
for anticipating emerging threats to our Nation's security, but 
ensuring that our brave men and women in uniform are prepared 
to counter those threats. I add my thanks to you for the fight 
that you're doing to make sure that we're keeping our troops 
and the people in this country safe and free. I look forward to 
the discussion of the critical issues.
    Mr. Chairman, with that, I'll submit the rest of my 
statement for the record.
    [The prepared statement of Senator LeMieux follows:]
              Prepared Statement by Senator George LeMieux
    Thank you, Mr. Chairman for holding this important hearing. This 
subcommittee is important in its role--not only for anticipating 
emerging threats to our Nation's security--but ensuring that our brave 
men and women in uniform are prepared to counter the threats--that 
don't involve bullets or body armor.
    I add my welcome to the distinguished panel of witnesses before us 
today. I don't think we, as a government, spend enough time 
discussing--what it means to counter violent extremism in the places 
where we aren't fighting a war. It is a critical issue and I look 
forward to a lively discussion. I thank the witnesses for joining us 
and look forward to your testimony.
    Today, our troops face significant challenges before they ever step 
foot on the battlefield. I don't think we can overstate the need to 
counter violent extremism before it becomes violent. It is imperative 
that we develop a cohesive and effective communication strategy for 
places like Yemen, Iraq, Afghanistan, Iran and Pakistan, but I think 
it's equally important to engage partners and friends. Our enemies are 
recruiting vigorously among unlikely even resistant cultures to violent 
extremist ideology. However, many of these would-be recruits remain 
susceptible--ironically not because of their culture or religion--but 
because of simple necessity.
    Poverty and hopelessness can be powerful factors in someone's 
decision to embrace violent extremism. Violent extremists know that 
hunger, instability, and the lack of an education are ideal conditions 
for recruiting legions of followers.
    In Africa, partners such as Burkina Faso, Mali, Kenya, and Ethiopia 
are working with us to prevent radical ideology from taking root in 
communities that have little or no history of violent extremist 
thought. However, people in Africa, Asia, South America, Europe, and 
even the United States, are not immune to the rhetoric or the false 
promises of violent extremism. The United States, its partners and 
allies cannot cede our message of hope, freedom, and security to 
terrorists. Just as we cannot lose the message war, we also cannot 
allow their financing to go unchallenged.
    I am deeply concerned about the way terrorist organizations--al 
Qaeda, Hezbollah, and Hamas--are funded. For years, we have known that 
the Revolutionary Armed Forces of Colombia and its drug trafficking has 
financed its domestic and regional terrorist campaign, but now there is 
growing indications that they may also help finance other terrorist 
cells in Latin America--including Hezbollah and Hamas. I think it's 
critical that we understand how drugs and money fund al Qaeda and its 
affiliates--whether its heroin out of Afghanistan to support the 
Taliban, or cocaine out of Venezuela to Guinea-Bissau to finance al 
Qaeda in the Islamic Maghreb in North Africa or terrorists financiers 
in Europe. Drug trafficking is always promotes or exacerbates other 
illicit activities: prostitution, human trafficking, and gang violence. 
So, it is vital that we also understand how it may be supporting 
terrorism.
    Again, I look forward to hearing from our panels of witnesses and 
thank the chair for his foresight and leadership in arranging today's 
hearing. I look forward to the discussion.
    Thank you, Mr. Chairman.

    Senator Bill Nelson. Thank you, Senator LeMieux.
    Mr. Ambassador.

   STATEMENT OF AMBASSADOR DANIEL BENJAMIN, COORDINATOR FOR 
             COUNTERTERRORISM, DEPARTMENT OF STATE

    Ambassador Benjamin. Chairman Nelson, Senator LeMieux, 
thank you very much for the invitation to be here today. Thank 
you, in particular, for your interest in what we at the 
Department of State consider one of the premier issues of this 
period. You have my formal statement; let me just summarize 
some of the points.
    For years, while I was outside the government, I had been 
arguing strongly that we needed to be doing a better job on 
countering violent extremism (CVE), and had to make it a top 
priority. Now that I have the opportunity to work on these 
issues as coordinator, I have to say, I'm both challenged and 
more than a little humbled by the prospect of doing so.
    It is absolutely essential that we do what we can to 
undermine the al Qaeda narrative and prevent the radicalization 
of more individuals. We have done a great job at tactical 
counterterrorism, at taking people off of the street and 
keeping them from harming others, but curtailing the influence 
of militants and preventing further recruitment is obviously 
where the strategic imperative comes now.
    The primary goal of CVE is to stop those most at risk of 
radicalization from becoming terrorists. There are many 
different approaches for doing this, including social programs, 
counterideology initiatives, working with civil society to 
delegitimate the al Qaeda narrative, and, where possible, to 
provide possible alternatives.
    In particular, when we're talking about that part of the 
spectrum that is closest to violence, closest to being 
terrorists, we have to work from a lot of different angles, and 
we have to rely on a lot of programming where messaging itself 
may not do the job. So, that means that we have to work on 
capacity-building, on outreach to civil society, on education, 
as well as, of course, always having that messaging component. 
We have to work with host governments and nongovernmental 
organizations (NGOs), we have to work with clerics and other 
influentials who can have a role in communities where we may 
not have the direct access that we have elsewhere.
    Clearly, this requires us, in the U.S. Government, to work 
across boundaries within our departments, and across the 
interagency, because there are a whole array of organizations 
that will be involved in implementing these programs.
    I consider this mission vital. One of the first things I 
did after being sworn in was to start developing a CVE team, 
something that did not exist in the Office of the Coordinator 
for Counterterrorism (S/CT) before. Last fall, my office 
convened a 1-day interagency summit to examine U.S. Government 
CVE efforts to consolidate lessons learned and to try to bring 
a little more clarity to the different lanes, as Mr. Reid has 
discussed. I think we're making progress there. We had very 
high-level attendance, and we were quite happy with the 
outcome.
    I think we all agree, then and now, that we really do need 
to understand the dynamics of communities that are at risk. 
Different agencies in the Federal Government have done a very 
impressive job to deepen the government's understanding, and 
there's been a lot of research and analysis done, both in the 
Intelligence Community and in academia.
    Every community, whether long-rooted or part of a new 
diaspora, has a unique political, economic, and social 
landscape; for that reason, we know that one-size-fits-all 
programming will not work.
    It's critically important that our embassies be on the 
frontline, that they be able to tailor programs to the needs of 
the communities that they're addressing. Partly for this 
reason, I've spent half of this year and a lot of last year on 
the road, traveling in the Middle East, Asia, Africa, and 
Europe to talk about CVE programming.
    You mentioned important social factors. Deputy National 
Security Advisor John Brennan has urged us to address what he 
calls the ``upstream factors'' and confront the political, 
social, and economic conditions that our enemies exploit to win 
over new recruits.
    I think it's important to understand that we're talking 
about two dimensions of the problem; on the one hand, those 
communities that are more at risk for radicalization, but we 
also, more broadly, need to beat back the al Qaeda narrative in 
the broader public because this is an ideology that has broad 
appeal in many societies, even if the large majorities in those 
societies are not going to engage in violence. So, we need to 
also have a level of engagement with these countries that is 
based on mutual respect and common interests, and it needs to 
be a very direct kind of communication with them, to undermine 
anyone's legitimation of violence as a means for social change.
    We're working hard to develop a variety of different CVE 
programs. One that's already in its second year is the 
Ambassador's Fund for Counterterrorism. This typically brings 
locally targeted programs and marries them up with soft-power 
tools and counterterrorism assistance to CVE. We give up to 
$100,000 per grant to embassies for this kind of project.
    S/CT has requested $15 million in fiscal year 2011 for new 
CVE programming, and we intend to use those funds to focus on 
hot spots of radicalization and recruitment; again, working 
closely with embassies, the intelligence community, and others 
who can tell us about the dynamics of these at-risk 
populations. We work closely with the Undersecretary of State 
for Public Diplomacy and Public Affairs, with the DOS 
Representative to Muslim Communities, and U.S. Agency for 
International Development (USAID).
    Let me just say, we have an excellent relationship with 
DOD. We're very grateful for Secretary Gates' leadership in 
this area and his emphasis on fostering a strong partnership 
between DOD and DOS. This cooperation is paying off as we 
explore new ways to collaborate and innovate on CVE 
programming. We're learning how to complement each others' 
strengths and efforts, and determine which CVE efforts are best 
done by the military and which are best handled on the civilian 
side. We've been in discussions with a number of different 
offices within the Office of the Secretary of Defense (OSD) and 
the combatant commands to discuss funding issues and to discuss 
how we can improve delivery of programming.
    We're also working to encourage foreign partners to do more 
in this area. My office hosted a CVE workshop with Australia, 
Canada, Germany, Italy, the Netherlands, Spain, and the United 
Kingdom in early November 2009, as a first step to developing a 
more cooperative CVE approach, and we'll have a follow-on in 
May 2010.
    Let me close by making two points. One, as we do this kind 
of work, it's vital that we adhere to our values. As President 
Obama has said from the outset, there should be no tradeoff 
between security and our values, and so we've moved to rectify 
excesses of the past by working to close the prison at 
Guantanamo, forbidding torture, and developing a more 
systematic approach to dealing with detainees. All of these 
will help us undermine the al Qaeda claims about the nature of 
the United States.
    Second, and lastly, I'm optimistic about our ability to 
make progress on CVE. As Mr. Reid said, these are still early 
days. We are going to innovate, and we are going to fail 
sometimes; but, I think there is a broad understanding, as he 
said, about the strategic nature of this endeavor. I think 
there is, really, broad understanding, across the executive 
branch, of the importance of this work and just how vital it is 
for our success against the terrorist threat.
    Thank you for your attention, and I'd be happy to answer 
any questions you might have.
    [The prepared statement of Ambassador Benjamin follows:]
            Prepared Statement by Ambassador Daniel Benjamin
    Chairman Nelson, Ranking Member LeMieux, and members of the 
committee: thank you for your invitation to appear before you this 
morning.
    I am pleased to have this opportunity to discuss with you, along 
with my colleagues from the Department of Defense (DOD), the Department 
of State's efforts to counter violent extremism overseas, and how we 
collaborate and coordinate closely in this effort.
    In the past 8 years, the United States has made great strides in 
what might be called tactical counterterrorism--taking individual 
terrorists off the street, and disrupting cells and operations. But an 
effective counterterrorism strategy must go beyond efforts to thwart 
those who seek to harm the United States and its citizens, allies, and 
interests. Military power, intelligence operations, and law enforcement 
efforts alone will not solve the long-term challenge the United States 
faces--the threat of violent extremism. Instead, we must look as well 
to the political, economic, and social factors that terrorist 
organizations exploit and the ideology that is their key instrument in 
pushing vulnerable individuals on the path toward violence. As 
President Obama succinctly put it, ``A campaign against extremism will 
not succeed with bullets or bombs alone.''
    For many years while outside of the government, I have argued that 
the United States has to make countering violent extremism a priority. 
Now, in my position as Coordinator for Counterterrorism, I am both 
challenged and humbled by the tremendous responsibility of helping 
develop and coordinate the U.S. Government's efforts to undermine the 
al Qaeda narrative and prevent the radicalization of vulnerable 
individuals. Curtailing the influence of militants is critical to 
enhancing our nation's security. The primary goal of countering violent 
extremism is to stop those most at risk of radicalization from becoming 
terrorists. Its tools are non-coercive and include social programs, 
counter-ideology initiatives, and working with civil society to 
delegitimize the al Qaeda narrative and, where possible, provide 
positive alternative narratives.
    Successfully combating terrorism necessitates isolating violent 
extremists from the people they pretend to serve. Often, they do this 
themselves. Time and again, their barbarism and brutality have provoked 
backlashes among ordinary people. The indiscriminate targeting of 
Muslim civilians by violent extremists in Iraq, Pakistan, and elsewhere 
has alienated populations, led to a decline of support for al Qaeda's 
political program, and outraged influential clerics and former allies, 
who in many cases have spoken publicly, issuing fatwas against 
terrorism.
    Of course, we cannot count on al Qaeda to put itself out of 
business. While the group's atrocities undoubtedly are part of the 
reason it has failed to mobilize masses of people, it continues to have 
success in replenishing its ranks. So as we look at the problem of 
transnational terrorism, we are putting at the core of our actions a 
recognition of the phenomenon of radicalization--that is, we are asking 
ourselves time and again: Are our words and actions strengthening or 
diminishing the appeal of arguments used by al Qaeda to justify 
violence against the United States and its allies? What more do we need 
to do to blunt the appeal of this brand of extremism?
    Answering these questions is at the heart of any genuinely 
strategic approach to counterterrorism, because ultimately undermining 
the appeal of al Qaeda's rationale for violence is essential to help 
make environments ``non-permissive'' for terrorists seeking to exploit 
them. In other words, when the terrorists find their immediate 
environments to be hostile to them and their work and fewer places 
offer them any kind of haven, their ability to evade detection will 
diminish and their numbers will shrink.
    We are not there yet. The reality is that the United States 
confronts a violent ideology that holds real attraction for significant 
numbers of people. At the heart of the conflict with al Qaeda is a 
struggle over narratives. Al Qaeda dispenses an account of the world 
that falsely portrays the United States as a predatory power eager to 
occupy Muslim lands, steal Muslim wealth, and suppress the religion of 
Islam--a notion that President Obama, Secretary Clinton, and their 
predecessors have consistently refuted. al Qaeda and like-minded 
extremists exploit this perception and argue that the only solution is 
violence, a message which appeals to a small cohort of the alienated, 
particularly young men. The story has an elegant simplicity and, for 
some in Muslim communities with grievances, real or perceived, an 
appealing explanatory power.
    Because a variety of social and political factors can affect how 
people respond to al Qaeda, we are working from various angles to 
discredit its arguments and reduce their persuasiveness. Effectively 
countering the al Qaeda narrative involves capacity-building, outreach 
to civil society organizations, and educational development, as much as 
it does direct messaging. It involves working through host governments 
and nongovernmental organizations to engage with clerics and other 
influential voices with credibility in local communities.
    With the aid of credible messengers, the United States is trying to 
make the use of terrorist violence taboo and, we hope in the long term, 
replace the radical narrative with something more hopeful and 
empowering. President Obama's effort to create partnerships with Muslim 
communities on the basis of mutual interest and mutual respect, as he 
outlined in speeches in Ankara and Cairo provides a new opportunity to 
promote a more positive story than the negative one promulgated by al 
Qaeda.
    Because I consider this mission vital, one of the first things I 
did after being sworn in as coordinator was to start developing a 
Countering Violent Extremism (CVE) team, something that previously had 
not been a part of the Office of the Coordinator for Counterterrorism. 
We now have a six-person unit responsible for creating CVE programs 
based on robust qualitative and quantitative assessments of the 
environment.
    In an effort to consolidate what we in the administration know and 
to do what we could to galvanize the interagency's work on CVE, last 
fall my office convened a 1-day interagency summit to examine U.S. 
Government efforts in CVE, identify programmatic shortcomings, and make 
recommendations for creating a sustainable strategy going forward. The 
Summit brought together senior attendees from the NSC, National 
Counterterrorism Center (NCTC), U.S. Agency for International 
Development (USAID), intelligence agencies, and the Departments of 
State, Defense, Homeland Security, and Justice. Important lessons were 
shared. For example, all were in agreement that our programs are often 
more effective when implemented by host nations, nongovernmental 
organizations, and local partners. Partnering with foreign governments 
is crucial. These officials will have a better understanding of the 
particular dynamics and influential figures in their communities. 
Empowering these allies also bolsters their will to sustain programs 
over the long term.
    One recognition that was widely shared at that summit is that we 
are still in the early phases of CVE work. In recent years, we have 
learned a good deal about the phenomenon of radicalization. Various 
agencies in the U.S. Government have done an impressive job to further 
the government's understanding. Significant research and analysis have 
been conducted by the Intelligence Community; in fact, we are working 
with the NCTC at the moment to use their intelligence for programmatic 
purposes. We also never hesitate to take advantage of the many studies 
done by the private sector and academia.
    Nevertheless, there is still the need for more work in the social 
sciences on the cluster of issues related to radicalization. Polling 
and surveys will help inform us where radicalization is occurring at 
the neighborhood level, guide our programming decisions and serve as a 
baseline to measure the effectiveness of our initiatives.
    To successfully develop and implement CVE programs, we must 
understand the dynamics of the communities at risk. Every community, 
whether long-rooted or part of a new diaspora, possesses a unique 
political, economic, and social landscape. For this reason, one-size-
fits-all programs are likely to have limited appeal. Instead, our 
efforts must be tailored to fit the characteristics of the intended 
audience. Thus, it is critically important that our Embassies are on 
the front lines of our CVE efforts and that they play a key role in 
designing CVE programs. They can best identify the people in-country 
who can serve as credible voices and who can successfully implement 
projects. Partly for this reason, I have spent about half of 2010 and 
much of last year on travel to the Middle East, Asia, Africa, and 
Europe. There I met with numerous officials from State and other 
departments, including DOD, to discuss and support Post efforts on CVE 
and explore ways to elaborate these initiatives.
    Besides working to keep those at risk of radicalization from 
becoming violent, we must also beat back the al Qaeda narrative in the 
broader public. Framing our interaction with the rest of the world, 
especially with Muslim communities, through the lens of 
counterterrorism can be counter-productive. Engaging mainstream 
communities around the world is that much harder if our audiences 
believe we see them as part of the problem, rather than as part of the 
solution, or are only interested in using them to get at the small 
number of violent extremists who actually threaten us. Moreover, we 
believe that engagement framed with mutual respect and the pursuit of 
partnerships in areas of shared interest actually marginalizes violent 
extremists by contrasting our positive vision with the terrorists' 
commitment to murder, violence, and destruction.
    We must do a better job of explaining U.S. policies to foreign 
publics and debunking myths about the United States. Building personal 
relationships and deepening existing cultural and economic ties are 
some of the best ways to dispel misperceptions about U.S. interests and 
motives. Immigrant and youth populations should be treated not as 
threats to defend against, but as communities of potential partners who 
can play a lead role in changing our world for the better.
    We also need to look to what Deputy National Security Advisor John 
Brennan has called the ``upstream'' factors. We need to confront the 
political, social, and economic conditions that our enemies exploit to 
win over the new recruits the funders and those whose tacit support 
enables the militants to carry forward their plans. The President and 
his team understand well how headline political grievances are 
exploited by radicals. That is why this administration is giving so 
much attention to resolving issues like the Arab-Israeli peace process, 
which create deep antipathies against the United States that can be 
exploited by violent extremists.
    We are working hard to develop a variety of CVE programs. One that 
is already in its second year is the Ambassadors Fund for 
Counterterrorism. The Ambassadors Fund allows Posts to identify local 
partners and send in proposals to secure funding for local efforts. The 
Ambassadors Fund is an example of a locally-targeted program that 
marries the tools of soft power and counterterrorism assistance to help 
combat extremism. Up to $100,000 per grant is provided to embassies for 
projects.
    Beyond this existing funding mechanism, S/CT has requested $15 
million in Fiscal Year 2011 for a new CVE programming. We intend to use 
those funds to focus on hot-spots of radicalization and recruitment, 
working with embassies to develop locally-tailored programs that 
counter the negative influence and influencers driving at-risk 
populations toward violence. We will also work together with the Office 
of the Under Secretary of State for Public Diplomacy and Public 
Affairs, with the Office of the State Department Special Representative 
to Muslim Communities, and with USAID to make sure that efforts to 
engage civil society and counter radicalizing narratives through 
existing programs are focused in the right areas.
    It is efforts like this that we are trying to expand and elaborate. 
We are working more closely with foreign partners and examining how to 
get governments in Muslim-majority countries to take on this 
challenge--especially in ways that do not involve just security 
services.
    We have an excellent relationship with DOD. We are extremely 
grateful to Secretary Gates' for his leadership and emphasis on the 
need to foster a stronger partnership between DOD and the Department of 
State. Our cooperation with DOD is paying off as we explore ways to 
collaborate and innovate new CVE programming. Together we are learning 
how to complement each other's strengths and efforts in the field, and 
determine which CVE efforts are best done by the military and which are 
best handled on the civilian side. A number of offices in DOD and the 
Combatant Commands that fund CVE projects and research have expressed a 
desire to collaborate with us on new programs and we've had fruitful 
discussions with SOCOM about how our offices can work in concert on 
program delivery.
    We are also working hard to build momentum with our foreign CVE 
partners. My office hosted a Multilateral ``CVE'' Workshop with 
Australia, Canada, Germany, Italy, The Netherlands, Spain, and the 
United Kingdom in early November as a first step in developing a more 
cooperative approach, multilaterally to CVE. Participants discussed 
approaches, target audiences, specific interventions designed to 
counter terrorists' recruiting efforts, and information sharing. 
Programs that gave participants insight into the challenges of police 
work with diaspora communities in the UK and Australia generated a lot 
of interest as possible templates. Delegations agreed that initiatives 
must be adapted to specific communities and even neighborhoods to 
realize the best chance of succeeding and enduring. Participants also 
agreed there was a gap in knowledge of other countries' policies and 
approaches to CVE. We view filling that gap as part of our mission, and 
one step in this direction will be a follow-on workshop that is planned 
for mid-May.
    To help the State Department draw upon the knowledge of one of our 
key allies, we currently have on detail a senior member from the UK's 
Foreign and Commonwealth Office's Counterterrorism Research Group. 
Through this partnership, we hope to gain greater understanding of the 
UK's experience with CVE as well as how the U.S. Government can create 
effective, locally-targeted programs and enhance its efforts to counter 
extremist narratives.
    U.S. Government engagement can and should take different forms 
depending on the circumstances of the potential partner. Some 
organizations with a lack of resources and outside funding will welcome 
U.S. seed money to hire staff and initiate programs. Others may desire 
capacity and leadership development training to better position them to 
challenge extremist narratives. In other cases, the U.S. Government can 
simply act as the facilitator by connecting these organizations with 
third parties with whom they can partner with.
    Some potential partners will not want any formal affiliation with 
the U.S. Government, because they fear it would undermine their 
legitimacy among constituents. In these cases, the U.S. Government can 
work closely with local, regional, or national governments and third 
parties, as well as credible regional and international organizations, 
to ensure that the organizations receive the assistance they need to 
deliver targeted, on-the-ground CVE programs.
    Nontraditional actors such as nongovernmental organizations, 
foundations, public-private partnerships, and private businesses are 
some of the most capable and credible partners in local communities. 
The U.S. Government and partner nations are also seeking to develop 
greater understanding of the linkages between Diaspora communities and 
ancestral homelands. Through familial and business networks, events 
that affect one community have an impact in the other.
    In closing, let me make two points. First, as we pursue our CVE 
work and counterterrorism more broadly, it is vital that we hew to our 
values in this struggle. As President Obama has said from the outset, 
there should be no tradeoff between our security and our values. 
Indeed, in light of what we know about radicalization, it is clear that 
navigating by our values is an essential part of a successful 
counterterrorism effort. Thus, we have moved to rectify the excesses of 
the past few years by working to close the prison at Guantanamo Bay, 
forbidding torture, and developing a more systematic method of dealing 
with detainees. All of these, over the long term, will help undermine 
terrorist claims about the nature of the United States.
    Second and lastly, there is reason for optimism about our ability 
to make progress on CVE. While such an effort will not be easy or 
inexpensive, we are developing the capacity to meet this challenge, 
backed by the talent within the Foreign Service and Civil Service 
communities and among the scholars in our nation and elsewhere. Within 
the foreign policy community and the senior political leadership, there 
is a broad, shared understanding of the vital need to get this right. 
Undoubtedly, there will be some experimentation, and there will be some 
failures. But with real patience and willingness to learn from our 
mistakes, I am confident that we can succeed at this strategic level of 
counterterrorism as effectively as we have in the tactical realm, where 
we have made genuinely impressive strides.

    Senator Bill Nelson. Thank you, Mr. Ambassador.
    General?

STATEMENT OF LTG FRANCIS H. KEARNEY III, USA, DEPUTY COMMANDER, 
                U.S. SPECIAL OPERATIONS COMMAND

    General Kearney. Chairman Nelson, Senator LeMieux, Senator 
Reed, thanks for the opportunity to be here with my colleagues.
    Let me just state upfront that what they have said, we are 
largely in agreement with each other, and we work in a 
complementary manner to achieve our objectives. We look to the 
national implementation of the war on terror and its four 
pillars, one of which is CVE, to nest our 7500-series global 
war on terrorism campaign plan for DOD. The description about 
CVE, its 3 strategic objectives and 12 subobjectives, all fit 
nicely into the discussions that my 2 colleagues have 
mentioned. We recognize that we have moved, really, out of the 
main effort of attacking terrorists and their capabilities, to 
CVE as the forefront of the indirect methods that we now apply 
globally and in the two theatres of war to get at fighting 
violent extremism.
    Our view of the world, not just the theaters of war, would 
indicate that crime, migration, and extremism all come together 
to create conditions that allow violence to emerge from those 
three threat streams.
    We work twofold, both as a force provider, largely in 
providing troops that build partner capacity through security 
force assistance, and in that role, we not only deliver the 
tactical and technical means to assist our partners, but also 
focus on values, rule of law, and working in a way that 
supports the people, so that it supports the counternarrative 
that we have and underpins the legitimate governments in those 
countries.
    Second, we work as a synchronizer for DOD for the global 
war on terror, and so, we look across the spectrum of what our 
partners do. In CVE, in particular, you'll find that we have 
the expanded regional psychological operations (PSYOPs) 
program, where we have up to 25 military information support 
teams and embassies throughout the world working on the mission 
support plans that the Ambassador and his country team have for 
achieving their objectives in country.
    We have civil-military affairs support elements that, 
again, are working inside of countries globally to achieve a 
good assessment to complement what the country teams have, and 
bring with them the ability to mobilize military capabilities 
to help in assessing and adjusting the conditions, again, that 
cause crime, migration, and extremism to flourish.
    We also are the lead for DOD in countering threat finance, 
which is the fuel that allows the messaging and the message to 
get out on the street to do things, and a small piece of that 
is our counter-narcoterrorism piece.
    But, largely, as we develop for the future, as Deputy 
Assistant Secretary of Defense Reid mentioned, we are looking 
at how to deepen the capabilities of our force in looking at 
development, diplomacy, and our normal defense tasks as the 
place where we need to get good immersion in understanding the 
background, cultures, language of the affected countries in 
which we operate.
    I thank you for the opportunity to speak here today, sir, 
and I look forward to your questions.
    [The prepared statement of Lieutenant General Kearney 
follows:]
         Prepared Statement by LTG Francis H. Kearney III, USA
    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to speak with you about U.S. Special Operations 
Command's (SOCOM) role in Countering Violent Extremism (CVE). This role 
is at the core of the command's mission and purpose, one I'm pleased to 
present to this committee.
    Over two decades ago, SOCOM was founded to ``prepar[e] Special 
Operations Forces to carry out assigned missions'' in support of 
Geographic Combatant Commanders (GCCs). Since then, these forces and 
their missions changed considerably in response to dynamic global 
conditions and threats.
    Following September 11, the command shifted its role both as a 
force provider and synchronizer of planning against terrorist networks. 
Initial efforts--under what eventually became Concept Plan (CONPLAN) 
7500--were largely kinetic activities directed against the al Qaeda 
network and its affiliates.
    Through successful direct action, U.S. Special Operations Forces 
(SOF) degraded the leadership and capacity of these violent extremist 
organizations. Our forces captured and killed adversaries, frustrating 
efforts to accomplish their goals to include the acquisition of weapons 
of mass destruction. While these direct, sometimes unilateral, actions 
are essential to national security, by themselves they are not 
decisive.
    To achieve enduring success requires a broader focus, one which 
addresses the underlying causes of extremism. Specifically, the focus 
must include indirect and ideologically-based activities CVE, while 
building organic capacities toward this end among our allies and 
partners.
    This `new normal' was captured in the publication of the National 
Implementation Plan (NIP) for the War and Terror. The NIP is comprised 
of four pillars, one of which--CVE--underpins the other three: 
protection and defense of the homeland, preventing terrorist 
acquisition of weapons of mass destruction, and attacking terrorists 
and their capacity to operate.
    The current version of Department of Defense (DOD) CONPLAN 7500 
mirrors this mindset. It reflects the primacy of indirect approaches, 
both to deter active and tacit support for Violent Extremist 
Organizations (VEO) and to erode extremist support for VEO ideology.
    In turn--and echoing our founding mission--we currently see SOCOM's 
role in CVE as two-fold: as both a force provider and synchronizer of 
planning.
    As a force provider, we leverage SOF's persistent presence in over 
75 countries to conduct high quality, low profile, long-term 
engagements in Security Force Assistance (SFA). These actions foster 
trust, and enable partners to directly combat extremist organizations 
through advising, training and--when authorized and funded--equipping 
of forces.
    Functionally, this is executed by providing Special Operations 
Forces to GCCs, and--in some cases--authorized via a funding mechanism 
commonly referred to as ``Section 1208''. This mechanism affords the 
training and equipping of indigenous forces, both regular and 
irregular, in support of ongoing U.S. counterterrorism operations.
    Success is best understood as a two part equation: (1) direct 
action against violent extremists, and (2) the simultaneous preparation 
of others to face their own security challenges. When executed well, 
the latter reduces or even eliminates the need for the former.
    As previously mentioned--and in our role as a synchronizer--SOCOM's 
efforts toward CVE are detailed in CONPLAN 7500. This plan--crafted at 
SOCOM and approved by the Secretary of Defense--is joined with 
regional, supporting plans and programs of the Geographic and 
Functional Combatant Commands to accomplish the CVE mission. As a 
collective, these plans and programs allow us to work with interagency 
and international partners to synchronize CVE research, planning, 
operations, and activities on behalf of the DOD.
    Bannered under CONPLAN 7500 is a fundamental belief that extremism 
cannot be physically ``killed.'' The Command believes in cultivating 
credible influence to build the foundation for change, one which 
promotes ideologies that reject extremist affiliation and action. In 
tandem, we undercut the resources and recruitment efforts of VEOs to 
limit both their sustainment and freedom of action.
    The Expanded Trans-Regional Psychological Operations Program (ETRP) 
is the mortar in this ideological foundation, one providing a uniform 
set of objectives available to all GCCs to conduct CVE-centric, 
Psychological Operations (PSYOP) activities in support of CONPLAN 7500. 
Within ETRP is a system of checks and balances, an approval process to 
ensure Department of Defense-conducted PSYOP activities are executed 
with full awareness and approval of the appropriate Department of State 
(DOS) representative. This includes U.S. Ambassadors within countries 
where these capabilities are employed.
    USSOCOM's program of record, ETRP-Military Information Support Team 
(MIST), provides the resourcing and deployment mechanism for the forces 
executing these operations. ETRP-MIST is currently supporting 25 SOCOM 
MISTs, units deployed at the specific request of U.S. Ambassadors 
around the globe. Working closely with and authorized by Embassy Public 
Affairs and Diplomacy staffs, MIST--usually small in number--conduct 
local information programs via local media in service to ETRP and DOS 
Mission Strategic Plan CVE goals.
    USSOCOM's Joint Military Information Support Command (JMISC) 
provides operational planning, analytical, research and production 
support for all of the Geographic Combatant Commanders. JMISC produces 
six military-to-military journals, one for each GCC, with particular 
topical emphasis on CVE and regional security. In tandem, the JMISC's 
four regional influence web sites counter Internet-based misinformation 
supporting extremism, while synchronizing DOD's web-based messages on 
CVE topics.
    As a point of distinction, SOCOM remains steadfast in 
distinguishing between DOS diplomacy efforts and DOD-led influence 
campaigns. While both directly address CVE, our efforts are 
specifically designed to deter, prevent, and disrupt violent 
extremists. Still, we recognize and appreciate the logic of 
coordinating and synchronizing these endeavors toward a common 
objective of reducing the appeal of violent extremism. The Command 
supports the President's guidance to ``rebalance'' current information 
and engagement programs to both deconflict authorities and maximize 
outcomes.
    Programmatic efforts to counter ideological foundations of 
extremism are matched by actions to address the factors that sometimes 
make communities vulnerable to violent extremism. The President has 
called for a New Beginning with Muslims around the world, and the 
positive vision of mutual respect, partnership, mutual interests, and 
mutual opportunities is a powerful contrast to al Qaeda's 
destructiveness. While the military is not the lead in this effort, SOF 
Civil Affairs teams conduct a diverse set of activities promoting 
development and goodwill through building of infrastructure, job skill 
training, and the provision of medical, dental, and veterinary care in 
areas where existing governance structures are unable or unwilling 
provide these services. Again, as with SFA, the focus of Special 
Operations Civil Affairs is on long-term capacity building within local 
and national structures.
    Finally, the Command simultaneously strikes at the financial center 
of VEOs, serving as the DOD lead in Counterthreat Finance. In close 
partnership with other combatant commanders, the Services, and--as 
directed--appropriate U.S. Government agencies and international 
partners, we spearhead DOD efforts to identify, track and dry up this 
flow of capital in the interest of national security.
    With the increasing prevalence of narcotics trafficking as a VEO 
funding stream, the SOCOM Counter Narcoterrorism (CNT) Program provides 
SOF to GCCs, ambassadors, and other U.S. Government agencies to address 
the nexus of this crime and the terrorism it funds. Recent CNT efforts 
include SOF-led training and security assistance to partners in 
Colombia and Panama.
    As a collective, these examples illustrate the unique contributions 
of the forces provided by SOCOM. Our career multidimensional operators 
and headquarters personnel are individuals equally capable of direct 
action with precision and lethality. They are culturally grounded in 
their area of responsibility, while diplomatically astute enough to 
navigate the subtle ideological and social distinctions required for 
indirect approaches.
    Synchronizing planning on behalf of the DOD for global operations 
against terrorist networks is a difficult task, where prudent 
outcomes--direct and indirect--come only from prudent strategy. The 
balance of this approach is the heart of this command, and a 
responsibility we are proud to execute. In speaking on behalf of our 
entire command, we thank you for this opportunity to represent this to 
you. I look forward to answering any of your questions.

    Senator Bill Nelson. Gentlemen, what are you doing to make 
it less attractive for people to be converted to violent 
extremism?
    Mr. Reid. If you will, I'll start, Mr. Chairman.
    On the front end, we have to take actions to protect 
ourselves. As I mentioned, the way we go about doing that is 
bringing in more and more of our partner nations and involving 
them in this process builds the legitimacy of our actions; this 
removes the argument of ``the occupier,'' ``the global 
dominator,'' or ``the hegemon operating freely.'' The more we 
bring in partner nations and transition them into the lead, I 
think, in the first instance of addressing immediate threats is 
an important step.
    Supporting that is, as Ambassador Benjamin talked about--
and more in the DOS lane, I believe--is the ideological effort, 
eroding the basis of their violent ideology. The information 
programs that DOD brings into that are in support of enabling 
the spreading of the positive messages and doing a broad range 
of actions in the local areas that separate and isolate the 
insurgents and the extremists from the local population. 
Creating security space is an important step, but just as 
important is highlighting and exposing the fraudulent aspect of 
the ideology that they're spreading and encouraging the local 
population to stand up for themselves. We have to break this 
cycle.
    Senator Bill Nelson. Okay, let's take an example, exposing 
the fraudulent ideology. Now, what they've done is, they've 
taken the Koran and they've made it to say something that it 
isn't. What do you do to get out the message of what the true 
teachings of the Koran are?
    Mr. Reid. Again, our part is to create the space for that 
to happen, to break the intimidation cycle and the dominance 
cycle over those voices that are capable, willing, and credible 
to speak in the communities; getting the district governors, 
the mayors, other folks involved, and allowing them to hold the 
shuras, allowing them to reconstitute the social order that has 
been fractured through intimidation and everything else that 
the enemy is doing. That's what we can do, and maybe more on 
the message side of the effort.
    Senator Bill Nelson. Do those local officials know the true 
teachings of the Koran? Or have they been brainwashed into what 
the violent extremist version taught by some of the elements of 
al Qaeda say the teachings are?
    Ambassador Benjamin. Senator, as with any great religion, 
there are an enormous number of different streams within it. 
The overwhelming majority of Muslims, obviously, do not embrace 
a vision of their own religion that has violence at its heart. 
But, nonetheless, we do find it an important task to engage 
with influential leaders, and with clerical leaders in 
different countries around the world, to give them the media 
tools and to create the political space so that they can get 
that message across.
    I think it's very important to underscore that the United 
States is not exactly the right megaphone, if you will, for 
what the true message of the Koran is. This is a dispute among 
Muslims. What we want to do is help them fight that fight and 
underscore the nonviolent message, and delegitimate those who 
would argue that the world is about war and conflict.
    Senator Bill Nelson. For example, it certainly is not a 
teaching in the Koran that Muslims ought to be killing other 
Muslims.
    Ambassador Benjamin. No.
    Senator Bill Nelson. So, how do you go about countering 
that, Mr. Ambassador?
    Ambassador Benjamin. Of course, we have a wide range of 
activities.
    Senator Bill Nelson. You said that Americans can't 
necessarily do it, so what's the plan of DOS to get that 
message out?
    Ambassador Benjamin. We're working with numerous different 
countries to build up their capacity. Most of them have their 
own ministries of religion and have extensive contacts with the 
clergy in their own country. We're enabling them to do a better 
job to broadcast a message of moderation and to identify those 
who preach violence as being corrupters of the religion. That's 
really one of our key initiatives is building the capacity in 
these countries to deal with these communications challenges 
and fight the war of ideas.
    Senator Bill Nelson. How do you build that capacity? What 
are you specifically doing with those religious leaders that 
you mentioned?
    Ambassador Benjamin. There are a whole array of different 
kinds of endeavors. We may do people-to-people exchanges 
between leaders from Muslim communities in the United States in 
these countries, we support different kinds of conferences, we 
help these countries, especially through the activities of the 
Under Secretary for Public Diplomacy, to strengthen their own 
ability to run modern communications operations in their 
governments. There's really a very wide array of different 
kinds of programming that we can do in this area.
    Senator Bill Nelson. General, your troops find a much more 
acceptable audience in those villages, don't they, when the 
deradicalization through what we've just been talking about, 
about the true teachings of Islam, is taught? Tell us your 
experience with your soldiers.
    General Kearney. Senator, there are a lot of great 
initiatives going on right now. One of them is the Community 
Defense Initiative underway in parts of Afghanistan, where our 
forces are down there, at the lower level, dealing with tribal 
elders and having a conversation with them about not only 
deradicalization and the tenets of their own faith--we normally 
don't have that level of conversation--but we also have a 
conversation about how to empower them to make their own 
decisions, how to empower them to resolve disputes, how to give 
them back the opportunity to preach their version of how they 
read Islam to the people in their village. That varies from 
village to village to village.
    My experience in Special Operations Command Central, as the 
commander there, with the symposia that we would conduct, 
hosted in Jordan, hosted inside of the Emirates, to moderate 
nations willing to come forward and speak, is that they want to 
have a conversation on religion and they would bring in folks 
to talk, at the clerical level, to us. But, largely, that 
conversation for the military is to give them the space, as 
Assistant Secretary Reid said, to allow them to be able to 
manage their populations in a way that they want to and 
understand.
    But, clearly, they have been infected. As you said, 
metastization has occurred with the al Qaeda message out there, 
and it gives them the space to not be under the pressure of 
either the Taliban, al Qaeda, some other radical, extremist 
organization that's influencing the behavior of their 
populations. They want their opportunity to lead at their 
level, to set their own tone, their own interpretation.
    Senator Bill Nelson. Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman. Thank you for 
those questions. I want to touch back on that very important 
topic in a moment.
    I want to take this opportunity to do something that we 
don't get a chance to do much here in government, because we're 
always handling the crisis of the day and the crisis of now, 
and that is to really focus on what the chairman, I think, has 
done of good job of structuring this meeting on, which is 
emerging threats.
    We know about al Qaeda in Afghanistan; we're fighting that 
war. We know about al Qaeda in the border regions between 
Pakistan and Afghanistan. We hear stories now and are concerned 
about al Qaeda in the Horn of Africa and other places in Africa 
and throughout Southeast Asia. My preamble is to this question: 
What's the number-one emerging threat that you see? What's 
keeping you up at night? What are you forward-looking at, a 
threat that might be different than the threat that we're 
facing today? I'd like each of you to try to take a stab at 
that question.
    Mr. Reid. What is particularly concerning--and it relates 
back to the Christmas attempt--is the compactness and maybe the 
efficiency that they are applying to this process, because it 
really cuts underneath our ability to detect it and do 
something about it. The tighter they compress that, the harder 
it gets for us.
    As you said, Senator, we know where the pockets are, where 
the franchises are, if that's a good word--or the affiliates, 
maybe; we watch them. But our ability to understand what 
they're doing is limited in the first instance by our access to 
some of these areas--and clearly, in the Maghreb area, we have 
a limited footprint--but, given that standoff from which we 
observe and try to understand this, and the sources of 
information intelligence that go with that, we're still looking 
through a straw, in many cases. That is a concern.
    At the same time, from that straw, such that it is, we get 
a lot of pieces. I'm sure you see this every day, ``So-and-so 
is doing this, this person is doing this.'' You don't know 
which one is real, or which one is going to be the next one. 
So, we have a sort of broad net cast; we have small threads of 
information. Within all of that, the enemy is maneuvering 
around to really defeat our detection and our knowledge system, 
and our border security systems, as well.
    That's my greatest concern. It leads into some historical 
work about leaderless jihad and these other things. We're 
oriented very well now to networks and subnetworks, but it's 
still a relatively hierarchical approach to the problem. When 
you have yourself a radicalized individual, or your lone wolf, 
or these folks who aren't connected but are enabled by 
everything the other group is doing, they all have pretty good 
potential to do a significant act of violence against us. That 
is my answer to the question about emerging threats.
    Senator LeMieux. Thank you, Mr. Reid.
    Ambassador?
    Ambassador Benjamin. Yes, Senator, two answers. One of them 
is, I think, an elaboration on Mr. Reid's remarks. As the 
barriers to entry for sophisticated and deadly technologies 
fall, it becomes more and more possible for ever-smaller groups 
to carry out really dangerous attacks, and for individuals 
themselves to carry them out. That is a really difficult 
problem for us to grapple with because, obviously, the bigger 
the group, the more chances we have for catching it in our 
intelligence collection and to have some kind of insight into 
it. The smaller the group, the more empowered the individual, 
the more difficult the challenge for us. That is part of the 
reason why I think countering extremist ideologies is so vital, 
because if we can stop them upstream, when they're becoming 
radicalized, then obviously we have an easier job of it than 
when they're downstream and getting into all kinds of dangerous 
activities. That's one thing.
    The other thing I would point out, which is something that 
I think we don't pay quite enough attention to, is the fact 
that there are other organizations out there that are looking 
more al Qaeda-like and seem to be interested in playing a 
global role in terrorism.
    The one that probably keeps me awake most is Lashkar-e-
Taiba, in South Asia, which, of course, was responsible for the 
Mumbai bombings. The Mumbai bombings and attacks did kill a 
number of Americans. This is a designated terrorist group, and 
one we take very seriously. But, I think we need to build even 
greater concern and greater programming to target this group, 
because its target set looked very much like an al Qaeda target 
set, and if it decides that it wants to wage the global 
terrorist effort, then that will be a real challenge for us; it 
has a lot more men under arms than al Qaeda has.
    So, those, I would say, are the two big concerns.
    Senator LeMieux. Thank you, Ambassador.
    General?
    General Kearney. Senator, I worry at night about the 
decentralization of the ideological message and the ability to 
mobilize without us being able to track this, and I think my 
two colleagues have basically said the same thing. But, our 
success in eliminating leaders in these organizations, and 
their ability to communicate, which are two targeting lines in 
countering the extremist networks, have caused them to leap to 
operating on their own accord inside the intent of the al Qaeda 
message. So that means you can't see that.
    Mr. Reid has talked about the ability for them to compress 
the timeline. They've gained agility because they no longer 
have to have hierarchical approvals. That, coupled with the 
ability for them to get people into the United States and the 
information that's on the Internet about our weaknesses, our 
threats, and the ability to use tools here that exist, that you 
don't need to smuggle in, worries me.
    Industrial accidents also worry me. If you just look at our 
infrastructure and the way we move hazardous materials in the 
United States, we are potentially at great risk for people who 
are empowered, enabled, and, through knowledge that we have 
open in our society, to be able to take things.
    The last thing I would say is, I worry very much about 
transregional actors who can cause eruptions in their region. 
As we are looking at defending the homeland as one of our key 
pillars, we should watch if something spurs up as a result of 
Lashkar-e-Taiba as they continue to try and trigger some kind 
of impact between Pakistan and India in the region. It's 
keeping an eye on the ball forward as we protect the ball here 
at home.
    Senator LeMieux. I appreciate all of those answers. I think 
the thing that I want to focus on, that was a common thread 
through what all of you said, is this lifecycle shortening of 
taking a disaffected person and turning them into a weapon. If 
you look, it goes back to trying to stem the radical ideology 
in the first place because, hopefully, if there's no water to 
put on the growing threat, you can stop it before it starts. 
There has to be that radical ideology. The disaffected person 
that can now be turned into a threat, whether it's Major Hasan 
or whether it's Abdul Mutallab, or now we see this arrest of 
Colleen LaRose, whom they're describing as ``Jihad Jane,'' in 
Pennsylvania, this ability to take one person and very quickly 
radicalize them. As you said, General, with all of the tools 
that are available and all of the information that's available, 
to turn them into a weapon, that's very disconcerting.
    I think the other point I'd like to make on this, Mr. 
Chairman, is that the combination of those disaffected people 
with nation-states that sponsor terror, I think, is the next 
thing, and that's something that worries me. It's one thing to 
have a tragedy, like we had at Fort Hood, which was horrific. 
It's another, still, if that disaffected extremist gets hooked 
up with some radicalized country that sponsors terrorism and 
delivers a threat that kills tens of thousands of people in 
this country.
    One thing I'd like to ask you to focus on, and then maybe 
we'll have an opportunity to speak about it later in this 
hearing, is the potential combination that you might see 
between these groups and state sponsors of terror, whether it's 
Iran or in our own hemisphere. What I'm very concerned about is 
the combination of Iran with Venezuela, and the knowledge that 
we have, that Hamas and Hezbollah are trying to set up shop and 
do have some operations in this hemisphere. I ask you to focus 
on that, as well.
    I've talked a lot, Mr. Chairman. I know that Senator Reed 
probably has some questions, too. We can get back to it. I 
would ask that the three of you focus on that, and perhaps we 
can talk about it in just a bit.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen, for appearing here today.
    One of the aspects of our response to these threats is the 
coordination between agencies of the government. I think that's 
a perennial challenge for any government against any challenge, 
any threat.
    Let me divide CVE into a couple of different areas. First, 
there are areas we have access to, and then there are denied 
areas. I'll start with Ambassador Benjamin, and then Mr. Reid 
and General Kearney. Is there a formal division of 
responsibilities in those areas where we have access? Is it led 
by DOS? Coordinated by DOS? Then those areas with nonaccess, is 
it, by default, led by DOD?
    Ambassador Benjamin. Senator, the White House has been 
paying a great deal more attention to CVE issues in the last 
year. The coordination is being undertaken through the CSG, the 
Counterterrorism and Security Group, which is, I think, one of 
the oldest interagency groups in the government, and there is 
now a sub-CSG devoted to CVE issues.
    Obviously, on a lot of these issues and on specific 
endeavors, DOS has the lead, but there is a lot of shared 
responsibility, precisely because, as I think I may have said 
before you came in, a lot of the programming that is going on 
here is across interagency boundaries. This is very much a 
whole-of-government approach and so far, we've been quite 
pleased with the outcome.
    Senator Reed. Secretary Reid?
    That has a nice ring to it, by the way. That has a very 
nice ring. [Laughter.]
    Mr. Reid. Senator, you're a handsome man, as well, sir.
    Senator Reed. Thank you. [Laughter.]
    Mr. Reid. The----
    Senator Reed. You've said enough. [Laughter.]
    Go ahead.
    Mr. Reid. There's a lot that gets written in the press, 
sometimes, about DOD operating around the world, but, the fact 
is, again, outside of Iraq and Afghanistan, everywhere we're 
operating, we're operating through, with, and in support of, 
and in coordination with, the U.S. Ambassador in every country. 
There is not a forced-entry component to this particular 
discussion.
    The combatant commanders, obviously, work within their 
areas of responsibility, and they work very closely with the 
country teams, in every instance. We have, and the combatant 
commanders have, their theater security engagement plans, and 
they are all nested with DOS's strategic plans and the mission-
support plans that we work to support. So, in terms of who's 
leading, in our view, we're supporting in those areas outside 
of Iraq and Afghanistan.
    Senator Reed. General Kearney, what is your opinion from 
your aspect of it?
    General Kearney. Absolutely, sir. I mean, clearly, in our 
role as a synchronizer, we conduct semiannual forums, where we 
bring together our partners in DOD, our partners in all the 
interagency, and our partners in certain international 
countries to begin to work together to ply the strategy and 
translate that into operational actions to do that. Out of that 
comes taskers to different communities that largely are 
accepted by them, in a group way in there, so that the lead is 
identified, largely, by DOS, I mean, in most cases, because it 
goes through the country team to do things. We support, through 
the geographic combatant commander, the plans that he has laid 
out and that we provide forces for the plans.
    Now, we have certain niche areas where we provide a lot of 
leadership: counter-WMD, counterterrorism, building partner 
capacities, security force assistance, and those things; but, 
it doesn't really matter whether it's a denied area or a 
permissive area. We really have a government lead that is DOS, 
in most of those, where we have an ambassador; where we don't 
have an ambassador, we have a country that's responsible for 
that--say, Somalia--and we work through the Embassy in Kenya, 
with our partners there.
    So, largely I think there's good bilateral coordination and 
multilateral coordination that moves together in regional 
pockets. If you could stitch that together into a better quilt, 
with stronger thread, that probably needs to be where we need 
to go, sir.
    Senator Reed. There's an area that's implicit in a lot of 
the discussion, and that is cyberspace, in terms of countering 
the message and delivering a positive message. Once again, are 
you comfortable that we've organized our efforts effectively to 
deal in cyberspace?
    Mr. Secretary?
    Mr. Reid. I think we're still working, and we're still 
learning. The challenge in operating in the cyberworld is, you 
can find many examples of well-accepted things that happen in 
the physical world. When you try to draw a parallel of that 
type of activity, and particularly with defense activities, 
into the cyberworld, you very quickly get into an area that all 
of the attorneys in all departments get very uncomfortable with 
the legal aspects of DOD involvement.
    On the DOD side, of course, the decision to stand up the 
U.S. Cyber Command (CYBERCOM) has been made; it addresses a 
defensive need and the full range of challenges there. We're 
going to move forward and implement that, and strengthen our 
defensive capabilities, while continuing to work in the 
interagency, across the government, to identify where the 
boundaries are, in terms of DOD-led activities. It's clearly 
complicated. I would not profess that we fully understand, or 
that we've fully solved the problem, but we're applying a lot 
of energy and effort, and we have a lot of smart folks looking 
at it. It will be, many cases, sort of case-by-case and 
learning as we go about the use of DOD authorities, but also 
about the particular applications and where we get the greatest 
effect.
    Senator Reed. Mr. Ambassador?
    Ambassador Benjamin. I agree with Mr. Reid. This is an 
enormous challenge with, really, endless implications. If you 
look at the history of terrorism, the Internet is probably the 
most important technological innovation since dynamite, and 
it's enormously difficult to deal with all the different 
aspects.
    We, at DOS, are working very hard on building capacity with 
our partners around the world so that they can deal with all 
the different manifestations of terrorism that are on the 
Internet, in terms of both spreading the ideology, fundraising, 
recruitment, organizational logistics, and the like. That is a 
central part of what we do.
    Some of the more defensive issues are nested both at DOD 
and in the intelligence community. Of course, those would 
probably best be discussed in another forum.
    I think that we are still working on how we organize 
ourselves for these things. We're certainly well out of the 
starting blocks, but the challenges keep multiplying.
    I think that, for us in particular, in the context of this 
hearing, it's important to note that we are working a lot with 
NGOs and others to ensure that there are lots of contradictory 
messages to the al Qaeda narrative, to the al Qaeda ideology, 
that are on the Web. It's a challenge to get it in a way that 
is attractive to those who are at risk of radicalization. But, 
if we are going to master this, we're going to have to master 
the Internet, I think.
    Senator Reed. General?
    General Kearney. Without question, it is the domain at 
which competition for the influence of the people is the 
greatest, has the most immediate impact, and has the widest 
spread. I think it's where we are most nascent. I think we 
continue to learn, and I think it's a house divided on 
authorities to provide opportunities to counter, opportunities 
to influence, and opportunities to take apart their message and 
provide an alternate message. I think we are working through 
that, Senator.
    I don't think that CYBERCOM will be the command that does 
that. They will deal with how we move through and negotiate 
that, and where and what we're negotiating on. But, the content 
of the message, that is where the conversation is being held. I 
think we need to move with alacrity to lay out the roles in how 
we're going to do that. We provide a small piece of that in our 
command, and have some technical expertise through our PSYOPs 
piece, but it gets nested in the content of the message, and 
really is only a multiplier to what needs to be led by policy 
and the competing narrative, and then walked down into the 
people who are going to execute the conversations in each one 
of those different sites on the Internet where they are being 
held on a daily, hourly, and minutely basis.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Some of my proudest moments are seeing 
Americans abroad doing their daily task at a local level, be it 
a lieutenant or a captain using Commanders' Emergency Response 
Program funds in addition to being a warrior, and helping 
rebuild a community; seeing USAID doing just tremendous stuff; 
the devotion of our diplomatic corps; and so forth.
    But, once you get above that local level, where Americans 
are really trying to make a difference down there, I get 
worried about, number one, stovepipes--that one organization 
can't cooperate, or the communication is not there with 
another--and I worry about balance, balance between the 
military and the civilian agencies as we are trying to counter 
this terrorism. So, would you all address those issues of 
balance and stovepipes, and how do we break them down?
    Mr. Reid. Sure. Do you want me to keep going first? Do you 
want to go first?
    Ambassador Benjamin. You've done a great job. I'm happy to 
go first, whatever you like.
    Mr. Reid. Thank you, Senator. It's clearly an area where I 
think we have tried just about everything. The flattening of 
the stovepipes--the cylinders of excellence, other might call 
them--clearly is something we've taken on. As you said, it 
starts off on the ground and it tends to work better at lower 
levels. But, I would say, and as you have probably seen at the 
one-star/two-star levels of command, we have implemented and 
had the big-tent approach to our interagency task forces. In 
many cases, by invitation, we say ``Come on in,'' and the 
interagency has done that. If you've been out to the Jyada in 
Balad, Iraq, or in Bagram, Afghanistan, those are good examples 
of where we have brought in everyone that was willing and able 
to come, participate, and get involved. It isn't sort of the 
older model of a liaison officer, an LNO, with a telephone back 
to their headquarters; it's someone that's actively involved 
and part of the team, as much as we can possibly do that.
    On the DOD side, and our leaders--one thing that's 
occurring, of course, is--those that were the lieutenants 
several rotations, or now several years ago, are growing 
through these ranks; in many cases, this new dynamic, this new 
interagency warfighting, is about all they've experienced. So, 
it is unfortunate that this is going for so many years, but, in 
terms of building and rebaselining our understanding of how we 
operate, I think that is happening.
    As you get further up, I can just say, from our end here, I 
used to be a Special Forces operator, I started the war with 
General Kearney long ago. What I see here in Washington is--and 
Ambassador Benjamin mentioned it--we have more and more 
groupings where we're bringing people together. He talked about 
a subgroup on CVE under the counterterrorism group, these types 
of things. We've reorganized, in OSD, to have focus on 
strategic engagement and to have the right structures to plug 
in, here in Washington, with the other agencies' groups and 
with the multiagency groups. That's the approach we're taking, 
and we are always looking for more opportunity to do that, to 
break down those barriers.
    As for the communications effort, I think the National 
Counterterrorism Center (NCTC) has done a very good job of 
bringing collaboration forums together on the networked 
information systems at all classification levels. It is very 
difficult to do, but month by month, I have new ways to do my 
job, to interact in the interagency, that I didn't have a year 
ago or 2 years ago. I think that is how we're trying to tackle 
it on this end, as well.
    Ambassador Benjamin. First of all, Senator, I agree with 
you completely that it's really stirring to go out to a mission 
and to--for example, I was just in Nairobi--and to see both the 
people who are doing public diplomacy, the USAID people, and 
the people who are working on the Military Information Support 
Teams, all talking about how they're dealing with CVE issues. I 
really do think that, at that level, the coordination is quite 
inspiring and quite positive.
    Obviously, in large bureaucracies, stovepiping is a big 
issue. I think one of the solutions is to establish, early on, 
priorities that are shared by the senior leaders. I was really 
pleased that, when we did our summit on CVE, back in November 
2009, we did it jointly with NCTC and we had everyone at the 
office director desk or assistant secretary level around the 
table, and there was really a great deal of agreement and also 
an understanding that we can't get this done if we embrace 
business as usual.
    You need to both have the excellence that's working at the 
grassroots bubbling up, but also the insistence from the top 
that we avoid the usual meaningless fights and get things done.
    As for the issue of balancing between civilian and 
military, again that is a work in progress. It's no secret that 
our friends across the river get a little more, in terms of 
resources, but we are, as I said, grateful to Secretary Gates 
and his team for emphasizing the need for a rebalancing there. 
We're also grateful to our DOD colleagues for making it clear 
that they want to get the job done and that we should look at 
how we do this best and not wait for every other reiteration of 
the very long budget cycle.
    We are working with others around the government to ensure 
that worthy projects get funded and that the counternarrative--
the CVE mission gets accomplished.
    Senator Bill Nelson. Let's take, for example, what we've 
just done in Afghanistan, where we went successfully into this 
town, Marjah. I don't know the specifics there, but let's just 
take town X. The military moves in and clears it out; first, 
you want to stabilize the community. We have to give attention 
to adequate water; we have to show folks how to do crops 
instead of poppies; we have to attend to education of the 
children; you have to attend to training of people so that they 
can have a decent living, a gainful employment; and we have to 
be concerned about their medical care.
    Now, that's a mouthful, and we haven't even gotten into 
protecting the rights of women, okay? To stabilize that 
community, you're going to have to look at all of that. So, 
what do we do, General? How do we break down those stovepipes? 
Do we come in with a comprehensive package? Who's going to 
coordinate it once you all have cleared an area?
    General Kearney. Senator, that is a good question. I don't 
think it's hard to lay out; it's just hard to execute. 
Obviously, before they went into Marjah, and any town inside of 
Afghanistan or Iraq, there was an effort to build a phase 
methodology of security operations, followed after that with an 
introduction of our partners, both from the host nation, our 
interagency partners, and our international partners, to lay 
out a plan that, when the security situation was at a 
threshold, we could begin to work on development, governance, 
and those kind of issues.
    You've seen Provincial Reconstruction Teams (PRTs). They 
are normally the lead for an area to come in, and they are 
about to become DOS-led, in almost all cases; they are, in many 
cases, the lead right now. They have a security complement that 
comes with them that allows them to be able to work those 
things.
    You have Civil Affairs Teams that are in there initially 
with the military security force that's going in to do the 
operation, doing those forward-area assessments to be able to 
provide information back to the PRTs so that they can begin to 
do things.
    This has been laid out in a very consistent way under 
General McChrystal's plans. He is working forward to do things, 
in a campaign architecture, so we now are robust enough in 
Afghanistan, both in our interagency partnership, our NATO 
allies, other allies, and in our force structure, to be able to 
do that.
    Not 18 months ago, my son, Captain Kearney, was commanding 
a company in the Korengal Valley, Afghanistan, and he was the 
lone ranger. When he talked to the tribal leadership about 
their lumber business, he was the person bringing things back, 
and a measure was made on whether it was worth investing in 
that. Even though we were there spending human treasure to 
achieve an end state, it wasn't resourced properly with 
expertise from our partners with funding, and with a campaign 
methodology that was going to get us there. We are moving in 
the correct direction in Afghanistan as a team effort to do 
things, and largely that's because we've deployed the people to 
the field to do that.
    Senator Bill Nelson. Is this working to CVE?
    General Kearney. I think right now it is optimistic, in our 
view, that it can work. I don't think that we will be the 
people who determine whether or not this will CVE. It will 
really be the governments, at the local, tribal, provincial, 
and national level, that can adjudicate disputes for the 
people, allow them to practice, in their own cultural ways, 
those things that need to be done there.
    But, I will tell you that it's different in every valley, 
every regional command, and every country as we do these 
things. So, the approach that's working in Afghanistan, in 
Marja, may not be the same approach that will work in another 
portion of that country, and clearly is not the approach that 
will work somewhere else to CVE. It is a start in that 
particular environment.
    Senator, as we counter these narratives, the ``s'' in 
narratives is huge, plural. They are all different; they are 
all nuanced; they are all ethnically, religiously, and 
culturally based; and each one requires the same detailed 
solution at that local level as the architecture to support it 
does at our level as we bring assets to bear.
    Senator Bill Nelson. Each of you has said, today, that you 
all are ``largely'' working together. What can we do, in 
Congress, to help you bridge the differences so that you're not 
``largely'' working together, but that you're more completely 
working together?
    Mr. Reid. I would just emphasize again, Mr. Chairman, the 
point that Ambassador Benjamin has brought up a couple of 
times. From our view, in DOD--and you talked about the 
balance--the best thing you could do for us would be to expand 
the resources and the capacity within the diplomatic side of 
the house, in DOS.
    We're arm-in-arm with these folks on the ground, and 
they're involved in the fight. They'd like to have more, and 
we'd like them to have more. Whatever could be done to build 
that up would be the biggest thing you could do for us. I know 
that, working within the authorities, all the legislation, and 
all those things that we have, I think we're pretty comfortable 
there. The challenge is just, as I said earlier, in finding 
what our role is and where the limits are. I don't advocate 
that there needs to be a big realignment there in this effort, 
but strengthening the capacity within DOS would certainly be a 
boost for us, as well.
    Senator Bill Nelson. So, Mr. Ambassador, you think there is 
a resourcing and capacity gap?
    Ambassador Benjamin. I do. I agree with Mr. Reid; I think 
he has it right. I think that when we can bring more to the 
table, that always makes things work better.
    I will tell you that I was just out holding a regional 
meeting with a number of posts. We were in Athens, and I was 
talking to people from, I believe, Iraq and its neighbors, so 
lots of countries in that region, talking about what we wanted 
to do in terms of CVE programming, and one of General Kearney's 
colleagues, a three-star general, was with us, and we realized, 
after about 20 minutes, that he had never been in such a long 
conversation about such a small amount of money. That money was 
what we were bringing to the table.
    We are resource-constrained in this area, and we would 
really appreciate any support. Of course, the long-term 
political importance that Congress lays on this mission is an 
enormous boost for us, in terms of doing our work. That's what 
we look to you for.
    Senator Bill Nelson. I want to turn to Senator LeMieux, but 
let me tell you, it just drives me bats when I hear, ``Well, we 
have the resources to dig a well, but we don't have the 
resources to go over here and help with education.'' We have to 
figure this out, some way.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    I want to make a point on a thread that we've discussed and 
that the chairman was talking with you about, as well as 
Senator Reed, and then I want to turn to a question on a 
different topic.
    On information operations, we have not done as good of a 
job, I think, that we could have. I think you said, General, 
our efforts were in the nascent stages, and we're building on 
them.
    When I went to Afghanistan at the end of October 2009, I 
saw one of your folks, General, Colonel Craft, who I think now 
is back in, maybe, North Carolina, but he was there, working 
with the Afghan commandos. We were very impressed with what he 
was doing, where he was setting up these local radio stations, 
he was working with the local governor, and he was getting out 
the information, so that when the Taliban said, ``The Marines 
just came through and killed a bunch of women and children,'' 
which was a lie, they were able to get out accurate information 
quickly and have a place where people could get their questions 
answered.
    It occurs to me, and it occurred to my colleagues on that 
delegation visit, which was Senator Whitehouse and Senator 
Burr, that, in terms of this kind of marketing--and that's not 
the right term--or information strategy--the United States of 
America does this better than anyone in the entire world. We 
get out a communication strategy, whether it's on a political 
campaign or to sell goods and services, better than anyone in 
the world. I've had this conversation with General Petraeus, 
and I understand that, in Iraq, we actually use some outside 
folks from Britain to help us.
    But, I would just encourage you to be mindful of the fact 
that there are tremendous resources available to you, outside 
of the traditional military and government structures, to put 
in place to help sell our message, whether you're trying to 
counter the radical interpretation of the Koran, or whether 
you're trying to get the information out to people on the 
ground that we're doing good things, not bad things. I wanted 
to make that point.
    The question I have for you, and I want you to talk about, 
is Iran. I want you to tell us what your views are of Iran as 
an emerging threat to this country.
    Mr. Reid. I'll go back to, for this discussion, Senator, 
your question or your comment about the linkages between state 
sponsors of terror, radicalization, and the broader problems we 
face. When you asked that question, the first thing that 
occurred to me was this example of warfare we saw in the 2006 
war between Israel and Lebanon, in which you had a very strong 
and very effective Hezbollah-armed activity. This falls into 
this area that we are currently trying to get our arms around; 
some refer to it as hybrid warfare. I agree with you that this 
is something we should be concerned about because it brings, 
yet again, another wave of challenges, and it will put us, if 
we have to face this type of warfare, in a position where we 
will be relearning and applying lessons we've learned in this 
broad counterterrorism fight, combined with other lessons and 
other methodologies, some of which maybe have not been things 
we've been doing a lot of lately. So, that combination of an 
unregulated terrorist organization, working at the behest of, 
or in support of, an aggressive state sponsor, is particularly 
alarming for us and what we do about it and how we organize our 
capabilities. I know going forward that there is a lot of 
ongoing work on this to really sink our teeth into what the 
implications are.
    More broadly, to your question, sir, obviously we're 
concerned about what's coming out of Iran, in terms of its 
nuclear program. The administration has signaled a desire to 
move towards a different approach, a pressure approach. We're 
engaging with our allies on what those approaches might look 
like. I would just add that, and where we want to focus that, 
is really on the bad actors, and not do it in a way that 
affects the majority of Iranian people that are not involved in 
what's happening with the elites in the regime and their 
global, sort of, terrorist conglomerate that they're fielding.
    It is absolutely an area of great concern in that regard, 
as well.
    Senator LeMieux. Ambassador?
    Ambassador Benjamin. Senator, there's no question that Iran 
was, and remains, the number-one state sponsor of terrorism. 
Its support for Hezbollah, for Hamas, and for a number of 
smaller Palestinian rejectionist groups, remains the main 
enabler of those groups. As a result, it is a primary 
impediment to achieving peace in an absolutely critical region. 
We remain concerned about their efforts to engage in all kinds 
of destabilization.
    I would make two points in this regard. One is that, I 
think that what we need to recognize that, if Iran continues to 
thwart the will of the international community, and continues 
with its nuclear program, the prospect of Iranian-backed 
targeting of U.S. and other western interests will rise. I 
don't know that we expect them to do anything rash in advance 
of a real confrontation, but we can't rule it out. We are being 
very vigilant about that. We continue to be very concerned 
about the arming, and the really significant rearming, of 
Hezbollah since the 2006 conflict.
    I would add one note that I think underscores an advantage 
that we have here, and that is that, as a state, Iran is 
deterable in a way that al Qaeda is not. We can, of course, 
deter Iran, as they have assets, they have territory, and they 
have all kinds of interests that they want to protect. This 
has, really, over the last 15 years, been a major reason why 
Iran has not been targeting us in the way that they did in, 
say, the early 1980s. I think that the Iranian leadership 
learned a lesson in that regard about the foolishness of going 
after U.S. targets. But, the government there has been 
increasingly hard-line and, in some ways, unpredictable, so 
it's certainly a country that we are watching very, very 
closely and trying to keep close tabs on what they might be up 
to.
    Senator LeMieux. General?
    General Kearney. Senator, there is no shortage of effort on 
our part to look at what is clearly the number-one sponsor of 
state terror, has efforts underway to be able to capitalize on 
what is going on in the world today, and is constantly testing 
and probing the limits of what they can achieve against their 
regional adversaries by holding them hostage with surrogate 
organizations that work for them. These organizations are 
largely in the Levant in the Middle East, and of course, have 
tentacles that exist all the way down into South--Central 
America, and again, have the ability to ride on the 
communication lines that migration, crime, and extremism have 
moved on historically.
    The Iranians are a worthwhile adversary. They think, they 
probe, they test, they're well resourced, and they are people 
not to be taken slightly. But, as Ambassador Benjamin said, 
they are a state and there are things you can do against a 
state. We have an overwhelming capability to take action 
against them, should the United States choose to do that at 
some point in time, and inflict harm on them, their 
infrastructure, and folks.
    At the same time, there is a rising population of youth who 
are interested in learning, growing, and surfing the Internet. 
You have to balance actions that you might take or consider 
against what you would gain or lose through actions that would 
reverse a growing population that seems unsettled with the 
leadership and the direction of their country. That discontent 
is growing and growing over time.
    Iran is a very, very interesting place where policy 
options, combined with military options, all have to be weighed 
with great measure by our senior leadership here as we plot the 
way ahead. I think there's a lot of effort underway to think 
about that, at this point, as we look at trying to deter where 
they are going with their nuclear energy program and the 
potential for weaponization.
    Senator LeMieux. Thank you, General.
    I think, Mr. Chairman, this really is compelling testimony 
on this topic, because we hear, from the Ambassador and the 
General, that Iran is the number-one state sponsor of terror.
    A point I made earlier, which I want to just talk about for 
a second before I turn things back over to the chairman, is 
that I think we're all focused on Iran. We're all worried about 
the combination of a terrorist, with Iran, delivering a 
destructive terrorist attack to this country, whether it be a 
chemical weapon or a nuclear weapon. That's something, I know, 
that's on your radar screen.
    Where I would ask you also to focus is not just to look 
east for that threat, but to look south, because I am 
concerned, with President Ahmadinejad visiting Venezuela and 
President Hugo Chavez on multiple occasions, and trying to 
project Iran's force into Latin America, and its presence, and 
visiting countries like Brazil, who is an ally of ours, and the 
growing concern about Hezbollah and Hamas. We know there are 
terrorists already in Latin America. We know that our allies in 
Colombia have been fighting the Revolutionary Armed Forces of 
Colombia (FARC) for several years. We learned, this past week, 
that a Spanish judge has brought forward information that he 
believes that Venezuela, working with Euskadi Ta Askatasuna 
(ETA) in Spain and with the FARC, were trying to assassinate 
President Uribe of Colombia, and other Colombian officials.
    I worry, and what keeps me up at night, is that terrorist 
threats could come from the south, with a combination of Iran, 
Venezuela, Hamas, and Hezbollah, to our country. I ask you to 
be vigilant about that, as well.
    I think that, because of all the other problems in the 
world, we have lost our focus on Latin America. To the 
chairman's point, we have some wonderful people in the 
military, as well as in DOS, who are doing great work down 
there. But, please keep your focus on that, because I think, in 
terms of emerging threats, we all know Iran is the real 
existential threat, I think, to the Middle East, to Europe, and 
to us. We have to look at dangerous combinations that could 
occur to the south.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Thank you.
    You all have been an excellent panel. The challenge of CVE 
is a challenge of the entire globe. The Christmas Day bomber 
got his training in Yemen. Special Operations has a lot going 
on in Somalia. There's a lot going on in Indonesia, the 
Philippines, in the Maghreb. There is no part of the globe that 
is immune from this, so the challenge is significant.
    I want to thank you all for this panel. Let me call up the 
second panel. Thank you very much. [Pause.]
    We want to welcome Douglas Stone, the President and 
Chairman of Transportation Networks International; Scott Atran, 
the Professor of Anthropology and Psychology at the University 
of Michigan and the John Jay College of Criminal Justice; and 
James Forest, the Director of Terrorism Studies and Associate 
Professor of Political Science at the U.S. Military Academy.
    Welcome. [Panelists expressed thanks.]
    Senator Bill Nelson. Your statements will be inserted in 
the record. I want to start out by saying, okay, you've heard 
the U.S. Government, what sayeth thou? Who wants to start?
    [The prepared statements of General Stone, Dr. Atran, and 
Dr. Forest follow:]
    Dr. Stone. Sir, I was sitting by Dr. Atran, and I think I 
would like to defer to him. He was taking very good notes on 
this topic.

    STATEMENT OF SCOTT ATRAN, PROFESSOR OF ANTHROPOLOGY AND 
  PSYCHOLOGY, UNIVERSITY OF MICHIGAN AND JOHN JAY COLLEGE OF 
                        CRIMINAL JUSTICE

    Dr. Atran. All right, let me just give you an indication of 
where I come from. I go out into the field and trek with 
Mujahideen and talk to their leaders, or the leader of Jemaah 
Islamiyah or Lashkar-e-Taiba. A couple of months ago, I was 
with Khaled Mashal, the chairman of Hamas Politburo, and 
Ramadan Shallah, the secretary general of Palestian Islamic 
Jihad (PIJ). I go out I talk to the leaders. Then, I go out 
into the field and talk to the kids. I sit with them as they 
watch the Internet; I talk to suicide bombing families and 
cousins; I'm trying to figure out what they do. I'll talk about 
Iran specifically in a second. I think that one of the great 
shortfalls in our current approach is that there's really no 
one out there studying things, in depth, in the field. Many 
legislators and policymakers think that there are actual 
studies that are publicly available, can be replicated, and can 
be falsified if they're wrong, not gut-feeling studies, and not 
from the clandestine agencies; there's really nothing going on 
out there. So, people don't know, unless it's after action in 
theater, after they've already blown up a place, what really is 
going on among the kids. I think if your committee really wants 
to be relevant and solve the radicalization problem that you 
pose for yourself, you have to know the pathways that lead 
these young people to violence, so you can know how to take 
them away from violence. Again, I don't think there's much of 
anything being done.
    I think we're fixated on technology and technological 
success. When some guy, who is one of the most reputable men in 
his country swallows his pride and love to come into an 
American embassy and say his son is being dangerously 
radicalized, I mean, even a moron could pick that up. I think 
we're spending billions of dollars on widgets, and very little 
on engaging socially sensitive people who know what the dreams 
and visions of these people are, how to leverage nonmilitary 
advantages, how to create alliances, and how to change 
perceptions; they just are poor at it.
    In the military there are rewards and promotion, as there 
should be, for operational prowess and success in combat. 
That's the way it should be for fighting and winning battles. 
But, if, indeed, the objective of the U.S. military now is a 
political mission, as well, to democratize, to help 
democratization, it is not currently up to par. There are no 
rewards or promotions for being socially savvy and culturally 
sensitive or for knowing what is going on among the people. 
There is just no structure for it. I think this is a terrible, 
terrible mistake, given the mission that the United States has 
right now.
    Senator Bill Nelson. In last Thursday's New York Times, 
there was a column by Nicholas Kristof, and he said basically 
what you've said, that reports suggest that the U.S. will 
provide $150 million in military assistance to Yemen, and it'll 
also provide $50 million in developmental assistance. How much 
of that assistance is going into education, where you can send 
a kid for $50 a year to school?
    Dr. Atran. People talk here a lot about things like 
brainwashing and recruitment. I see almost none of that. I see 
young people hooking up with their friends. You'd be surprised 
how many whole soccer teams \1\ can go to Iraq and get 
themselves blown up. I see them hooking up with their friends 
and going on a glorious mission. There is nothing more 
thrilling, adventurous, and glorious than fighting the greatest 
power in the world today, and jihad is an equal employment 
employer; anyone can do that. It has to be at the level of 
peer-to-peer relations, not so much talking to community 
leaders. Even in Afghanistan, you have new guys--23-year-olds, 
not tribal elders--who are running the opinions of these young 
people. You have to get them where they meet--in their barber 
shops, in their restaurants--know what's going on with them, 
and steer their message. This does not happen from the top.
---------------------------------------------------------------------------
    \1\ Following the hearing, Dr. Atran requested his characterization 
be clarified to state ``how many friends from soccer teams and 
neighborhoods can go to Iraq.''
---------------------------------------------------------------------------
    I've found that Salafis and Wahhabis are the only ones I 
have ever encountered in the field who have actually gotten 
people not to do suicide bombings after they have committed 
themselves to a bombing. You can utilize these guys.
    I see confusion. We were with the New York Police 
Department (NYPD) and others in Riyadh, Saudi Arabia. The NYPD 
and the Federal Bureau of Investigation (FBI) have marvelous, 
marvelous programs. I think the FBI's\2\ program on 
deradicalization is probably the best in the world I've seen. 
They're all over the world. But, they're there in Saudi Arabia 
with the Prince that is there, and the FBI is saying, ``We have 
to stop the Salafis,'' when 99 percent \3\ of Saudis are 
Salafis, including the Prince. There's just no cultural 
sensitivity that I can think of. It's gotten post-talk; after 
the fact, people come in, and then they realize they have to 
know what's going on, on the ground.
---------------------------------------------------------------------------
    \2\ Dr. Atran later indicated he intended to cite the New York 
Police Department rather than the Federal Burea of Investigation for 
success.
    \3\ Dr. Atran noted this number should be 90 percent following the 
hearing.
---------------------------------------------------------------------------
    Senator Bill Nelson. I want to hear from the other two 
witnesses, but, in essence, then, you say, what we just heard 
on the government panel is just more of the same.
    Dr. Atran. You've heard it.
    Senator Bill Nelson. You're saying that the U.S. Government 
really doesn't understand the concept of violent jihadists.
    Dr. Atran. No. I think there are people in the government, 
quite a bunch of people in the government, that do. I think 
Doug Stone understands CVE. He's not in the government anymore.
    Senator Bill Nelson. It's too bad that the first panel 
didn't stay so they could hear this. May we send a transcript 
to each of the first panel?
    Dr. Atran. Let me just say one more word on Iran.
    We just finished the study. We have a massive study going 
on in Iran right now. Again, based on fieldwork, what we're 
interested in is finding out whether the people are committed 
to acquiring a nuclear capability, a nuclear weapon. We find 
that about 11 percent are in Iran. The more you provide carrots 
and sticks--that is, the more you do material incentives, 
either for or against--the more this 11 percent becomes devoted 
to trying to acquire a nuclear weapon in Iran.\4\
---------------------------------------------------------------------------
    \4\ Dr. Atran asked that additional remarks be included after the 
hearing to elaborate on this topic. They are as follows: Significantly 
fewer [Iranians] are interested in acquiring a nuclear weapon, as 
opposed to nuclear energy, which is now a matter of national identity 
and pride. But at each stage, the regime manages to get the population 
to go along with media portrayals, say, of children who could be cured 
of cancer with radiation treatments, implying the west wants Iranian 
children to die. We have to learn how to counter these messages in ways 
the Iranian public can latch on to.
---------------------------------------------------------------------------
    I think the studies themselves can offer very surprising 
insights into what's going on in these people's minds in the 
case of Iran, but also in other areas.
    [The prepared statement of Dr. Atran follows:]
                Prepared Statement by Scott Atran, Ph.D.
    Chairman Nelson, Ranking Member LeMieux, and Senators, I appreciate 
your letting me, an anthropologist, relate my views on the U.S. 
Government's strategy and efforts to counter violent extremism and 
radicalization and the military's role in these efforts. I've been with 
would-be martyrs and holy warriors from Morocco's Atlantic shore to 
Indonesia's outer islands, and from Gaza to Kashmir. My field 
experience and studies in diverse cultural settings inform my views.
    This an apt moment for such a hearing, given the recent uptick in 
homegrown terror activities, the failed Christmas Day airliner attack, 
and further rooting of al Qaeda's viral social movement in Pakistan, 
Yemen, Somalia, the Maghreb, and the worldwide web.
    First of all, there is a deep lack of Field-Based Scientific 
Research on Pathways to and from Political and Group Violence. To be 
specific:

        <bullet> At present, we spend tens of billions of dollars to 
        equip and protect our servicemembers, but only fractions of 
        that are spent on understanding the pathways to and from 
        violent extremism, which maybe even more important for keeping 
        our country safe and our service men and women out of harm's 
        way.
        <bullet> The concept of science-based field research--embedded 
        in potential hotspots and open to public verification and 
        replication, with clear ways and means to falsify what is 
        wrong--is often misunderstood in Washington. Most legislators 
        and policymakers think that we have a great deal of this type 
        of research being undertaken and funded. We don't.
        <bullet> If you want to be successful in the long run where it 
        counts--in stopping the next and future generations of 
        disaffected youth from finding their life's meaning in the 
        thrill and adventure of joining their friends in taking on the 
        world's mightiest power; if this committee is to be truly 
        relevant in solving the radicalization problem that it poses, 
        then you have to understand these pathways that take young 
        people to and from political and group violence. Then, knowing 
        these pathways, you can do what needs to be done.
        <bullet> Quality field-based scientific research can help save 
        lives and treasury. Here is how it works. At ARTIS Research, 
        for example, and with assistance from the Air Force Office of 
        Scientific Research, Air Force Research Lab, the Army Research 
        Office, the Office of Naval Research and the National Science 
        Foundation, we put anthropologists, sociologists, political 
        scientists, psychologists, mathematicians, and sometimes even 
        physicists and chemists into interdisciplinary teams in a 
        conflict region. We then begin to explore the nature of the 
        conflict with leaders, community members, and youth. We follow 
        up with an experimental design--which allows ready replication 
        of initial results or falsification of our hypotheses--to 
        understand pathways to and from violence.

    Here are a few of our general findings on recent changes in paths 
to violent extremism:

        <bullet> As ARTIS Policy Fellow Juan Zarate described in his 
        January 27 testimony before the House Armed Services Committee, 
        as a result of formidable U.S. military and intelligence 
        efforts, al Qaeda is on the ropes globally, faced with ever 
        dwindling financial and popular support, and drastically 
        diminished ability to hook up with other extremists worldwide, 
        much less command and control them for major operations against 
        us.
        <bullet> The main security concern no longer comes from any 
        organization, or from well-trained cadres of volunteers who 
        typically had some advanced education, often in engineering and 
        medical studies. The threat today is from al Qaeda--inspired 
        viral social and political movement that abuses religion in the 
        name of defending a purist form Sunni Islam, and which is 
        particularly contagious among Muslim youth who are increasingly 
        marginalized--economically, socially, politically--and are in 
        transition stages in their lives, such as immigrants, students, 
        and those in search of friends, mates, and jobs.
        <bullet> Economic globalization, which has led to greater 
        access by humankind to material opportunity, has also led to a 
        crisis, even collapse, of cultures, as people unmoored from 
        millennial traditions flail about in search of a social 
        identity. Today's most virulent terrorism is rooted in 
        rootlessness and restlessness. This gives an opening for 
        embrace by the radical fraternity that preaches the jihadi 
        cause, whose oxygen is the publicity provided by global media. 
        The Qaeda movement is largely a diaspora phenomenon of people 
        who enlist, rather than are recruited, outside their country of 
        origin.
        <bullet> The widespread notion of a ``clash of civilizations'' 
        along traditional historical ``fault lines'' is woefully 
        misleading. Violent extremism represents a crash of traditional 
        territorial cultures, not their resurgence. Individuals now 
        mostly radicalize horizontally with their peers, rather than 
        vertically through institutional leaders or organizational 
        hierarchies. They do so mostly in small groups of friends--from 
        the same neighborhood or social network--or even as loners who 
        find common cause with a virtual internet community.
        <bullet> Entry into the jihadi brotherhood is from the bottom 
        up: from alienated and marginalized youth seeking out 
        companionship, esteem, and meaning, but also the thrill of 
        action, sense of empowerment, and glory in fighting the world's 
        most powerful nation and army. In an ongoing study for the 
        Army, ARTIS Research Director Marc Sageman finds that popular 
        jihadi Internet Imams, like Anwar al-Awlaki, are important not 
        because they brainwash, command, or even guide others to 
        actions and targets. Rather, popular radical Imams serve as 
        ``attractors'' whose message and presence draws into line a 
        searching soul who has already pretty much chosen his own path. 
        Major Hassan, for example, sent over a score of email messages 
        to Awlaki but received only two back, with no operational 
        implications.
        <bullet> Gallup and Pew surveys indicate that perhaps 7 percent 
        of the world's Muslim population--nearly 100 million people--
        sympathize with jihadi aspirations. But of those many millions, 
        only a few thousands actually commit to violence. Our data show 
        that a reliable predictor of whether or not someone joins the 
        Jihad is being a member of an action-oriented group of friends. 
        It's surprising how many soccer buddies join together.
        <bullet> The boundaries of the newer terrorist networks are 
        very loose and fluid, and the internet now allows anyone who 
        wishes to become a terrorist to become one, anywhere, anytime. 
        More and more, terror networks are intertwined with petty 
        criminal networks: drug trafficking, stolen cars, credit card 
        fraud, and the like. This development is in part an unintended 
        consequence of two of our successes: financial policing forced 
        would-be terrorists to rely on local, low-cost, informal, 
        underground methods of financing; and disruption of their 
        organizations meant that terrorists would have to find new 
        clandestine means for acquiring weapons and managing logistics.
        <bullet> Although lack of economic opportunity often reliably 
        leads to criminality, it turns out that some criminal youth 
        really don't want to be criminals after all. Given half a 
        chance to take up a moral cause, they can be even more 
        altruistically prone than others to give up their lives for 
        their comrades and cause. This is one indication--and our 
        research reveals others--that economic opportunities alone may 
        not turn people away from the path to political violence. 
        (Indeed, material incentives, whether ``carrots'' or 
        ``sticks,'' can even backfire when they threaten core values, 
        as our recent research has shown for Israel, Palestine, 
        Indonesia, and Iran). Rather, youth must be given hopes and 
        dreams of achievement, and plausible means to realize such 
        hopes and dreams.
        <bullet> Therefore, a coherent program to counter extremist 
        violence should focus on peer-to-peer efforts, not elders 
        trying to teach youth about moderation or the Koran. It will 
        take mobilizing the purpose-seeking, risk-taking, adventurous 
        spirit of youth for heroic action. Today, ``Happiness is 
        martyrdom'' can be as emotionally contagious to kids in a 
        forlorn urban African neighborhood or to a lost youth on the 
        Internet as ``Yes, we can.'' That is a stunning and far-
        reaching development that we must learn to steer in the right 
        direction.

    Why present U.S. efforts to counter radicalization abroad fall 
short:

        <bullet> For two main reasons: We are fixated on technology and 
        technological success, and we have no sustained or systematic 
        approach to field-based social understanding of our 
        adversaries' motivation, intent, will, and the dreams that 
        drive their strategic vision, however strange those dreams and 
        vision may seem to us.
        <bullet> On the intelligence side, the Christmas Day bombing 
        attempt was a deep failing caused, in part, by too great a 
        reliance on technology to the detriment of social intelligence. 
        Computers, and the stochastic models and algorithms they use, 
        are not particularly well suited to pick up the significance of 
        the almost unimaginable psychological effort it took for one of 
        the most respected men in a nation to swallow his pride and 
        love of family and walk into an American embassy to say that 
        his son was being dangerously radicalized. Widgets--for which 
        there are billions of dollars--cannot do the job of socially 
        sensitive thinkers--for whom there is relatively little 
        concrete support--in creating alliances, leveraging non 
        military advantages, reading intentions, building trust, 
        changing opinions, managing perceptions, and empathizing 
        (though not necessarily sympathizing) with others so as to 
        understand, and change, what moves them to do what they do.
        <bullet> On the military side, career advancement in the armed 
        forces privileges operational prowess and combat experience, 
        which are necessary to gain victory in battles. But different 
        abilities also may be necessarily for winning without having to 
        fight, or for ending a war in Lincoln's definitive sense of 
        destroying enemies by making them into friends. After all, as 
        George Marshall well understood, that is what American efforts 
        at democratization abroad are ultimately about. Soldiers 
        continue to be trained and rewarded as operators and combat 
        organizers, but they are not as adequately trained for the 
        political mission they are now being asked to carry out, which 
        requires cultural and psychological expertise at being social 
        mediators, managers, and movers. As one Air Force General said 
        to me: ``I was trained for Ds--defeat, destroy, devastate--now 
        I'm told we have responsibility for the Rs--rebuild, reform, 
        renew . Well, I was never trained for that, so what the Hell am 
        I supposed to do? Destroy in just the right way to rebuild?''
        <bullet> A serious problem in our cooperation with intelligence 
        and military counterparts in several countries--for example, 
        Morocco, Egypt, Uzbekistan--is that they have trouble even 
        recognizing they have homegrown problems of radicalization that 
        are not due to the west or to some nebulous ``Jihad 
        International.''
        <bullet> We're winning against al Qaeda and its associates in 
        places where antiterrorism efforts are local and built on an 
        understanding that the ties binding terrorist networks today 
        are more about social connections than political or 
        ideological. I recently argued in the New York Times (``To Beat 
        Al Qaeda, Look to the East,'' December 13, 2009, http://
        www.nytimes.com/2009/12/13/opinion/13atran.html) that using 
        knowledge friendship, kinship and discipleship has been very 
        successful in Southeast Asia, and shows promise for Afghanistan 
        and Pakistan. The Senate Foreign Relations Committee, in its 
        January 20, 2010 report on ``Al Qaeda in Yemen and Somalia'' 
        (http://foreign.senate.gov/imo/media/doc/
        Al%20Qaeda%20in%20Yemen%20and%20Somalia.pdf) also recommends, 
        as part of U.S. strategy, the understanding that I outlined, 
        although I believe that more research is needed there to 
        support that recommendation.

    At home, efforts by intelligence and law enforcement to counter 
radicalization have been minimally disruptive of society and effective, 
and could better inform efforts abroad.

        <bullet> Success at home is greatly facilitated by the fact 
        that the overwhelming majority of Muslim immigrants into the 
        United States, unlike in Europe, become rapidly and thoroughly 
        integrated into mainstream American society. Immigrant Muslims 
        generally buy into the American dream and succeed in education, 
        in the economy, and in maintaining a strong, composite sense of 
        both Muslim and American identity.
        <bullet> The approach of the NYPD, informed by its fine 
        intelligence analysis unit and keen sensitivity to the city's 
        diverse cultural makeup, is exemplary. Recent proposals by the 
        FBI's Community Relations Unit hold reasonable promise for 
        preventing radicalization by building resilience in potential 
        hotspot communities. I have asked the FBI to provide a summary 
        of its program to you, and it is has been made available as a 
        handout.
        <bullet> Recent community outreach programs in the UK, the 
        Netherlands, and Denmark are trying to build resilience within 
        their Muslim communities to radicalization, and they are 
        experimenting with a variety of different local initiatives to 
        see what works best. A drawback is that in some cases they use 
        anti-democratic interlocutors (Salafis and Wahhabis) to reach 
        out and bring back would-be jihadis into the nonviolent fold. 
        That has given Islamist groups prestige in the community and 
        validated them to some degree.
        <bullet> Yet, in some Muslim countries, like Indonesia and 
        Saudi Arabia, Salafi and Wahhabi initiatives have been the most 
        effective at drawing young Muslims back from violence.
        <bullet> Turkey's approach, like that of Indonesia and Saudi 
        Arabia, treats jihadi terrorism more as an issue of public 
        health and community responsibility than as a criminal or 
        military matter. That approach appears to be producing positive 
        results.

    Involve social scientists, but not in theater:

        <bullet> There is a pressing need for fieldwork by social 
        scientists in actual and potential conflict zones. There is 
        also compelling case for involving social scientists in helping 
        to form cultural and social awareness in the military theater. 
        Nevertheless, social scientists should not be directly embedded 
        with military units in theater.
        <bullet> For example, I do not think that efforts like the 
        Human Terrain System experiment in Afghanistan are all that 
        promising. It is the infantry units themselves that should be 
        trained before they go in theater to be culturally sensitive, 
        and not have to rely on temporarily embedded ``combat 
        ethnographers'' who move from unit to unit, thus undoing the 
        personal connections that may have made them effective with the 
        local population by providing medical aid and other needed 
        nonmilitary services.
        <bullet> More important for our Nation, such efforts as these, 
        small as they are, are potentially quite counterproductive. 
        They only further alienate most social science academics from 
        the military or, indeed, from any involvement in U.S. policy 
        decisionmaking that involves projection of power or conflict. 
        The military and cultural reality of the terrain may favor 
        having embedded social scientists be uniformed and armed (in 
        part, because unarmed Western civilians would more likely draw 
        fire as high-value targets). But the possibility that social 
        scientists themselves would have to fire their weapons and 
        perhaps kill local people--indeed, the mere sight of armed and 
        uniformed American social scientists in a foreign theater--is 
        guaranteed to engender academia's deep hostility.
        <bullet> Ever since the Vietnam war, there has been mutual 
        antipathy and antagonism between most academic social science--
        at least at the outstanding universities--and U.S. military 
        operations and military-related policymaking. But unlike the 
        case with the Vietnam war, many social scientists today believe 
        that violent extremism is a danger that needs to be dealt with. 
        Training and rewarding soldiers for being culturally 
        knowledgeable and socially savvy--which goes beyond learning a 
        language or studying a checklist of cultural preferences and 
        habits--could be so much more effective for achieving our 
        country's political and military mission. Moreover, involvement 
        of top social scientists in deliberations such as these, and in 
        publicly transparent field projects, could help heal the divide 
        between some of our best thinkers and policymakers and 
        operators.

    A coherent program to counter violent extremism should focus on:

        <bullet> Preventing radicalization to violence--especially 
        among youth and the next generation.
        <bullet> Countering radicalization that has progressed to 
        violence, by decoupling the Qaeda movement from the local and 
        cultural grievances and national movements that Qaeda tries to 
        co-opt. For example, the Taliban and Somalia's Islamic Courts, 
        unlike al Qaeda, are interested in their homeland, not ours, 
        and all need to be dealt with very differently.
        <bullet> Deradicalizing those who have committed to violence. 
        Although a ``public health'' approach to radicalization would 
        be hard to legally implement in the USA, it has been part of 
        the apparent success of the deradicalization program initiated 
        by General Douglas Stone in Iraqi prisons, which gives families 
        and communities responsibility for keeping former detainees out 
        of trouble. In a reversal of the policies that led to the 
        abuses of Abu Ghraib, that program has seriously addressed the 
        cultural sensitivities of detainees and respect for their 
        persons.
 summary: deradicalization, like radicalization, is better from bottom 
                            up than top down
    When you look at young people like the ones who grew up to blow up 
trains in Madrid in 2004, carried out the slaughter on the London 
underground in 2005, hoped to blast airliners out of the sky en route 
to the United States in 2006 and 2009, and journeyed far to die killing 
infidels in Iraq, Afghanistan, Pakistan, Yemen or Somalia; when you 
look at whom they idolize, how they organize, what bonds them and what 
drives them; then you see that what inspires the most lethal terrorists 
in the world today is not so much the Koran or religious teachings as a 
thrilling cause and call to action that promises glory and esteem in 
the eyes of friends, and through friends, eternal respect and 
remembrance in the wider world that they will never live to enjoy.
    Our data show that most young people who join the jihad had a 
moderate and mostly secular education to begin with, rather than a 
radical religious one. Where in modern society do you find young people 
who hang on the words of older educators and ``moderates''? Youth 
generally favors actions, not words, and challenge, not calm. That's a 
big reason so many who are bored, underemployed, overqualified, and 
underwhelmed by hopes for the future turn on to jihad with their 
friends. Jihad is an egalitarian, equal-opportunity employer (at least 
for boys, but girls are web-surfing into the act): fraternal, fast-
breaking, thrilling, glorious, and cool. Anyone is welcome to try his 
hand at slicing off the head of Goliath with a paper cutter.
    If we can discredit their vicious idols (show how these bring 
murder and mayhem to their own people) and give these youth new heroes 
who speak to their hopes rather than just to ours, then we have a much 
better shot at slowing the spread of jihad to the next generation than 
we do just with bullets and bombs. If we can desensationalize terrorist 
actions, like suicide bombings, and reduce their fame (don't help 
advertise them or broadcast our hysterical response, for publicity is 
the oxygen of terrorism), the thrill will die down. As Saudi Arabia's 
General Khaled Alhumaidan said to me in Riyadh: ``The front is in our 
neighborhoods but the battle is the silver screen. If it doesn't make 
it to the 6 o'clock news, then al Qaeda is not interested.'' Thus, the 
terrorist agenda could well extinguish itself altogether, doused by its 
own cold raw truth: it has no life to offer. This path to glory leads 
only to ashes and rot.
    In the long run, perhaps the most important anti-terrorism measure 
of all is to provide alternative heroes and hopes that are more 
enticing and empowering than any moral lessons or material offerings. 
Jobs that relieve the terrible boredom and inactivity of immigrant 
youth in Europe, and with underemployed throughout much of the Muslim 
world, cannot alone offset the alluring stimulation of playing at war 
in contexts of continued cultural and political alienation and little 
sense of shared aspirations and destiny. It is also important to 
provide alternate local networks and chat rooms that speak to the 
inherent idealism, sense of risk and adventure, and need for peer 
approval that young people everywhere tend towards. It even could be a 
21st century version of what the Boy Scouts and high school football 
teams did for immigrants and potentially troublesome youth as America 
urbanized a century ago. Ask any cop on the beat: those things work. 
But it has to be done with the input and insight of local communities 
or it won't work: deradicalization, like radicalization itself, best 
engages from the bottom up, not from the top down.
    In sum, there are many millions of people who express sympathy with 
al Qaeda or other forms of violent political expression that support 
terrorism. They are stimulated by a massive, media-driven global 
political awakening which, for the first time in human history, can 
``instantly'' connect anyone, anywhere to a common cause--provided the 
message that drives that cause is simple enough not to require much 
cultural context to understand it: for example, the West is everywhere 
assaulting Muslims, and Jihad is the only the way to permanently 
resolve glaring problems caused by this global injustice.
    Consider the parable told by the substitute Imam at the Al Quds 
Mosque in Hamburg, where the September 11 bomber pilots hung out, when 
Marc Sageman and I asked him ``Why did they do it?''

          ``There were two rams, one with horns and one without. The 
        one with horns butted his head against the defenseless one. In 
        the next world, Allah switched the horns from one ram to the 
        other, so justice could prevail.''

    ``Justice'' (`adl in Arabic) is the watchword of Jihad. 
Thunderously simple. When justice and Jihad and are joined to 
``change''--the elemental soundbite of our age--and oxygenated by the 
publicity given to spectacular acts of violence, then the mix becomes 
heady and potent.
    Young people constantly see and discuss among themselves images of 
war and injustice against ``our people,'' become morally outraged 
(especially if injustice resonates personally, which is more of a 
problem abroad than at home), and dream of a war for justice that gives 
their friendship cause. But of the millions who sympathize with the 
jihadi cause, only some thousands show willingness to actually commit 
violence. They almost invariably go on to violence in small groups of 
volunteers consisting mostly of friends and some kin within specific 
``scenes'': neighborhoods, schools (classes, dorms), workplaces, common 
leisure activities (soccer, study group, barbershop, cafe) and, 
increasingly, online chat-rooms.''
    A key problem with proposals on what to do about radicalization to 
violent extremism is lack of field experience with the context-
sensitive processes of selection into violence within these scenes. To 
understand and manage the local pathways to and from violent extremism 
requires science-based field research that is open to public 
verification and replicable, with clear ways and means to falsify what 
is wrong so as to better and better approximate what is truly right.
    I and others at ARTIS are at your disposal to work with you on 
understanding how these processes and pathways to radicalization 
operate in the field in potential conflict regions around the world.
---------------------------------------------------------------------------
    For examples from case studies, see the ARTIS Report : 
``Theoretical Frames on Pathways to Violent Radicalization: 
Understanding the Evolution of Ideas and Behaviors, How They Interact 
and How They Describe Pathways to Violence in Marginalized Diaspora,'' 
Report to the Office of Naval Research, August 2009; http://
www.artisresearch.com/articles/ARTIS--Theoretical--Frames--August--
2009.pdf.
---------------------------------------------------------------------------
         addendum-1 to atran testimony 3-10-10 sas-etc hearing
Understanding Pathways to and from Violent Political Extremism
    Of the millions who sympathize with an extremist cause, only some 
thousands show willingness to actually commit violence. Our research 
indicates that they almost invariably go on to violence in small groups 
of volunteers consisting mostly of friends and some kin within specific 
``scenes'': neighborhoods, schools (classes, dorms), workplaces, common 
leisure activities (soccer, study group, barbershop, cafe) and, 
increasingly, online chat-rooms.
    A key problem with proposals on what to do about radicalization to 
violent extremism is lack of field experience with the context-
sensitive processes of selection into violence within these scenes. To 
understand and manage the local pathways to and from violent extremism 
requires science-based field research that is open to public 
verification and replicable, with clear ways and means to falsify what 
is wrong so as to better and better approximate what is truly right.
    At present, we spend tens of billions of dollars to equip and 
protect our servicemembers, but only fractions of that are spent on 
understanding the pathways to and from violent extremism, which maybe 
even more important for keeping our service men and women safe.
    The concept of field based research is often misunderstood in 
Washington. Most legislators and policymakers think that we have a 
great deal of this type of research being funded. We don't.
    Quality field-based scientific research can help save lives and 
treasury. Here is how it works. At ARTIS we put anthropologists, 
sociologists, political scientists, psychologists, mathematicians, and 
sometimes even physicists and chemists into interdisciplinary teams in 
a conflict region. We then begin to explore the nature of the conflict 
with leaders, community members and youth. This approach allows us to 
build an experimental design--which allows ready replication of our 
initial results or falsification of our hypotheses--to understand the 
pathways that lead people to and from violence.
    ARTIS Research was established because there was a vacuum of 
capability and knowledge within the U.S. Government. The scientists and 
policymakers at ARTIS run the gamut from very conservative to very 
liberal, but they are joined in a common cause to lessen the threat 
from political violence, and draw our country and armed forces out of 
harm's way, by understanding the pathways to political violence through 
interdisciplinary field based scientific research. Talent continues to 
come to us.
    Preventing radicalization is our first endeavor. We can do this by 
understanding the pathways to violence and redirecting susceptible 
populations with culturally appropriate stimuli in order to channel 
ambitions into more peaceful enterprises. We can understand the stimuli 
if we imbed field based scientific research within USAID and other 
foreign assistance programs.
    Counter radicalization is our second endeavor. Those who have 
already radicalized must be countered by redirecting persons involved 
into more peaceful alternative pathways. Again, countering 
radicalization is context-dependent; what works in one part of the 
world may not work in another. Because of the dependent nature of 
radicalization to context, counter radicalization programs must be 
instructed by an intellectual understanding of the environment in which 
radicalism incubates.
    Deradicalization is our third endeavor. As violent extremists are 
arrested, captured or interdicted, there should be a formalized program 
which attempts to deradicalize those who have participated in 
furthering the cause of violent expression. Again, deradicalized 
programs in others parts of the world can instruct us on methods that 
work in different contexts.
    ARTIS provides a valuable role for the U.S. Government in its 
approach to prevent, counter and deradicalize those individuals that 
have fallen prey to an extremist agenda by developing a concrete 
understanding of pathways to and from politically motivated violence. 
We perform work with the Air Force Office of Scientific Research, Air 
Force Research Lab, the Army Research Office, the Office of Naval 
Research and the National Science Foundation.
    ARTIS is at your disposal to work with you on understanding how 
pathways to violent extremism operate in the field in potential 
conflict regions around the world.
        addendum-2 to atran testimony, 3-10-10 sasc-etc hearing
U.S. Department of Justice Federal Bureau of Investigation--FBI 
        Outreach to the Arab-American, Muslim, Sikh, and South Asian 
        Communities
    Since 11 September 2001, the FBI has been developing an extensive 
program to strengthen relations with the Arab-American, Muslim, Sikh, 
and South Asian communities. The goal of the program is to dispel myths 
about FBI and U.S. Government policies toward these communities, to 
build better trust, and to encourage interest in careers with the FBI.
    FBI Headquarters and our 56 Field Offices reach out to the Arab-
American, Muslim, Sikh, and South Asian Communities in the following 
ways:

        <bullet> FBI Headquarters has established liaison with the 
        national leaders of Arab/Muslim American advocacy groups. The 
        Special Agent in Charge and the Community Outreach Specialist 
        in our Field Offices have also established liaison with the 
        local chapters of the same groups.
        <bullet> FBI Headquarters conducts scheduled bimonthly 
        conference calls and impromptu conference calls with community 
        leaders to discuss specific issues, threats, or news reports 
        when they occur.
        <bullet> The FBI conducts outreach to media outlets that have 
        access to these communities. FBI Headquarters consults with 
        national Arab/Muslim American organizations such as the 
        American-Arab Anti-Discrimination Committee (ADC) to develop 
        effective communications strategies.
        <bullet> FBI Headquarters attends interagency meetings with 
        community leaders and components of the Department of Justice 
        on a routine basis.
        <bullet> FBI Field Offices have conducted several town hall 
        meetings in the past year. Most town hall meetings have local 
        media presence; some have even been broadcasted as far as 
        Europe, the Middle East, India, and Pakistan.
        <bullet> The FBI participates in conferences of national and 
        local organizations to educate members of the community about 
        the FBI. National leaders from the community also participate 
        in FBI sponsored events to educate the FBI about their culture.
        <bullet> The FBI participates in interagency meetings with 
        community leaders to discuss current issues or items of 
        interest to the community.
        <bullet> The FBI is a member of the Incident Management Team to 
        engage the community when incidents involving the community 
        arise.

    The FBI Citizens' Academy and the Community Relations Executive 
Seminar Training (CREST) programs are key components of our outreach 
efforts.

        <bullet> The Citizens' Academy is a popular 8 week program 
        designed to give community leaders an overview of FBI and 
        Department of Justice policies and procedures. The Academy 
        classes are taught by FBI executives and senior FBI Special 
        Agents.
        <bullet> The CREST is a subprogram of the Citizens' Academy 
        designed to give community leaders an overview of FBI and 
        Department of Justice policies and procedures. It is a shorter 
        program conducted in partnership with a community group at an 
        offsite location. The curriculum focuses on topics specifically 
        requested by the organization requesting the training. The 
        classes are taught by FBI executives, senior FBI Special 
        Agents, or subject matter experts.

    To date, Citizens' Academy graduates, CREST graduates, and Multi-
Cultural Advisory Committee members have engaged the FBI and provided 
valuable insight into the dynamics of various cultures. The 
partnerships developed help foster dialogue and continue to bridge gaps 
in communities where we face the biggest challenges in terms of trust 
and credibility. The opening of dialogue between the field and the 
various communities has presented the FBI with additional opportunities 
that have resulted in investigative successes for various programs in 
the field.
FBI Outreach to the Somali Community:
    FBI Director Mueller recognized that the FBI's outreach efforts 
with ethnic and minority communities, although engagement existed, 
could greatly be enhanced and inroads to relationship building 
furthered. These communities, fearful and distrustful of the FBI, had 
shaped their perceptions of the FBI through rumors within their 
communities and negative images seen on television and in the media. 
There was a disconnect. As a result, in 2009 the Director approved the 
implementation of a pilot program to shape the focus of the FBI's 
outreach mission. The Specialized Community Outreach Team (SCOT) came 
to fruition as a way to build an engagement platform between the field 
offices and all the ethnic communities in their areas of 
responsibility.
    The Somali community provided the first opportunity to implement 
the pilot program. The highly-skilled representatives of the SCOT 
deployed to a select number of cities that have a high Somali 
population. They used a laser-point strategy to develop connections 
with community leaders and organizations that have a pulse on their 
community. These personnel bring a cultural awareness and sensitivity 
to the community and a professionalism that facilitates the first steps 
of engagement.
    The results were immediate. To date, in meeting with community 
leaders in the cities of Seattle, Columbus, San Diego, and Denver the 
SCOT has not met any resistance. In fact, the leaders welcomed the 
opportunity to engage the FBI. By reaching these individuals and 
ultimately newer members of their community, we can help change their 
opinion of the FBI, planting positive seeds and fostering trust for 
long-term relationships.
    The SCOT's engagement with the Somali community also played a key 
role in the 2009 Presidential Inauguration. A reported Somali threat 
during the inauguration was diffused with the help of the SCOT's 
efforts. Having made inroads to community leaders within Columbus' 
Somali community, SCOT members reached back, sooner than expected, to 
those key individuals for their assistance. The SCOT advised community 
leaders about the threat as it pertained to their community and that 
FBI agents would be investigating. The transparency helped allay fears 
and concerns and allowed for those trusted community leaders to spread 
the word through their established oral network. When FBI agents 
knocked on community members' doors, some of the anxiety was minimized 
due to the FBI's proactive outreach posture. Proactive FBI Community 
Engagement--Countering Violent Extremism Today, the FBI is collectively 
taking steps to identify areas/communities of concern regarding 
potential violent extremism within the United States. Moreover, to 
establish inroads into these potentially vulnerable communities at the 
grassroots level prior to extremist roots permeating the community and 
affecting those vulnerable for recruitment. The FBI's objectives, to 
name a few, though this proactive approach are as follows:

        <bullet> Develop partnerships/relationships with peaceful/
        mainstream individual citizens and organizations that have a 
        voice and high standing within the community.
        <bullet> Develop communication with local communities to 
        identify emerging threats in advance.
        <bullet> Assist and/or partner with community based groups/
        organizations in establishing programs to engage and deter 
        violent extremism.
        <bullet> Empower and increase the capacity of local community 
        police divisions/units to engage violent extremism as a Force 
        Multiplier.

    Senator Bill Nelson. Dr. Stone, Dr. Forest, do you want to 
add to this?

      STATEMENT OF DOUGLAS STONE, PRESIDENT AND CHAIRMAN, 
             TRANSPORTATION NETWORKS INTERNATIONAL

    Dr. Stone. Sir, I would like to start by placing my own 
involvement in context. I was the commanding general over Task 
Force 134 during the surge; I had responsibility for all of the 
interrogation and detention in Iraq.
    Senator Bill Nelson. That was in Iraq?
    Dr. Stone. That is correct, sir. I have, however, served a 
couple of years in total between Pakistan and Afghanistan. I do 
speak those languages and have spent a fair amount of time 
trying to study it as a reservist.
    With that, I'd like to pick up on a couple of themes.
    Senator Bill Nelson. Please.
    Dr. Stone. First of all, sir, I'm quite specific about who 
the enemy is, and I refer to them as ``violent Islamists.'' For 
them to be successful, they must recruit in significant 
numbers. Sir, when the chairman mentioned earlier to the former 
panel, ``What should the cohesive vision be?'' my answer, sir, 
would have been to focus on reducing recruiting and to make 
that the single priority amongst our entire government effort. 
Ask yourself the question, were it that we did that--whether it 
be the Armed Forces and how they fight, DOS, each agency, and 
the wonderful work of these great Americans--if every effort 
they did was to limit recruiting, sir, outside the continental 
United States (OCONUS) and inside our own country, alone, would 
that not be the right aligning vision?
    It was said earlier, in the earlier panel, ``You can't see 
them.'' That's not true.
    Senator Bill Nelson. That you can't what?
    Dr. Stone. You cannot see violent Islamists; you can't find 
them. That's not true. Every community they live in knows who 
they are, in general. Our issue is, we don't know the 
community, to what Dr. Atran points out.
    Terrorism is a warfighting technique. The true enemy are 
violent Islamists, and their effort is an effort to convert the 
Ummah, the greater body of the Muslim religion. I have, I 
think, sir, 49 speaking engagements. I don't go to any of them 
anymore unless there are Muslims there and it's something like 
a Rotary Club. You know why, sir? Because those are the 
individuals who will make a difference in our country about how 
our country responds when the next effort really goes on in 
this country.
    My definition of victory has been, for the last 6 years, 
that this ideological war ends when nonviolent Muslims feel 
empowered and cause violent Islamists in their faith to be 
marginalized. You notice, sir, that I said ``this ideological 
war'' and that ``nonviolent Muslims must feel empowered.'' 
Ergo, sir, our powers of government need to facilitate that end 
objective, that they are empowered and that they cause the 
violent Islamists amongst them to be marginalized.
    We need a national campaign. Little question about it 
across multiple disciplines. I've written, in my paper, what 
some of those might be.
    But, I would like to pick up on what was just mentioned and 
say that it's abhorrent to me that our leadership, fighting in 
these battles, no matter where they're at, can't speak the 
language, can't read the texts, and can't argue the arguments 
in the context that the others argue them.
    Sir, in Task Force 134, the way we reduced recidivism was 
through a combination of things, but one of the ways was that 
we had 143 Imams who were able to translate the 80-plus 
arguments against the violent Islamic beliefs and turn those 
thinking patterns around after, sir, they had a basic education 
to be able to read the Holy Koran themselves. It's appropriate 
if our leadership should understand that, as well. It was true 
in World War II. We had a significant number of German speakers 
and Japanese speakers. It isn't true now.
    We need to engage in directed efforts to both demystify the 
threat and to disarm it. We need to establish metrics of 
success and new definitions of what winning really means, and 
new definitions of what fighting really means in an active and 
engaged problem-solving manner.
    I believe, sir, we have to align with the Muslims of our 
communities. The United States is a Muslim nation. We have 
Muslims in our Nation. I speak to them, and I'm with them quite 
frequently. They're as concerned and as engaged, in their own 
way, but they have no aligning understanding of how to do help. 
They'll tell you, ``You need to be involved in cyberspace, you 
need to be involved in community groups, you need to be 
involved with educators, you need to be involved with prison 
officials, you need to be involved with our religious 
leadership, and you need to be involved with our families.'' 
Essentially, sir, what we need to do as a country is out-
recruit and offer alternate ideologies and different dialogues 
than those that are being offered by the violent Islamists, the 
Web sites, and the places that they go.
    Most importantly, we have to be mindful that every single 
tactic represented by the former group that was sitting here 
and all of those that are out doing the hard work of our 
Nation's defense, that they not employ tactics that will 
enhance the ability of the enemy to recruit. You must ask 
yourself each time, ``Is what I'm doing facilitating, or not, 
that recruiting objective?''
    Some of these objectives, sir, in tribal warfare, are 
counterintuitive. In that context, I might even ask you to 
rethink the desperate act, the terrible act, of September 11. 
If the real goal of violent Islamic behavior is to convert the 
Ummah, what was the act of September 11?
    So, concurrently, we must demonstrate that whether they're 
a detainee or a citizen, that we respect the rights of an 
individual and preserve their dignity.
    I write, sir, in my paper, about the three fundamental 
steps of radicalization. They're not particularly difficult to 
understand; in the question period, if you like, we could 
discuss them. But, what is less studied in our Nation is how to 
address the radicalization process. Critical to our defense is 
learning who this enemy is and how it is that you counter this 
process, wherever they may attempt to recruit, and then to 
attack this nonkinetic objective with the same competency that 
we use kinetics.
    Along with the Muslim community, we need to create a global 
counterinitiative which results in slowing this radicalization 
and resultant recruiting. This is asymmetrical warfare. It's a 
form of warfighting, but it requires what we've learned in 
combat when it's been successful and what the great civilian 
agencies, who were formerly mentioned, practice today; that is, 
education, alliance with Muslim religious leadership, 
interviews, interrogation, detention, direct countering of 
ideological claims, and the engagement of families.
    For violent Islamists, any rule of law different than God's 
law, or Sharia, is also violently inconsistent with their 
belief. At your leisure, sir, I would love to speak to that 
topic as it relates to our own Constitution in its thread.
    With that, sir, I would turn it over to your other 
panelists.
    [The prepared statement of Dr. Stone follows:]
                  Prepared Statement by Dr. Doug Stone
    Mr. Chairman, and members of the committee thank you for inviting 
me to testify before the Subcommittee on Emerging Threats and 
Capabilities on the U.S. Government efforts to counter violent 
extremism.
    I begin my remarks on with the assertion that our Nation faces the 
constant threat of terrorist actions from violent Islamists.
    In an effort to recruit and grow their ideological insurgency 
within the Muslim global community and in an effort focused on 
``altering'' the mainstream ideology of the Ummah towards a specific 
and fundamental orientation, this effort must recruit.
    Indeed to be successful in this effort, they must recruit 
significant numbers.
    Thus, the asymmetrical use of terrorism, a common precursor tactic 
in most insurgencies, is to establish fear and intimidation in order to 
change policy, and attract recruits to their cause. Terrorism, as a 
prolonged tactic, without resulting in significant recruiting rarely 
achieves the ideological objective of the force employing the tactic. 
The reason is that to be effective terrorism must kill civilians in a 
marquee event, and over time, without winning over that population, the 
insurgent cause is lost. Force of such kind can win, fear and 
intimidation can prevail, but terrorists, by killing those they want to 
convert, run a risk of alienating that same population. Tribal in 
nature, and often in strategic and tactical employment, the terrorists 
we encounter today understand this risk to recruiting if they kill or 
offend the ``wrong'' members of the community. Therefore, killing 
American's in general, is an aligning function and helps recruiting.
    It is vital that this subcommittee, our government, and our 
citizens not alter the desired end state but focus all energies on a 
broad range of existent and new talents and techniques to neutralize 
this threat. I believe there are three precepts to begin with:

    1.  Identify terrorism as a warfighting tactic.
    2.  Identify the true enemy as ``violent Islamists''.
    3.  Identify the true aim of the ideological cause as a 
``conversion'' of the Ummah, the body of global Islamic believers.

    By so doing, I hope to answer your question by saying that our 
national efforts, to counter this threat must be focused on, in part, 
reducing the likelihood of the violent Islamists ability to recruit in 
globally significant numbers.
    I will state my own definition of the desired end state in this 
ideological fight; ``This ideological war ends when the nonviolent 
Muslims feel empowered and then cause the violent Islamists within 
their faith, to be marginalized''.
    To this end, while our military forces (Active and Reserve, CONUS 
and OCONUS based) must provide for the common defense, we must 
recognize that other agencies are needed, as are nontraditional--
perhaps nonexistent--skill sets; new measures of success; different 
alliances; and new approaches that enable precise human intelligence 
gathering and sound policing techniques in order to thwart the efforts 
of those committed to violent Islamic ideologies and practices.
    To defend ourselves we need a clear, coordinated, and national 
campaign across multiple disciplines--education for our own leadership 
and citizenry; the constant development of new techniques in new 
populations across many nations. Some of those techniques will be 
comfortable, some hostile, and in ways that tomorrow will seem common 
sense, but today feel odd maybe even threatening. We need to speak the 
languages, read the texts, argue the arguments in context, and engage 
in directed efforts to both demystify the threat and to disarm it. We 
need to establish metrics of success, new definitions of ``winning'', 
new definitions of ``fighting'', and active and engaged problem solving 
from not just the halls of our Federal Government but from our entire 
citizenry, rallying them to understand what the threat is, and how they 
can provide for our common defense.
    To gain clear and actionable intelligence that proactively defends 
our citizens, while protecting our rule of law and liberties. We must 
know the enemy, and know and thwart his intentions. Simply put, we must 
align with those Muslims, who in each community can provide clear 
warning of such intentions.
    This means that we must engage in person and across cyberspace--in 
community groups, with religious leadership, educators, prison 
officials, and families both within our borders and outside of them 
where the threat of recruiting might generate. We must ``out recruit'' 
and offer alternate ideologies, and different dialogues now offered by 
violent Islamists. More importantly, we must be mindful not to employ 
tactics that will enhance the enemy's ability to recruit--as the 
example of Abu Gharib so clearly illustrates.
    Concurrently, we must demonstrate that whether detainee or citizen 
we have respect for the rights of an individual and preserve their 
dignity; yet we must accept the necessity of killing and capturing 
those who pose a direct warfighting threat to our citizens and national 
interests. For the mission to succeed these two pillars must stand side 
by side yet remain separate and equal.
    The U.S. Government agency with the greatest funding can usually 
direct the approach. The Department of Defense (DOD) rightly has a 
large budget, but to counter this challenge, we need to increase 
resources, both capital and human, in many areas of our government, 
other than DOD in an effort to discover the right balance of 
engagements necessary to counter this threat.
    To recruit, when not practicing the techniques of fear and 
intimidation, violent Islamists have effectively employed 
radicalization to the cause. Altering the belief structure of an 
individual such that they willingly discard all other forms of belief, 
oaths, family ties and societal norms and choose to willingly 
participate in advancing the cause of the violent Islamist ideological 
effort, and to act as a recruiting example, by conducting violent acts 
of terrorism--including and quite commonly suicide bombings.
    The process of violent Islamic radicalization is reasonably well 
known, and I over simplify by saying that it has three steps:

    1.  The West, led by the United States, is engaged in a war against 
Islam.
    2.  Muslims are obligated to defend their religion and there are 
theological justifications for doing so.
    3.  Violence is the necessary means to defend the religion.

    What is less well studied in our Nation, is how to address this 
radicalization process. Critical to our defense, is learning who this 
enemy is, how to counter this process wherever it may attempt to 
recruit, and to attack this non-kinetic objective with the same 
competency that we use kinetics. Along with the Muslim community, we 
need to create a global counter initiative, which results in slowing 
this radicalization and resultant recruiting effort. This is an 
asymmetrical form of warfighting that requires education, alliance with 
Muslim religious leadership, interviews, interrogation, detention, the 
direct countering of ideological claims, the engagement of families, 
and efforts in economic development as well as teaching the skills of 
security and defense.
    By definition asymmetrical warfighting must engage the sectors of 
our government charged with foreign policy, justice, protection of our 
borders, education, humanitarian and relief efforts, outreach to at 
risk populations to understand what programs or tactics are necessary 
to turn an at risk population into an ally.
    Using kinetics DOD can create room for this type of asymmetrical 
warfighting to be carried out. One cannot exist without the other. This 
will require a cultural shift within the military leadership, our armed 
forces, and our governmental and nongovernmental partners. DOD and our 
military forces recognize at all levels that kinetics is not always the 
best or only answer. Non-military agencies and organizations will need 
to understand that the threat posed by radical Islamist is real and 
immediate and that kinetics will provide the safe harbor to begin the 
``social'' work that must be done. If we are to succeed our citizenry 
will need to understand and support this critical shift to 21st century 
warfighting.
    Key to this success will be that we find and support those in the 
Muslim faith, in leadership and nonleadership, tribal and nontribal, 
secular and nonsecular roles to counter the narrative of violent 
Islamists, and to codevelop the full range of techniques and skill sets 
needed to counter radicalization and recruiting.
    As we sit in the halls that make our laws, across from the other 
two branches of our Government that enforce and judge those laws, I 
want to remind you that for the violent Islamists, that concept--of a 
rule of law different than God's Law--Sharia, is violently inconsistent 
with their own belief. There is no need but for Sharia, judged by the 
Ulema, and its basis is the Holy Quran.
    To fail to internalize this reality is to fail to understand the 
motivations of most of these warriors for God. It is also why, at the 
extreme, this is the battlefield of the mind, and as much an 
ideological battle for the definition of a global citizen as it is 
about which rule of law should be the rule of the land. Violent 
Islamists believe in only one interpretation of that concept. While 
they are not trying to change our Constitution or its foundation, so 
clearly stated in the Declaration of Independence--the concepts therein 
must, in their minds, be subservient to Sharia.
    This makes the challenge of this ideological war unique, one that 
mandates new learning by our own leadership and citizenship about a new 
enemy, by the need for the creation of new alliances, by new and clear 
clarification of goals, by clear knowledge between defensive actions 
and offensive actions, and in examining the physical and ideological 
borders of our own Nation as we provide for our citizen's common 
defense, in this, yet another challenge to our revolutionary concepts 
that all men are created equal, under a rule of law, with the freedom 
to believe as their own judgment best guides.
    Again, let me thank you Mr. Chairman, and members of the 
subcommittee for the honor of appearing before you today. I am pleased 
to answer any questions you may have.

    Senator Bill Nelson. Give us your thoughts, Dr. Forest, 
about all of this. What do you think about the government 
panel?
    Senator Graham. Mr. Chairman, I don't mean to interrupt. I 
mean, this has been fascinating. I have another hearing. Is 
there any way I can just ask a few questions, or should we 
wait?
    Senator Bill Nelson. Of course, of course.
    Senator Graham. Thank you.
    Senator Bill Nelson. Senator Graham.
    Senator Graham. Mr. Chairman, one, thanks for having this. 
This is a very timely topic.
    Dr. Forest, I'll let you speak in just a moment.
    I'd love to be here for the whole hearing, but I have to 
leave shortly. I'm just a big Doug Stone fan. I knew him as 
Major General Stone. I'm sure our other two witnesses have a 
ton to offer this hearing as well, but I just want to put on 
the record the role that Major General Stone played in Iraq.
    Camp Bucca was a military prison in the southern part of 
Iraq, in the Shia part of the country, that was being used by 
the American military to detain Iraqis that we thought were 
part of the insurgency. A couple of weeks before Doug took 
over, there was a riot in the prison. People had been in that 
jail in the southern part of Iraq, at that time, for a couple 
of years and never seen, really, a human being at all. The 
Sunnis were beginning to believe that this jail was an American 
prison being operated in collaboration with the Shi'a elements 
of Iraq. It was a nightmare. They literally had riots, and it's 
just amazing that a bunch of people weren't killed.
    When General Stone took over, he transformed that prison 
from being an insurgent breeding ground to part of the 
counterinsurgency success story. He brought in moderate Muslims 
to talk about what the Koran actually meant. He created an 
education program within the prison. I was there, as a 
reservist, when he did all this. The Minister of Education came 
in and certified the Camp Bucca education system as being 
Iraqi-compliant. In other words, if you graduated from the 
program in Camp Bucca, you were acknowledged by the Iraqi 
Government as having graduated from an Iraqi school system. We 
were giving people the opportunity to learn to read, write, and 
get a fifth-grade education, which made you eligible for 
employment with the government throughout Iraq.
    In addition, he created a job training program, where the 
people at Camp Bucca were given job skills, like making bricks. 
When someone was released from Camp Bucca back to Anbar 
Province, where the fight was going on, they had had an 
opportunity to learn from other Muslims what the Koran actually 
said, they had an opportunity to get an education that made 
them more employable, they had a job skill that was relevant, 
and they went back to Anbar as part of the solution and not 
part of the problem. Even so, there were people within the 
prison camp that were irreconcilable. The very first thing he 
did was to try to evaluate each prisoner and break cells apart. 
The ones that were on the fence, that planted the improvised 
explosive device (IED) for $500 because they had to feed their 
family, they basically were in a prison system where the 
radicals controlled the prison. So, he broke those groups 
apart, making sure that the ones that were reconcilable had a 
chance to come out of the prison and be a part of the solution.
    We had 24,000 people at the height of the war. Having those 
people out of Anbar gave us breathing space, in terms of the 
surge. But, what had been seen as a military prison arbitrarily 
confining Iraqis based on what the Shia Government wanted, 
became, in the eyes of the Sunni politicians, a humane, well-
run prison, and he, Major General Stone, opened the prison up 
to all Iraqis and the press, including Sunni politicians. The 
prison got to be so popular that when people were released, 
Sunni politicians would speak. I was at one of the ceremonies 
where we released 150 people; their families were there, and it 
was a very emotional event.
    Finally, Major General Stone instituted a rule-of-law 
program that I worked with him on that made a lot of sense. 
Every detainee, every 6 months, got to appear before a panel of 
military officers or noncommissioned officers (NCOs) to make 
their case that they were rehabilitated or shouldn't be 
confined. The release rate went from 5 percent to 30 percent. 
People thought there was a way out; it rewarded good behavior. 
The warfighters had a better idea of what they were doing; they 
were less likely to object to a release because they saw how 
the prison was being run. Before then, the Marines said no to 
almost every release because, from their point of view, it's 
just one more guy to fight.
    Major General Stone, what you did in that prison, I think, 
was one of the key elements of the surge being successful.
    I would just ask a few questions and not take so much of 
the time.
    We now have a problem before us in Afghanistan. We have 
1,200 bed spaces available in the American military prison. 
We're not going to get any more bed spaces. We had 24,000 
people in military prison in Iraq, which gave the warfighters 
some breathing space, but we have 800 people and 400 bed spaces 
in what used to be Bagram Air Base Prison. So, when we capture 
somebody on the battlefield, they have to really look hard as 
to whether or not we can confine them in an American military 
prison because there's just not enough bed space. The Afghan 
legal system is very immature. You have a real dilemma, from 
the warfighter's point of view, and that's one of the reasons 
I'm working with the administration on detainee policy.
    I do believe that Guantanamo Bay is the best-run prison in 
the world right now, but the image of Guantanamo Bay, in the 
Mid-East, particularly, lingers. We need to break that because 
it is still a recruiting tool, even to this day. One problem 
with Guantanamo Bay being open is that our allies will not turn 
prisoners over to us; the politics of them potentially going to 
Guantanamo Bay makes it impossible. Our British allies, our 
best friend in the entire world, have a policy where they won't 
turn detainees over to us because of the Guantanamo Bay issue.
    My plea to Congress is, let's look at detainee policy in a 
rational way. Let's have a way to keep the irreconcilables off 
of the battlefield. There are 48 people at Guantanamo Bay this 
administration has identified as too dangerous to let go, but 
will never be going to criminal court, for various reasons. 
That is allowed under the law of war. But, there are plenty of 
people at Guantanamo Bay, and other places, that we may turn 
around.
    What I would recommend to this committee is that, when we 
look at our detainee policy, there has to be a component of 
detainee operations that General Stone implemented in Iraq; we 
need to do more than just be a prison; we need to be an 
example; it needs to be part of the war; we need to open these 
prisons up to Muslims so they can come in and see what we're 
doing, just like we did in Iraq.
    We need to have programs for the reconcilables, so the 
recidivism rate could potentially go down. In Iraq, it became 1 
or 2 percent. What Major General Stone did is, if you were 
released from Camp Bucca, someone had to sign for you in Anbar. 
A community leader had to vouch for you. Boy, that really 
worked. That's something we might want to be looking at as we 
deal with the detainee policy.
    One last thought. There are more people to capture. We just 
can't kill everybody because you lose valuable intelligence. 
Right now, we don't have a jail available to American forces. 
The Afghan prison system is limited in what it can do in taking 
war on terror detainees. If you catch someone in Yemen, the 
Afghans are not going to be very open-mindeded to becoming the 
American jailor. We're not using Gitmo. President Bush stopped 
using it for about a year before he left. This President, 
President Obama, hasn't put anyone in Gitmo, and I understand 
his concerns about doing that. But, that's unacceptable. We 
need a confinement facility we can be proud of that allows the 
irreconcilable to be held off the battlefield as long as 
they're dangerous, and allows for somebody who is reconcilable 
to be turned around; that's what's missing here at home. It 
worked in Iraq. My goal is to create that same scenario here at 
home, because we will capture more people in this war.
    So, I would just ask General Stone----
    Senator Bill Nelson. I just want to say, it sounds like we 
need to hire General Stone as the head of the prison.
    Senator Graham. Well, I don't know if he'd do it, but we 
sure need to have his fingerprints on how to do it.
    Now, he went to Afghanistan to talk about how you break out 
the irreconcilables from the reconcilables. I hate that we 
still don't have this right. This is just so important to me. 
Pul-e-Charkhi Prison is the main prison in Afghanistan. They 
had a riot in December or so of 2008, wasn't it, Doug?
    Dr. Stone. Yes, sir.
    Senator Graham. I went through that prison, as a reservist, 
right after the riot; you could still see bullet holes and 
damage from fire on the walls. In one prison cell, they had a 
chart of how to make an IED. The prison was being run by the 
Taliban; they were conducting operations in the south from the 
prison. They were using cell phones to conduct operations. The 
number of insurgents in the jail was probably the highest 
percentage of anywhere in Afghanistan.
    We've finally broken that apart because General Stone went 
over there, and we're going to build a new jail. We're going to 
try to get the hard-core, big ``T'' Taliban away from the small 
``T,'' and try to turn around Afghanistan.
    We need to be doing the same thing for a confinement 
facility here in America, because we need one here, in America, 
eventually. Gitmo has served its purpose, but now it's more of 
a problem than it is an asset. That's unfortunate, but that's a 
reality.
    General Stone, could you comment on what I just said, and 
share with the chairman how great you are?
    Dr. Stone. Yes, sir. Thank you, Senator.
    If you'll allow me one sea story; it is material to our 
hearing, sir.
    Sitting in the front row was Colonel Graham and myself 
during the surge. Windows were being blown out in the building 
that we were in, which was the main courthouse. Judges were 
being intimidated. Twenty-six, I think, or so had been killed, 
and the remaining ones were still coming under armed guard to 
serve sentences against Iraqis. Then, we watched an 
intimidation effort against a member wilt once the eyes of the 
public and others were on them.
    The rule of law is so fundamental to how we engage in this 
global battle that it can hardly be underestimated. Each 
country, going back to the Ottoman Empire and after the split, 
has its own form of rule of law that balances Sharia with a 
different form. In Pakistan, for example, you can see the two 
courthouses, on either side. What we need to do is understand, 
in our own government, what that means. It does mean, 
ultimately, imprisonment or detention.
    That leads to the second dilemma. Inside prisons, 
historically, whether you go back to Azam, Sayeb Khatab, or 
pick your favorite leader, you will find that they came out of 
a prison system. I ask you, Senator, to consider my earlier 
comment. I meant, very specifically, to say OCONUS, as in 
outside of the United States, but to be specific about 
continental United States, and to consider, as an element of 
the emerging threat, the same picture that I talked to you 
about in warfare as possible here in our country. Perhaps an 
analysis of what the violent Islamic threat--the recruiting 
efforts and the radicalization going on inside of our prison 
systems at various levels--should consider this a legitimate 
target of this war. I could list a panoply of those kinds of 
things, Senator.
    I want to thank Senator Graham, both for his service to the 
Country as a colonel--that's the only position I'll ever be 
allowed to say--but also to point out how important the 
concepts of rule of law, religious leadership, and engaging are 
to our country.
    With one last comment, the Muslim religion, the Koran, does 
not have a separation of church and state; it is God's word. 
Because of that, how you live on a secular and a nonsecular 
life are merged together. Our own rule of law, this being the 
body that makes the law, across the street where they execute 
it, and the other side of the street where they judge it, is 
foreign, in many ways, to any violent Islamic belief.
    When we say we are being attacked, the question that you 
need to ask is, are we being attacked because of who we are, 
because Westernization is a threat? The answer is yes. 
Modernization is a threat? No. Many, many, many of these 
individuals are highly competent, in terms of modern 
techniques. But, what it really is asking is the question, Can 
we, as a people, have a constitution if Sharia is the threat 
against it? That is something that our population needs to 
engage in.
    My last comment would be, to the point that you made, sir, 
or I think it was you, in the last meeting, What should we do? 
I think of all of the agencies and all of the branches in all 
of the government, this Congress, of anyone who's in touch with 
all of our American citizens, should know as much about this 
threat as anybody. They ought to be able to speak, in their own 
communities, about the threat, and be perfectly crystal clear, 
and engage with the Muslim communities there, because that 
information will be our defense; their alignment, just as it 
was in Iraq, just as it can be in Afghanistan, will be our 
defense.
    Senator Bill Nelson. Before I turn to Dr. Forest, and 
before you leave, Senator Graham, did you--any of you--get the 
impression, when I asked the question of the first panel, the 
government panel, about the twisting and distorting of Islam, 
that they seemed to gloss over that and not have an 
understanding? As a matter of fact, there was a specific 
answer, ``well, there are many complications in this 
religion.''
    What do you think, Dr. Stone?
    Dr. Stone. Sir, I think our government leadership is not 
specific enough in it's definition of the target, the enemy, or 
who they are. There are so few books written on the 
relationship between the U.S. and the Arab world, despite the 
fact that, frankly, our Navy was founded to fight the first 
fight of an Arab nation. The Marines carry a Mameluke sword 
from the first battle of Tripoli. This history is ancient, as 
far as our country goes, but the reality is, the understanding 
is just minimal.
    I would ask that all of our leadership speak these 
languages; that they understand, contextually, what is going 
on. I don't consider myself an expert, in any way, shape, or 
form. I'm a electronics executive; that's what I do. I'm a 
businessman. I pride myself on making 40 percent of my taxes 
come back to the government, paying my employees, and hiring 
more employees. But, I will tell you, sir, if I were a 
businessman, in dealing with this, I would not let my employees 
get away with not knowing the very specifics of the people 
they're engaging for work.
    The 100,000-foot comment, that it's all very different and 
very tribal, is true. In our own Nation, we have hundreds of 
different ``tribes.''
    Senator Graham. May I interject? I think his question is a 
very good one. This concept, that this is a murky problem, that 
there is no distortion, is kind of hard to figure out. General 
Stone understood that distortion was going on, and he 
confronted it directly. I think that's your answer: what he did 
at Camp Bucca was, he put people in front of the insurgents and 
said, ``No, this is what the Koran actually means.''
    I think that's what his question, Doug, is getting at, this 
idea that distortion of Islam can't be dealt with; I reject 
that. You dealt with it in Camp Bucca.
    Dr. Stone. I wholeheartedly reject that thesis.
    Senator Graham. What he's asking for, I think, is a system 
that we could employ, in our own jails and in our own 
communication strategy, to actually deal with the teaching of 
Islam.
    Dr. Stone. I mean, Senator, my expectation of our 
leadership is that they know this enemy as crystal clear as 
they would know any enemy that they would ever fight. I would 
ask--and they're simple questions--does our leadership know 
this enemy as well as the leadership in this country knew, for 
example, in World War II, the two fields that they fought? If 
the answer to that is yes, then we are in good shape. But if 
the answer to that is no, we are not. In my judgment, the only 
way to engage this enemy is to understand, it isn't the Muslim 
nation, it isn't even but a small percent of the Muslim nation, 
and that the individuals who are being attacked are as much the 
Muslim nation as anybody, and that, if we align with them, they 
will filter this out, and they will find them. That's what we 
found in the detention centers in Iraq, but that's also what 
you find in many, many communities around the country. I think 
I've been to most of them recently. They understand. Our job is 
to help them do that.
    Now, helping them is very different than some other means 
that you could have. I come back to my aforementioned 
recruiting comment. As a businessman, I don't manage what I 
can't measure. I think we need clear measurements around this, 
and not hyperbole. We need to be able to say, as we said in 
Iraq, what to measure. General Petraeus gave me permission to 
do my program, and trust me when I say General Petraeus took 
the greatest risk in the war by: (a) hiring me, and (b) 
allowing me to make those changes. In my judgment, he did. What 
he said was, ``Tell me what you're going to measure as 
success.'' I said, ``Sir, we will take the 10 or 15 percent 
recidivist rate, and we'll lower it to 1 or 2 percent.'' Then, 
Senator, he put it on the board every 2 weeks to see if I was 
doing it or not. That's the expectation we should have of our 
leadership.
    Senator, when you ask the question, if it's not 
specifically answered and not specifically measured, I find 
that unacceptable.
    Senator Bill Nelson. It was not answered this morning. As a 
matter of fact, the subject of this hearing is CVE, and we 
started talking about deradicalization in the first panel. Any 
emphasis on trying to reeducate Muslims about what true Islam 
is, was minimized in the first panel. You have clearly, by your 
actions, by your deeds, as the head of that prison, shown 
otherwise.
    Dr. Stone. Sir, if you'll allow me one comment. I hate to 
hog this mic, I really do. But, the reality is that most of the 
Muslim nations have a high illiteracy rate. What happens when 
you have a high illiteracy rate is that you can't read your own 
text. If you can't really read your own text, then you have to 
show deference to the individuals who portend to have read it, 
when they, themselves, likely cannot. Therefore, the very 
precise answer to the former question that you asked the panel 
was, it turns out, if the illiteracy rate is what it is, they 
can't read the Koran, they have their own political agenda, at 
a tribal level, or a cultural level, then they are going to 
skew the arguments for participation in the Muslim faith, 
whichever direction they want. Sometimes that is towards 
violent Islamic behavior. You were quite precise, the Koran 
does not call for the killing of innocents or Muslims. It's 
precisely the opposite of that. The 80-plus arguments that we 
ultimately got out, by taking al Qaeda members, understanding 
what their arguments were and then countering them, some of 
them turned; some of them gave us that, some of us helped, 
actually, articulate the counternarrative. We turned it, got 
education started, let them read the Koran themselves, 
facilitated conversations, countered the arguments, and a large 
percentage backed off the fight.
    Now, it isn't to say it's going to work in all cases. It 
won't. As the Senator said, there are going to be some 
irreconcilable. As my good friends who run the deradicalization 
programs throughout the world will tell you, there are some 
that will be locked up for life; they can never come out. It's 
just a fact of reality.
    Senator Bill Nelson. Dr. Stone, wouldn't it be something if 
our American leadership, as represented by the panel, or by 
others--we don't have to pick on the panel that was here--
understood the Koran and knew all of the prophets in the Koran, 
the three most important prophets, called messengers, being 
Moses, Jesus, and Mohammed.
    Dr. Stone. Sir, there are many wonderful facts of the 
religion. Jesus is the only prophet before Mohammed permitted 
by God to do miracles. Mary is the same Mary mentioned in the 
Christian faith. Gabriel, the same angel that brought the 
message to Mary, is the same. We could go on and on and on.
    You're right, sir. But, it is not, alone, enough. What, 
alone, is enough is to engage a conversation and an 
understanding with our citizens in our Country. In this regard, 
sir, I'm very focused on the defense of our own Nation by 
engaging in a conversation with those community members and 
working with them to find solutions because they will know who 
the enemy amongst us is. They will know, or they will know 
enough. As Dr. Atran just pointed out, somebody's going to walk 
in the door and say, ``I'm worried about so-and-so.'' Then we 
have to have the ears to listen, the heart to understand it, 
and the mind to be able to put in context what it is they're 
talking about.
    Ultimately, sir, I think you will ask the question, What is 
our biggest concern? I'm prepared to answer that.
    Senator Bill Nelson. Okay, well, I'm going to get to that 
in a second, but I want to hear from Dr. Forest.
    You have been very patient, and thank you for being here.

 STATEMENT OF JAMES J.F. FOREST, DIRECTOR OF TERRORISM STUDIES 
  AND ASSOCIATE PROFESSOR OF POLITICAL SCIENCE, U.S. MILITARY 
                            ACADEMY

    Dr. Forest. Chairman Nelson, thank you. It's an honor for 
me to be here.
    I've prepared some remarks to really address just the 
military's role in CVE, and the conversation has obviously gone 
in multiple directions from that. I would like to just address 
a few aspects of the military contribution to CVE in this 
counterideology domain.
    First off, before I speak, I'm proud to represent the 
Combating Terrorism Center. Several of my colleagues there have 
helped me prepare a lot of these remarks that are now in the 
formal record. But, I need to, first and foremost, note that 
these remarks are my own; they do not necessarily reflect the 
opinions of the U.S. Military Academy, the Army, DOD, or any 
other U.S. Government agency. They're my opinions, only.
    Senator Bill Nelson. We invited you here in your individual 
capacity, but you are also a professor at West Point.
    Dr. Forest. Yes, sir. I'm going to address how I teach my 
cadets at West Point the issues of violent extremism that have 
been addressed today in both panels.
    Senator Bill Nelson. Okay, now, I don't want you reading 
your comments.
    Dr. Forest. No.
    Senator Bill Nelson. I want you just talking to us.
    Dr. Forest. Yes. I'm going to actually pull out, I think, 
three of the most important aspects of my statement.
    Military troops and officers are actually contributing to 
CVE. The case of what we just heard in the prisons is one great 
example of this. Providing the sort of safe and secure spaces 
within which this dialogue can take place is one fundamental 
aspect that the military contributes to the fight against 
violent extremism.
    The religious aspects of violent extremism is only one 
aspect. There's a whole other range of violent extremism that 
we're not talking about, such as the ethno-nationalists, the 
separatists, the leftwing/rightwing groups here, existing in 
the United States of America and other countries, as well. 
We're not talking about those right now. We're just talking 
about the religious--and a specific religion, at that--form of 
violent extremism. It's really wrapped up in the essence of 
interpretation of the sacred texts. When you have interpreters 
competing each other for the validity and the credibility of 
their narrative, you're going to have this contested terrain 
that we're now faced with, a largely violent struggle involving 
a very small minority individual group, a population within the 
Muslim world who have misinterpreted various aspects of the 
Koran and are trying to achieve a political objective drawn on 
those misinterpretations.
    Coming back to this issue of what the military does, they 
create safe havens for dialogue, counternarratives, and 
counterideology conversations to take place, whether it's in 
prisons, or in village halls, or even online. These are the 
sorts of things that the military does in terms of CVE.
    A second aspect that was asked, but not really answered in 
the first panel, was, What are they doing to directly combat 
the ideology itself? For a number of reasons we can't go into 
here, there are restrictions, huge restrictions, on what the 
military can do. They recognize the problem. They recognize 
that communicating with both populations that have been 
terrorized, and are being terrorized by these extremists, and 
the extremists themselves. Both of those channels of 
communication need to be employed, but there's very limited 
capability and legal authority that they're authorized to 
follow through in those areas. It's a necessary sphere of 
activity that, unfortunately, they're not able to engage as 
much as they'd like.
    I want to really drill down on this very important part, in 
terms of the military versus DOS and other agencies involved in 
CVE. When you're trying to influence the perceptions, the 
hearts, and the minds of our allies and our adversaries, there 
is no substitute for physical presence. We found this out in 
multiple dimensions, whether it's prisons or wherever we are. 
Whether we are engaged in the Philippines, Colombia, 
Afghanistan, Iraq, wherever we are engaged, there is no 
substitute for physical presence. I think that's really where 
the rubber meets the road, in terms of CVE. The military troops 
are there; they're doing the job of a lot of these other 
agencies because they're there, and because they recognize the 
job needs to be done. That's just the military approach; they 
recognize a job needs to be done, and they do it to the best of 
their ability. That's the second aspect.
    The third aspect comes back to what Secretary Gates has 
been saying for a number of years, that soft-power activities 
can have a lasting impact on diminishing the resonance of anti-
government messages put forth by these violent extremists.
    These aspects that the military is involved in, that are 
addressed in my formal statement, they're fundamental and 
they're necessary, but they're insufficient on the part of the 
military doing them alone. The success of our CVE strategy has 
to involve the entire realm of government agencies. Military 
forces alone cannot defeat violent extremism, but they are 
involved across an entire spectrum of activity in support of 
the struggle that we're all facing.
    Thank you.
    [The prepared statement of Dr. Forest follows:]
             Prepared Statement by James J.F. Forest, Ph.D.
    ``the role of the u.s. military in combating violent extremism''
    Chairman Nelson, Senator LeMieux, distinguished members of the 
committee, it is an honor for me to provide testimony to you today on 
our Nation's efforts to counter violent extremism, and specifically the 
role of the military in those efforts. While I am proud to work in the 
Combating Terrorism Center at West Point, and several of my colleagues 
there have helped me prepare this statement,\1\ I should note that 
these remarks are my own and do not necessarily reflect the opinions of 
the U.S. Military Academy, the Army, the Department of Defense or any 
other agency of government. These are my personal views only.
---------------------------------------------------------------------------
    \1\ In preparing this testimony, COL Michael Meese, Head of the 
Department of Social Sciences at West Point, Dr. Assaf Moghadam and Mr. 
Don Rassler provided insights and assistance for which I am most 
grateful.
---------------------------------------------------------------------------
Characteristics of the Fight
    Let me begin by offering a brief summary of how I view the fight we 
are in--and I use the term ``we'' in the broadest sense imaginable. 
First, there are a variety of violent extremist ideologies that appeal 
to a very small percent of the world's populations, including right 
here in the United States. These ideologies motivate ethno-nationalists 
and separatists, left-wing and right-wing groups, environmental and 
animal rights extremists, and groups who claim some religious 
justification for their extremist agendas.
    Many things can diminish the appeal of these ideologies--things 
like good, strong, legitimate governance; open, tolerant and inclusive 
civil societies; widespread economic prosperity; and forces of 
political and religious moderation. Conversely, the opposite of these 
things may enhance the appeal of violent extremist ideologies--things 
like authoritarian, corrupt, weak governments; severe economic 
distress; a social and political climate of intolerance; and hatreds 
derived from ignorance and mistrust toward different ethnic or 
religious groups.\2\
---------------------------------------------------------------------------
    \2\ For an extensive review of the various motivations behind 
terrorist activity, see James J.F. Forest, ed., The Making of a 
Terrorist: Recruitment, Training and Root Causes (3 volumes; Westport, 
CT: Praeger, 2005) and James J.F. Forest, ed., Countering Terrorism and 
Insurgency in the 21st Century (3 volumes; Westport, CT: Praeger, 
2007).
---------------------------------------------------------------------------
    When I teach my cadets at West Point, I stress to them the 
importance of understanding violent extremist groups, as well as the 
critical environmental dimensions where these groups find support, 
because this is the landscape of challenges these future Army officers 
are going to face when they graduate. We discuss at length how 
humankind is embroiled in a struggle against a range of violent 
extremists who challenge our daily efforts to achieve security, peace 
and prosperity.\3\ Civil society and religious communities in 
particular play a central role in this struggle, mostly as unwilling 
and unfortunate victims of a small handful of very misguided and 
potentially lethal people.
---------------------------------------------------------------------------
    \3\ For example, see ``Deadly Vanguards: A Study of Al Qaeda's 
Violence against Muslims,'' a report by the Combating Terrorism Center 
at West Point (2009), available online at http://ctc.usma.edu, and for 
ongoing discussion of violent extremist activities see the CTC 
Sentinel, a monthly journal published online by the Center at http://
ctc.usma.edu.
---------------------------------------------------------------------------
    Defending our Nation from these forces of extremism is a task that 
falls to many elements of the U.S. Government, including the military, 
and requires foreign partners--especially foreign militaries, 
intelligence services and police forces--as well as civilian experts 
outside the U.S. Government.\4\ Since there is little that is 
appropriate for our military to do to counter the very important 
domestic, homegrown dimensions of violent extremism, my remarks here 
will focus on what our men and women in uniform are doing overseas--and 
doing very well--to support the world's long-term fight against violent 
extremism.
---------------------------------------------------------------------------
    \4\ This is a point of special emphasis in Kristin M. Lord, John A. 
Nagl and Seth D. Rosen, ``Beyond Bullets: A Pragmatic Strategy to 
Combat Violent Islamist Extremism,'' Center for a New American Security 
(Washington, DC: June 2009).
---------------------------------------------------------------------------
The Role of the U.S. Military
    Now, I'd like to highlight what I believe to be four of the most 
important assets that our military brings to this fight.
    (1) First, our troops provide improvements in human security, 
through kinetic action both offensive and defensive; they weaken, 
disrupt and destroy the safe haven and territorial base of the violent 
extremists. Not only are they doing this in Iraq and Afghanistan, but 
they have been assisting government forces in Colombia, the 
Philippines, Somalia, and many other countries in doing this important 
work.
    The improving security mission also involves training and educating 
local military and police forces, which our military is doing in nine 
African countries through the Trans-Sahara Counterterrorism Partnership 
as well as in places like the Philippines, Thailand, Indonesia, 
Colombia and even some Caribbean islands, in addition to Iraq and 
Afghanistan. Another important dimension of the security realm involves 
creating spaces for safe dialogue, healthy commerce, development and 
civic/political processes in places that have been besieged by violent 
extremists. Building tolerant, inclusive societies is not something 
done by force, or even through leadership of foreign entities like the 
U.S. military. It is inherently an indigenous, organic process in which 
our military plays at best a minor but important facilitating role by 
providing these secure spaces for respectful dialogue and exchange of 
ideas.
    (2) A second essential area of the military effort involves 
communicating effectively with both terrorized communities and with 
those extremists who use violence to achieve their objectives. This is 
what I called ``influence warfare'' in my recent book,\5\ and it is 
done not only through conventional information operations, but simply 
by our military's presence. When trying to influence the perceptions, 
hearts and minds of our allies and adversaries, there is no substitute 
for physical presence, and our men and women in uniform serve a vital 
function here in helping to understand and shape perceptions of 
security, justice and a brighter future without violent extremism. 
Countering ideologies is another fundamental aspect of this struggle, 
because the voices of violent extremists must not go unchallenged.\6\ 
Military professionals are engaged in this aspect of the fight not only 
through local efforts in Iraq and the Afghanistan-Pakistan border 
region, but also in places like North Africa, where the Department of 
Defense sponsors the popular Magharebia website. Clearly, as part of 
the broader struggle I've described, we must convince violent 
extremists that their way is a dead end, figuratively and literally. We 
must make it more difficult for extremists to disseminate messages of 
hate and replace those messages with an alternative vision of 
moderation, good governance and human security.
---------------------------------------------------------------------------
    \5\ For a thorough analysis of these issues, please see James J.F. 
Forest, ed. Influence Warfare: How Terrorists and Government Fight to 
Shape Perceptions in a War of Ideas (Westport, CT: Praeger, 2009).
    \6\ A specific example of this, focused on al Qaida, is provided in 
James J.F. Forest, ``Influence Warfare and Modern Terrorism,'' 
Georgetown Journal of International Affairs Vol. 10, No. 1 (Winter/
Spring, 2009), p. 81-90.
---------------------------------------------------------------------------
    (3) A third key area of military effort involves civil affairs and 
development projects. In concert with security, these help improve a 
population's perception toward the central government's ability to 
effectively and legitimately govern, and make them less likely to turn 
to groups affiliated with extremists who provide alternative government 
services. Today, military units around the world are assisting foreign 
governments with efforts to improve education, rule of law, sanitation 
and public works, transportation, health services, and good governance. 
For example, in Djibouti, the Combined Joint Task Force-Horn of Africa 
is working to build school facilities, combat the spread of Malaria, 
host business and government leadership summits, and in general work to 
strengthen this important national ally. In Afghanistan, our troops 
have complemented efforts of the U.S. Agency for International 
Development (USAID), nongovernmental organizations (NGOs), and the 
international community by digging wells and building other critical 
infrastructure facilities, and helping local government representatives 
provide free medical care to villages throughout the country. These and 
other so-called ``soft power'' activities can have a lasting impact on 
diminishing the resonance of anti-government messages spread by violent 
extremists.
    (4) The fourth vital effort I'd like to briefly mention is where 
our military and intelligence professionals work closely with local 
government forces to help identify, locate, pursue and apprehend 
individual extremists. These operations take place not only in Iraq and 
Afghanistan, but in other countries as well--places like southern 
Somalia, northern Chad, Kenya, Yemen, Indonesia, the Philippines, and 
Colombia, among several others.
    Together, these four kinds of effort contribute enormously to our 
fight against violent extremism. As Secretary Gates has noted on 
several occasions, the most important military component in this 
struggle is not the fighting we do ourselves, but how well we enable 
and empower our partners to defend and govern themselves. Further, the 
U.S. military's engagement in these activities helps to undermine the 
violent extremists' attempts to establish legitimacy for their ideology 
of hatred, death, and destruction.
    Credibility, rapport, trust, and cultural competence are all vital 
for the success of these military contributions to the fight against 
violent extremists. To that end, the U.S. military should certainly be 
commended for the dramatic changes we have seen in the education 
provided to soldiers and officers over the last decade.
    However, despite their many successes, as many have already 
observed the military efforts in this fight are necessary, but 
insufficient. Our military cannot and should not be at the center of 
the overall effort to combat violent extremism. While there is much 
that our men and women in uniform are doing very well to support this 
fight, military forces alone cannot defeat violent extremism. In 
particular, as others have already noted, there is a need for greater 
involvement by non-military U.S. Government agencies in two ``soft 
power'' related areas of activity I have just described: 
communications, and civil society development.
    In the absence of these other agencies having a physical presence 
in conflict zones, the U.S. military has assumed the lion's share of 
responsibility for doing what needs to be done. After all, that is to 
be expected of the military approach--soldiers and officers see that 
something needs to be done, the success of their mission depends on it, 
so they figure out how to get it done as effectively as they can. This 
is only natural, and it is a vital contribution to the fight against 
violent extremism--as I noted before, when trying to combat the ways in 
which violent extremists try to influence a local population, there is 
no substitute for physical presence. Of course, in many cases civilian 
experts have played a vital role in the success of these efforts, 
especially those serving on Provincial Reconstruction Teams (PRTs) in 
Afghanistan and more recently in Iraq. These PRTs have brought together 
civilians experienced in agriculture, governance, and other aspects of 
development to work alongside the military in improving the lives of 
the local population and helping strengthen the perceived legitimacy of 
the central governments in those countries.
    However, despite many successes, the need is still there for 
experts from USAID, the Departments of Agriculture, Energy, Education, 
and so forth to be more engaged in the fight wherever they can. There 
is so much need for assistance, no doubt there is ample room for 
everyone to contribute meaningfully, including NGOs, IGOs, and the 
private sector. In closing, let me paraphrase something that Secretary 
Gates said a few years ago, something that I discuss often with the 
cadets I teach at West Point. Countering violent extremism requires 
economic development, institution-building and the rule of law, 
promoting internal reconciliation, good governance, providing basic 
services to the people, training and equipping indigenous military and 
police forces, strategic communications, and more--these, along with 
security, are essential ingredients for long-term success.\7\ Our 
military forces are engaged, to some degree or another, across this 
entire spectrum of activity in support of the broader fight against 
violent extremism. But in my view, our long-term success will depend on 
how well the government as a whole works together to defeat violent 
extremist groups, both at home and abroad.
---------------------------------------------------------------------------
    \7\ Secretary Robert Gates, Landon Lecture (Kansas State 
University) Remarks as Delivered by Secretary of Defense Robert M. 
Gates, Manhattan, Kansas, Monday, November 26, 2007. On the Web: http:/
/www.defense.gov/Speeches/Speech.aspx?SpeechID=1199
---------------------------------------------------------------------------
    Thank you for the opportunity to appear before this committee. I 
look forward to answering your questions.

    Senator Bill Nelson. Thank you.
    Dr. Stone, you wanted us to ask you one more question. Why 
don't you restate that question, and answer it, please.
    Dr. Stone. Sir, I thought you were going to ask what keeps 
us awake at night. These great minds, on my left, no doubt, 
have good thoughts on that. I heard what was formerly 
mentioned. While I didn't disagree with it, I was somewhat 
surprised by the response.
    Dr. Atran. Let me just put that in context with your 
question about the Koran. About 70 percent of the people who 
join the jihad do it outside of their country of origin. They 
used to be mostly medical students and engineers in the old 
days; now they're increasingly marginalized and poor. Not 
disaffected so much, but flailing about for some social 
identity. There's no clash of civilizations, there's a collapse 
of cultures. They're making connections horizontally.
    Eighty percent, as of about a year ago, of those who joined 
the jihad had no religious education at all. They are sort of 
born-again into it. They find it, and it grabs them when 
they're young people and motivates them. The important thing is 
to get them early. In a confined space, like a prison, you can 
sit down with the Imams and you can talk to them. Out in the 
wild, where there people are radicalizing, you have to get 
them, with their friends, to come to these different 
understandings of where Islam can go. There is no program out 
there for that, that I see.
    Senator Bill Nelson. Is it curious that, in the first 
panel, that the word ``madrassa'' was never uttered?
    Dr. Atran. Let me just say something about the madrassas. 
You have 30,000 madrassas in Indonesia. Only 50--and I know 
each one of them--have been involved in the jihad.
    You have, also, tens of thousands of madrassas in Pakistan. 
They're mostly for the rural poor. They're good recruiting 
items for the Taliban. Lashkar-e-Taiba doesn't want to touch 
them. Why? Because just having madrassa education means they're 
not going to have computer education; they're not going to be 
good in languages; they're not going to be familiar with global 
positioning systems. Increasingly, Lashkar-e-Taiba wants those 
kinds of guys, because those are the guys who can meld into 
Indian society, or Australian society, and get something done.
    The madrassas are a very particular problem. We have to be 
very careful because, in places like Pakistan and Indonesia, 
they are an outlet for the rural poor. It really is only two-
tenths of 1 percent of the madrassas. We can't just go off 
saying, ``Oh, well, it's the Salafis,'' or, ``It's the 
madrassas.'' We have to be very focused on which ones to deal 
with and how to deal with them.
    Senator Bill Nelson. Okay, any concluding thoughts?
    Dr. Stone. Sir, I would just offer that the North American 
Command should be at these kinds of emerging threat meetings.
    Senator Bill Nelson. Good suggestion.
    Dr. Stone. There was an orientation, I think, in this 
hearing, looking as if the problem was ``over there.''
    Senator Bill Nelson. Right.
    Dr. Stone. I would argue that perhaps that is not the 
greatest threat.
    I would argue, as well, sir, that there's a very clear 
distinction between Taliban and al Qaeda. They are profoundly 
different--synergistic, in some respects, but profoundly 
different. To know the difference is to understand the 
difference in the enemy we fight.
    Dr. Forest. Sir, if I may, on that regard----
    Senator Bill Nelson. Yes, please.
    Dr. Forest. There are a number of things that al Qaeda is 
actually vulnerable on, beyond the religious dimension, that I 
think could also be exploited in a counterideology narrative 
program. They are worried internally, and we've been monitoring 
this on the jihadi Web forums, about their own religious 
misinterpretations, and they're engaged in a struggle to 
convince populations in the Muslim world that they have a 
correct reading of the Koran.
    There are also a lot of questions about their strategic 
competence. There are questions, internally among al Qaeda 
members, that they're debating, about tactical guidance and 
about the abilities and capabilities of new recruits. A number 
of them end up in the suicide-terrorism pipeline because they 
have nothing else to offer al Qaeda. There are a number of 
areas that we could also attack al Qaeda's narrative. They're 
desperate for cash. We see this in a lot of their video and 
audio statements. They lack integrity. They fight amongst 
themselves about preferential treatment given to the Saudi and 
Egyptian members versus the Pakistani or Indonesian members. Of 
course, the biggest issue that we still have not really 
capitalized on is that they are the only Muslim organization in 
the world that routinely kills women and children and 
celebrates when others kill women and children. They have 
killed eight times more Muslims than Americans, or than 
infidels, in their attacks over the last 9 years.
    I think these are little tidbits of facts which cannot be 
disputed, which can be part of a very strong counternarrative 
that we should push out there.
    Dr. Atran. I'll conclude with just three things.
    I think we have to concentrate on preventing radicalization 
at a peer-to-peer level. Then we have to counter 
radicalization. One of the ways is by decoupling, for example, 
al Qaeda from the Taliban and from the Somali courts. The third 
step is that we have to deradicalize. I think General Stone's 
program in Iraq was fantastic. The way Indonesia, Saudi Arabia, 
or Turkey deal with it is as a public health issue. It's 
legally very hard to do this here. I think, outside of the 
country, it's the best bet. I know the FBI wants to try 
something like that here, and I think it would be a really good 
move.
    Senator Bill Nelson. Before we conclude, can you please 
give me your comments on the success, or lack thereof, of the 
Saudi rehabilitation program?
    Dr. Stone. Have you been there? [Witness inquiring of the 
rest of the panel.]
    Dr. Forest. I have not been there, no.
    Dr. Stone. I've been there. It's expensive. It has a lot of 
money. Within the context of that culture, a very specific 
cultural context, it shows both success and promise.
    Bringing in other members from other tribal backgrounds and 
national backgrounds is going to be, by definition, less 
successful. No matter how hard they work, no matter how hard 
they try, it is going to be difficult, for any number of 
reasons, not the least of which is the program mandates family 
involvement, and you're not going to bring Yemeni family over 
and treat them.
    So, the answer to your question, sir, is, it is a 
tremendous step forward, I believe, in the Muslim world. 
Tremendous. To have done it, to have initiated it, should be 
complimented by the entire global citizenry. But, to oversell 
it as a solution for all things, or even that the methodologies 
for all would work, is wrong. I would argue that, in my own 
development of my own system, we used pieces of it that 
surprised me because they turned out to be inordinately 
effective; and we were unable to use other pieces because they 
didn't culturally fit.
    The answer to the question, sir, is, it's very, very 
hopeful, but it is not an answer for all things. We need to 
learn how they got success, when they get it, and how they get 
failure, when they get it, and they do.
    I would, as my last comment I would make about all of the 
programs associated with deradicalization, suggest that perhaps 
one of the finest is in Singapore. However, all programs, 
ultimately, come to a realization that some people can't be 
released. They just can't. Because they can't be released, that 
changes the nature of the radicalization and deradicalization 
work. All of them, sir, have education. All of them, sir, have 
clarity about what the Koran says. All of them have ulema 
involved with the conversation. Those are effective. All of 
them, ultimately, bring the families back, one way or the 
other, in the community. That can only be done locally, sir.
    Dr. Atran. In places like Morocco or Uzbekistan, or even 
Egypt, although there is some acknowledgement that they have a 
home-grown problem, at the local level there is not much 
acknowledgement at all. It's taken as the normal course of 
events, and it's attributed to the jihad international or the 
west. There is no real deradicalization program I know of 
that's successful in these places.
    Another one that is inordinately successful is in Turkey; 
not for the Kurdistan Workers Party (PKK), but, in terms of 
Sunni jihad, they've basically stopped it and turned it around 
cold. It's truly a marvelous program.
    Senator Bill Nelson. Are they doing that through the tribe, 
like Saudi Arabia is?
    Dr. Atran. No, they do it a little bit differently. It's 
the Turkish National Police that is in charge of this, which is 
a fantastic organization. Now they have about 250 \5\ people 
doing their Ph.D.s in places like Colombia University or in 
North Texas, here in the United States.
---------------------------------------------------------------------------
    \5\ Dr. Atran later revised this number to 150.
---------------------------------------------------------------------------
    What they do is, someone goes to Afghanistan or Pakistan. 
They come back. They're picked up by intelligence or the 
police. Word gets around the neighborhood pretty fast. Then the 
Turkish police get involved. It's not like the movie Midnight 
Express where the film treated the Turkish police as horrors. 
They're very sophisticated. They come to the family and say, 
``Look,'' just as the NYPD does, ``we don't want a problem, you 
don't want a problem. I really don't know who your kid talked 
to, but what can we do with you so that it's not a problem?'' 
Then they work it out, together. They give presents at Ramadan. 
If a sister can't find a job, they figure, ``Well, can we help 
her out?''
    The end result is, now they're getting much too much 
information from their former jihadis. They're calling them 
every day, saying, ``Well, I have a tip there, and I have tip 
here,'' and there hasn't been a serious plot since Istanbul, 
back years ago, in 2003.
    It's working with the community, with the families. In 
places like Iraq, Afghanistan, it's working with the tribes. 
Here,\6\ it's working with marginal neighborhoods. Again, every 
country is different.
---------------------------------------------------------------------------
    \6\ Following the hearing, Dr. Atran clarified that ``here'' was 
intended to refer to Europe.
---------------------------------------------------------------------------
    Dr. Stone. Senator, this has been bugging me, and I need to 
say it. There is an orientation--and I heard it even in some of 
the questions--that if we were to take in--and this is not the 
right word, but nation-building--and just bring the education, 
medical system, and everything up to par, that that would fix 
the problem. The answer is, it might, but it might not, because 
this is an ideological problem. So, even the poorest of all 
poor, if they believe in something other than extremism, will 
not be a threat.
    I would caution that a broad, sweeping statement about 
doing these kinds of things, in generalities, outside the 
country, or even inside the country, are not going to get us 
where we want to go, necessarily. It may work in some specific 
cases, where it's exactly the right thing to do, but in some 
cases it's exactly the wrong thing to do, writ large, because 
it will be taken advantage of by others.
    Coming back to the specificity of really knowing the enemy, 
we have to be so granular in our thinking that we have a 
specific campaign, not a broad, sweeping one; I think this is 
absolutely vital, sir.
    Dr. Forest. Sir, while deradicalization programs deserve 
our support, there's much more that I believe we can and should 
be doing to prevent and counter radicalization in the first 
place.
    There's an area of research I've been working on, called 
``strategic influence.'' The argument there is that, if we 
spent as much energy, time, and resources on trying to 
strategically influence nonstate actors and the populations 
that they're trying to influence as we do on strategically 
influencing other state-based entities, I think we'd be, 
definitely, a lot better off in CVE.
    Dr. Atran. Let me just say, we have to have knowledge in 
the field of what's going on, and we don't. In Morocco, where 
five of the seven Madrid bombers grew up in the same 
neighborhood, within 200 meters of each other. Another 5 within 
that 200 meters went and blew themselves up in Baqubah. They 
weren't crazy people; they went to the same elementary school, 
with Mickey Mouse and Donald Duck, but they radicalized, 
listening to chants on the Koran from radical Imams and 
radicalizing one another, as kids do, by moving in their 
parallel universe. You could walk in that neighborhood and 
anyone could point out to you who was going to go to Iraq. You 
could see how they dressed, and how fast they dressed.
    In Saudi Arabia, it's very different. In Saudi Arabia, the 
way you pick it up is, who's not going to the family mosque? 
Everybody goes to the mosque. Everybody's been going to the 
neighborhood and family mosque for years. So, if they all of a 
sudden stop going, you have a good bet that they're on their 
way.
    We have no people out there who know these things. I was 
walking around with a friend of mine, Marc Sageman--he's a 
former Central Intelligence Agency field agent--and I said, 
``Marc, why isn't there anybody here looking at this? I mean, 
you could spot them.'' He says, ``You can't. I mean, agents 
can't do that. They have to work through the Ambassador; they 
have to get permission; they write reports and do an analysis, 
but you can't just go into the field and figure out what's 
going on.'' That's a big mistake.
    Dr. Stone. Senator, suicide bombers in Somalia have come 
from our own United States. I don't know the mental condition 
of Army Major Hasan. I don't know his mental state or what was 
going on with him, but what I do know is, he broke an oath to 
support and defend the Constitution, a Hippocratic Oath to do 
no harm, and ultimately chose another oath.
    The concept of radicalization, however we want to bring it 
about, is here. We need to engage it here, as well as there.
    Dr. Atran. Just to take out Major Hasan, he sent 21 
messages to Anwar al-Awlaki, basically seeking to do jihad. He 
wanted a meaning in life. Awlaki only sent him back two 
messages, without any operational implications. It's not that 
the Internet Imams are out there, basically, recruiting them, 
pulling them in. They're just there.
    As one kid in a French prison said when I asked him, ``Why 
did you join the jihad?'' He said, ``Well, I was walking down 
the street one day, and someone spit at my sister and called 
her a `sal Arab,' a dirty Arab.'' I said, ``Well, that's been 
going on for years and years.'' He said, ``Yes, but there was 
no jihad to join then.''
    So, it's out there, and people are choosing it, and we have 
no real competition for these messages out there.
    Senator Bill Nelson. What do you think we ought to do to 
get our government more sensitized to the message that you all 
have here?
    Dr. Stone. Senator, I wouldn't know. I'm a citizen. That's 
the proudest title I've ever had. It's the only title I really 
want. I think it's my job to do what I can do as a citizen, 
period. You are the representative of our citizens. I will rely 
on what I said earlier that, this house is dependent on the 
people. We're speaking to the American people when we're 
talking to you. It is, in some respect, as their elected 
representatives, a duty to bring to them the message that I 
think is very real, about how to defend our Country, how to 
stand behind our Country, how to engage in the protection of 
our Country, in this time, as it has been in every period of 
time before. There's no difference in this regard. We are 
defending the Constitution and our fundamental belief that is 
the spirit behind the declaration that lifted that Constitution 
into reality.
    I think it's the job of our elected representatives, as 
much as it is anything, to get out and to engage them.
    The converse of that will be true. I submit to you, sir, 
that American citizens, once they understand, with a level of 
granularity that is not hard to communicate to them, they will 
have expectations of this government that far exceed anything 
this small panel could put on the plate for you today.
    My suggestion would be, go to the people and educate them--
our people, our citizens--and ask them how and what do they 
think, and you will find an unbelievable wealth of patriotism 
come forth to do the right thing for the Nation.
    My answer would be: Go to the people, sir.
    Senator Bill Nelson. The two commanders in that most 
violent part of the world that we're concentrating on, 
Afghanistan and Pakistan, are General Petraeus and his 
commander in Afghanistan.
    Dr. Stone. General McChrystal, sir.
    Senator Bill Nelson. You said, General Stone, earlier, that 
General Petraeus understood and supported you and what you were 
doing in the prison in Iraq. Do you think that he sufficiently 
understands what has been presented by this panel today that he 
is trying to apply that in the Central Command area of 
responsibility?
    Dr. Stone. Sir, there would have been no success in the 
surge, no success in my program, were it not for the leadership 
of General Petraeus. He was a risk-taker, as any great leader 
will be. He understood the culture and the context of it.
    I have no question in my mind, General Petraeus understands 
this enemy and what he needs to do. I also know that General 
Petraeus is a general, and that this problem is much broader 
than just the leadership of a military combatant commander.
    Senator Bill Nelson. Do you think General McChrystal 
understands this, as well?
    Dr. Stone. Sir, I've had the great honor of serving with 
General McChrystal multiple times when I was in Pakistan, in 
Iraq, and then in Afghanistan, and I would say the same thing 
for General McChrystal. We are challenging those leaders to do 
things, not just in their spectrum of military warfighting, but 
also by embracing a much broader set of resource deployment 
issues. There's no question in my mind that the aforementioned 
leadership know how to win this war in the locations they're 
serving.
    What I would question is whether or not they have all those 
resources of the various kinds that they need to get that done. 
That, I don't know.
    Senator Bill Nelson. The resources that we've talked about 
here are the resources of being able to get to young people to 
get them to understand what true Islam is, and not be diverted 
into some extremist form of violence.
    Dr. Stone. That's a pretty good characterization, sir.
    Dr. Atran. Can I just say something about Afghanistan? The 
U.S. military came to Afghanistan with no knowledge of the 
Afghan people, really. They didn't know or understand who they 
were, what being Afghan meant, or how the society worked. 
They're getting that; they're forced to get it.
    I think, still, it's much too halting. We have the Army 
Human Terrain System experiment, for example, where you send 
out teams into Paktia and Helmand Province, with combat 
ethnographers embedded in infantry units in order to provide 
nonlethal services, like medical services, to a village. 
They're very good at making ties. The Afghan women especially 
like women medical officers. But, then they're taken out and 
put in another infantry unit, so all of the local contacts have 
been lost.
    Even if that worked, I think it would be a disaster for the 
cooperation with the academic community, the social science 
community, and the universities in this country. Ever since the 
Vietnam war, there has been a deep antipathy and antagonism 
between military operations and projections of power on the 
part of policymakers and the academic establishment, outside 
the political guys at the major universities. The idea that 
there are trained social scientists, with uniforms and armed, 
and who could be forced to harm and kill local people, will 
alienate American academic community entirely and for good. 
That would be a tragic mistake because, unlike Vietnam, most of 
the people in the academic community do believe that this 
problem of extremist violence is a serious problem and must be 
dealt with by the United States.
    We have to be a little better, and more sophisticated, and 
branch out, in terms of who we bring into the field because 
right now, there's only military guys in the field. There's 
nobody else, except them and the clandestine services; so 
you're getting nothing, in terms of reliable knowledge that can 
be put out in the public, criticized, falsified, and then 
changed to fit the situation right. That's the way science 
works.
    Senator Bill Nelson. If you take that suggestion, you're 
talking about unleashing the civilian agencies of government 
instead of a military agency that has led this effort, out of 
necessity because that's how we've been organized; letting the 
civilian agencies go out and lead this effort.
    Dr. Atran. The Air Force Office of Scientific Research has 
funded 54 Nobel Prize-winners,\7\ including social scientists. 
The Office of Naval Research, the Air Force Research Office, 
the Army Research Office, the National Science Foundation, they 
have, already, the ways to go with people into the field. It's 
being blocked, okay? It's being blocked at the level of the 
Surgeon General's offices, who are scared to death that there's 
going to be someone out there who's going to be accused of 
spying, will get hurt, or something like that. There is no work 
being done. The agencies exist, the ways exist, and even the 
funds exist. But the people don't exist because it's being 
blocked at a governmental level. I think, if it was unblocked, 
a lot more people, a lot more knowledge, and a lot more savvy 
would be available to the government and the people of the 
United States.
---------------------------------------------------------------------------
    \7\ The subcommittee notes, and Dr. Atran agreed, the Air Force 
Office of Scientific Research has 56 Nobel Prize-winners mentioned in 
its most recent documentation, including Secretary of Energy Steven 
Chu.
---------------------------------------------------------------------------
    Dr. Forest. Sir, this basically reinforces what I said 
earlier about there being no substitute for physical presence 
when you're trying to influence, and strategically influence, 
populations in these areas.
    Dr. Stone. The colloquial term, sir, is whether or not the 
environment is permissive or non-permissive. You've heard this 
term. There are restrictions for those going to permissive 
environments versus non-permissive. Both of my colleagues on 
the panel are arguing that we need to recognize that it is not 
this enemy, that's not how we fight this enemy. You have to 
have a presence of diverse capabilities focused on different 
skill sets and focused on the very specific effort. My argument 
would be that our focus needs to be counterrecruiting, stop the 
recruiting. Once you stop the recruiting, you stop the 
insurgency. I'm using ``insurgency'' in a global sense.
    That's, I think, what these two gentleman were saying.
    Dr. Forest. On that piece, the military should be 
recognized for doing a tremendous amount of great work.
    Dr. Stone. Absolutely.
    Dr. Forest. In the last 10 years in developing, training, 
and educating their soldiers and officers to deal with these 
kinds of challenges in totally new ways that they never had to 
before.
    Senator Bill Nelson. Huge difference.
    Dr. Stone. Huge, sir.
    Senator Bill Nelson. It is very different than when I wore 
the uniform of this country during Vietnam. It is a huge 
difference. These young NCOs and young officers that are out 
there have suddenly had to learn, right on the ground, things 
other than being a warrior. It's marvelous. That's what we 
tried to attempt to get to in this hearing today. I can tell 
you, the way I will run the next hearing, either your panel 
will be first or all six of you will sit at the table together 
so that we can get that interchange going with the existing 
governmental leaders.
    Thank you for an exceptionally stimulating hearing. We are 
very grateful.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
              intelligence support for indirect activities
    1. Senator Bill Nelson. Mr. Reid and General Kearney, national 
intelligence agencies seem to focus their assistance to the Department 
of Defense (DOD) in Afghanistan, Iraq, and elsewhere on special 
operators engaged in direct action operations against terrorists and 
insurgents. Consequently, general-purpose forces and Special Operations 
Forces (SOFs) engaged in indirect activities, including foreign 
internal defense and population protection, might receive less 
intelligence support.
    A recent report published by the Center for a New American Security 
and coauthored by Major General Michael Flynn, the International 
Security Assistance Force Deputy Chief of Staff for Intelligence in 
Afghanistan, argued that because U.S. intelligence collection efforts 
have focused overwhelmingly on insurgent groups for direct action, our 
intelligence has failed to provide the kind of information needed to 
leverage popular support and marginalize insurgencies. Do you agree 
with this assessment? If so, what recommendations do you have for 
addressing this concern?
    Mr. Reid. General Flynn's report directly addresses one of the 
fundamental discussions in our approach to Afghanistan, which is how to 
balance direct action activities with counterinsurgency activities. I 
understand that he has the respect of the Secretary and the senior 
military command within this building, and this kind of candid and 
critical assessment is a sign of a strong and healthy organization. 
This appraisal enriches what has been a very real and vigorous debate 
that has been taking place within DOD and throughout the government for 
years.
    Intelligence is key to our success in Afghanistan, and we have 
clearly faced challenges in gathering and assessing quality 
intelligence, particularly in support of indirect activities like 
foreign internal defense. DOD leadership is open to suggestions like 
General Flynn's about how we can improve intelligence collection so we 
can improve our efforts quickly and meaningfully. General McChrystal 
and his team in Afghanistan are keenly aware of weaknesses in our 
intelligence collection efforts, and are working diligently to address 
them. Within the Department, we are continually looking for ways to 
better support intelligence collection in Afghanistan, whether by 
refocusing counterterrorism efforts to counterinsurgency, or by giving 
careful consideration to requests for additional resources to augment 
intelligence collection activities.
    We must continue to be critical of our own progress concerning 
intelligence collection and its utility in helping to leverage popular 
support and counter violent extremism. Further, we should support 
General McChrystal's request that all troops deploying to Afghanistan 
are properly trained in the full range of counterinsurgency skills, 
including the use of intelligence, surveillance, and reconnaissance 
enablers, to accomplish this difficult mission. We are currently 
working with the Joint Staff and the Service Chiefs to institutionalize 
this type of counterinsurgency training throughout the Department.
    General Kearney. In general, I agree with and support Major General 
Flynn's findings in his report ``Fixing Intelligence''. Our 
recommendations to address these concerns are:

        <bullet> Adopt the changes suggested by MG Flynn, which involve 
        reorienting analysts within Afghanistan from the major 
        headquarters to forward field units from which they can better 
        collect and analyze population-centric information, and to 
        Regional Fusion Centers where other regional political and 
        social information can best be integrated for assessments.
        <bullet> Ensure the Services and intelligence agencies adapt 
        their training programs to better train, educate, and prepare 
        analysts for this population-centric focus.

         special operations forces in support of country teams
    2. Senator Bill Nelson. Mr. Reid and General Kearney, Special 
Operations Command (SOCOM) deploys personnel to work with country teams 
in many priority countries where we are not in a shooting conflict, but 
rather where we are trying to stop the spread of extremist ideology. 
Their mission is to support the priorities of the ambassador and the 
geographic combatant commander's (GCC) campaign plan against terrorist 
networks. These personnel perform important tasks to augment the 
embassy's activities in a variety of areas, including infrastructure 
development, partner capacity building, and strategic communications. 
In most cases, these special operations personnel serve as force 
multipliers and increase the effectiveness of the embassy in meeting 
its objectives. However, there have been some limited cases where 
coordination between an ambassador and special operations personnel has 
not been effective. What should be done to make sure the goals and 
activities of special operations personnel deployed to these countries 
are aligned with those of the ambassadors they are working under?
    Mr. Reid. The activities of special operations personnel are 
directly aligned with the embassy's efforts in any given country and 
are conducted in full coordination with the Chief of Mission. The 
Department's aim is to support and enhance the activities of country 
teams in our efforts to counter violent extremism. To accomplish this, 
we ensure that communication is open and frequent among special 
operations personnel leadership and the embassy in each country. We 
work to ensure that our deploying personnel are fully aware of the 
efforts and operations conducted by our interagency partners, 
particularly in areas where DOD is not the lead actor, such as in 
strategic communications and augmenting host nation civil capacity.
    We are currently strengthening coordination between DOD and the 
Chief of Mission by implementing DOD Directive 5105.75, which 
established a Senior Defense Official (SDO) at every U.S. embassy. 
Among the SDO's duties and responsibilities is the requirement to keep 
the embassy informed of DOD operations and positions, which further 
enhances coordination between the Chief of Mission and special 
operations personnel.
    General Kearney. U.S. SOCOM serves as a force provider to execute 
the roles, mission and functions required by the GCC and the Country 
Team in any specific location. The GCCs and Ambassadors do extensive 
work to define the specific mission and roles. SOCOM ensures that the 
scope of mission and support is well understood and adhered to by the 
deploying forces. While methods and timing of execution may change over 
time, the GCCs and Ambassadors control the overall end state.
    The process of putting SOF liaison officers in the embassy to 
coordinate operations has been very successful. SOCOM has a robust 
country team presence on the embassy staff of many priority countries. 
The most successful venues are those where the Ambassador, GCC and the 
Theater Special Operations Command (TSOC) have early and frequent 
discussions to synchronize priorities, forces and operations. It is 
inevitable that disagreements or discussions of methods will occur; the 
GCC, TSOCs and the Country Teams will deconflict these instances.
    In those cases where conflicts arise, U.S. SOCOM can assist 
coordination. U.S. SOCOM has a 4-star equivalent Ambassador on staff--
in addition to many other interagency 1-2 star equivalents--to provide 
counsel to the staff and components. This team coordinates with other 
agency representatives and with U.S. SOCOM support representatives on 
their agency staffs. The resulting whole-of-government approach gives 
U.S. SOCOM an impressive ability to synchronize key aspects of the U.S. 
Government's overall strategy and optimize the contribution of each 
agency's effort.

    3. Senator Bill Nelson. Mr. Reid and General Kearney, given the 
high demand for special operations personnel around the world, how is 
the decision made by SOCOM, Department of State (DOS), and the GCCs to 
deploy a special operations team to a certain country and is that 
decision reevaluated over time?
    Mr. Reid. The GCC and DOS (Country Team) coordinates closely on any 
requirement for SOF and submits a request for a special operations 
team. Once a requirement for SOF has been validated by the GCC and 
Joint Staff J-3, the Joint Staff J-3 forwards the requirement to U.S. 
SOCOM or the appropriate sourcing GCC for development of a sourcing 
recommendation. DOD requests official clearance from the Chief of 
Mission before deploying any special operations team, except in Iraq 
and Afghanistan.
    U.S. SOCOM develops and recommends a sourcing solution to the 
Secretary of Defense through the Joint Staff for approval based on 
mission, appropriateness of the requested force, capability for the 
mission, availability of forces, and priority of the mission as set 
forth in the Global Employment of the Force (GEF). The GEF establishes 
planning guidance related to operations, force allocation guidance, and 
provides a decision model, assumptions, and guidance designed to 
support force allocation recommendations among competing requests. 
Additionally, the GEF directs DOD to balance near-term operational 
needs with the need to hedge against potential future threats.
    U.S. SOCOM utilizes the GEF to prioritize both annual and emergent 
requests for forces. U.S. SOCOM's fiscal year 2011 sourcing 
recommendation for the 600-plus annual requests for SOF was submitted 
and approved by the Secretary in March 2010. With each subsequent 
emergent request for SOF, SOCOM will review global sourcing to ensure 
compliance with the GEF. Additionally, the Joint Staff J-3 reviews all 
U.S. SOCOM sourcing recommendations prior to submission to the 
Secretary to ensure compliance with the GEF. This prioritization occurs 
annually in conjunction with the Global Force Management Process and is 
reevaluated with each emergent request for SOF.
    General Kearney. The GCC and DOS normally coordinate requirements 
for SOF prior to submitting a request for a special operations team. 
Once a requirement for SOF has been validated by the GCC and Joint 
Staff J-3, the Joint Staff J-3 forwards the requirement to U.S. SOCOM 
for development of a sourcing recommendation.
    U.S. SOCOM develops and recommends a sourcing solution to the 
Secretary of Defense, through the Joint Staff, based on: mission, 
appropriateness of the requested force/capability for the mission, 
availability of forces, and priority of the mission as set forth in the 
Department's Guidance for Employment of the Force (GEF). The GEF 
provides planning guidance related to operations and force allocation. 
The Joint Staff J-3 reviews all U.S. SOCOM sourcing recommendations, 
prior to submission to the Secretary, to ensure compliance with the 
GEF.
    U.S. SOCOM utilizes the GEF to prioritize both annual and emergent 
requests for forces. This prioritization occurs annually in conjunction 
with the Global Force Management Process and is reevaluated with each 
emergent request for SOF. U.S. SOCOM's fiscal year 2011 sourcing 
recommendation for the 600-plus annual requests for SOF was submitted 
and approved by the Secretary in March 2010. With each subsequent 
emergent request for SOF, SOCOM will review global sourcing to ensure 
compliance with the GEF.

                    empowering local credible voices
    4. Senator Bill Nelson. Ambassador Benjamin, empowering civil 
society and elevating the voices of key local leaders is often put 
forward as one of the key components of an effective strategy to 
counter violent extremism (CVE). Ironically, as we have sought to 
establish better ties with key local actors and nongovernmental 
organizations in dangerous and difficult environments, our embassies 
around the world have been moved out of city centers into safer 
neighborhoods that often prevent greater outreach to the local 
community. How can the United States rectify this dilemma?
    Ambassador Benjamin. We recognize that the location of some of our 
embassies and consulates, dictated by security concerns, does make 
interaction with local populations more challenging. However, 
regardless of the location of their embassy or consulate, U.S. embassy 
officials are working actively to identify credible local leaders who 
can discredit violent extremist narratives and develop targeted 
counter-radicalization programs.
    Our diplomats understand that local credible and influential 
individuals are best suited in their own communities to challenge 
extremist messages and prevent the radicalization of vulnerable or 
alienated individuals.

    5. Senator Bill Nelson. General Kearney, what, if any, programs is 
SOCOM currently executing to empower local voices against violent 
extremism?
    General Kearney. U.S. SOCOM has no specific program being executed 
to empower local voices against violent extremism. However, U.S. SOCOM 
supports other combatant commanders, primarily U.S. Central Command 
(CENTCOM) and U.S. Strategic Command (STRATCOM) (through their Joint 
Information Operations Warfare Center), in their efforts to identify, 
amplify, and/or empower local voices. Such support ranges from 
activities and programs executed by deployed forces in support of U.S. 
Forces-Afghanistan and U.S. Forces-Iraq; Military Information Support 
Teams (MISTs); and planning, intelligence, research and analysis 
support provided by U.S. SOCOM's Joint Military Information Support 
Command. U.S. SOCOM also provides support to amplify key communicators 
countering violent extremists utilizing the Trans-Regional Web 
Initiative and the Regional Magazine Initiative.

    6. Senator Bill Nelson. Ambassador Benjamin, Mr. Reid, and General 
Kearney, how do we ensure that we do not compromise these credible 
local voices in our effort to CVE?
    Ambassador Benjamin. Enhancing engagement with and outreach to 
civil society in at-risk communities needs to be a central part of the 
U.S. Government's evolving CVE strategy. With regard to Muslim 
communities, local credible and influential Muslims are best suited in 
their own communities to challenge extremist messages and prevent the 
radicalization of vulnerable or alienated individuals.
    In order not to compromise such credible local voices, U.S. 
Government engagement can and should take different forms depending on 
the circumstances of the potential partner. Some organizations with a 
lack of resources and outside funding will welcome U.S. ``seed'' money 
to hire staff and initiate programs. Others may desire capacity and 
leadership development training to better position them to challenge 
extremist narratives. In other cases, the U.S. Government can simply 
act as the facilitator by connecting these organizations with other 
third parties with whom they can partner.
    Credible voices have their own sense of self-preservation: some 
potential partners will not want any formal affiliation with the U.S. 
Government, because they fear it could undermine their legitimacy among 
constituents. In these cases, the U.S. Government would work closely 
with and through local, regional, or national governments, as well as 
credible regional and international organizations to see that their 
voices are amplified.
    Mr. Reid. The security and legitimacy of credible local voices are 
paramount to our efforts to CVE. The role of trusted local voices in 
marginalizing insurgents means that these individuals often become the 
target of terrorists and insurgents. For this reason, it is often very 
difficult to recruit credible voices to speak out. Fortunately, many of 
these credible voices have their own internal security provided by host 
nation security forces. The Department works with these security forces 
to augment their ability to provide security and reduce corruption in 
their ranks that could compromise the safety of a credible voice. By 
training host nation security forces to improve their ability to 
protect these individuals, we also are able to encourage other 
potential local voices to stand up and be heard.
    The Department has long supported the proposition that having a 
U.S. Government face on every message may not be the most effective 
means for transmitting our message and believes that those credible 
voices are significantly more effective at relaying messages to their 
local audiences than DOD could be. We are very cognizant of the fact 
that this credibility would be immediately marginalized if they are 
seen to be partnering with the military. Protecting reputations is 
important and specifics as to how we accomplish this goal is better 
discussed in another forum.
    General Kearney. Discretion is paramount when trying to amplify, 
propagate, bolster, and build credible voice networks. One approach to 
safeguard credible voices is to use surrogates and interlocutors as 
intermediaries to build relationships with these particular 
individuals.

    7. Senator Bill Nelson. Ambassador Benjamin, Mr. Reid, and General 
Kearney, how are community leaders and reputable voices identified by 
your departments?
    Ambassador Benjamin. Embassies in countries where violent extremism 
has taken root are working hard to identify community organizations and 
neighborhood activists who possess a nuanced understanding of the local 
drivers of extremism, can convey the most powerful counter-narratives, 
and can develop tailored counter-radicalization programs.
    At the State Department in Washington, in support of these embassy 
efforts, we are approaching this from many perspectives, including from 
the Office of the Coordinator for Counterterrorism, the Office of the 
Under Secretary of State for Public Diplomacy and Public Affairs, the 
Office of the Special Representative to Muslim Communities, regional 
bureaus, and USAID.
    The Department's Office of the Coordinator for Counterterrorism has 
a field-driven program called the Ambassadors Fund for 
Counterterrorism, which enables our foreign missions to identify local 
partners for community based CVE projects and funds each of them with 
up to $100,000 in micro-grants. Projects are focused on challenging 
extremist narratives, empowering moderate voices, enhancing support for 
law enforcement efforts, and engaging at-risk youth, among others. In 
fiscal year 2009, we funded 17 Ambassadors Fund programs.
    In addition, the Department's Special Representative to Muslim 
Communities has met with civil society leaders at the grassroots level 
in 21 countries to discuss a range of pressing issues, including CVE 
efforts. Focusing particularly on young people, she is working to 
create partnerships with civil society actors who are pushing back 
against violent extremism and she is seeking to connect them to like-
minded thinkers. In these efforts the Department is increasingly using 
online and mobile technology to empower credible Muslim voices that can 
provide an alternative, positive counter-narrative.
    Mr. Reid. DOD works through the local government and security 
forces of respective nations to select community leaders and reputable 
voices that will advocate for the interests of the local population. 
Along with DOS, DOD takes cues from the local population's civilian and 
security force structures to identify and augment the community 
leaders' capacity to effectively represent the opinions and needs of 
their publics. We work to enable and empower leaders chosen by their 
communities because these individuals already carry credibility and 
respect among the people they are representing. Leadership that is 
chosen organically by the underlying population ultimately better 
strengthens civilian capacities and security efforts, so is crucial in 
our efforts to CVE.
    More specifically, in Afghanistan, DOD and interagency personnel 
work with Afghan National Security Forces and other Government of the 
Islamic Republic of Afghanistan officials; attend shuras, conduct key 
leader and religious leader engagements; consult nongovernmental 
organizations and other actors with longtime presence in local 
communities; and conduct patrols and engage in conversation directly 
with the local population. This engagement and identification of local 
leaders involves close coordination with DOS, which leads interagency 
efforts in communicating with international populations.
    Further, DOD works with our interagency partners to continually 
assess the progress and integrity these community leaders display 
through their work to build civilian capacity against violent 
extremism. It is our goal to help ensure that these community leaders 
and voices truly represent the needs and interests of their public. 
Accordingly, we place significant trust in the local community's chosen 
leadership and reputable voices but also stay vigilant in regard to 
signs of corruption.
    General Kearney. U.S. SOCOM does not execute a specific ``credible 
voice'' program, but supports other combatant commands, primarily U.S. 
CENTCOM and U.S. STRATCOM (through their Joint Information Operations 
Warfare Center), by providing intelligence analysis and cultural 
expertise in support of their ``credible voice'' programs. Our 
experience indicates that local commanders and forces deployed in the 
operating environment are best postured to identify community leaders 
and reputable voices.

    8. Senator Bill Nelson. Ambassador Benjamin, Mr. Reid, and General 
Kearney, how could the identification of and support for community 
leaders be improved?
    Ambassador Benjamin. The Department could expand small grant 
programs for civil society organizations working to counter violent 
extremism. A lack of resources often inhibits the genuine efforts of 
neighborhood activists and community organizations. Many require 
``seed'' money to hire staff and rent office space. Additionally, U.S. 
Embassy staff could collaborate with local authorities and 
organizations specializing in training to create capacity-building 
packages and courses for identified partners. It is important to keep 
in mind that not all organizations possess the capabilities or 
political will to effectively deliver local programs. Many will need 
capacity and leadership development training to better position them to 
work with individuals vulnerable to radicalization.
    Mr. Reid. The identification of and support for community leaders 
could be improved in a number of ways. First, and perhaps most 
importantly, we must be able to more effectively communicate with local 
populations and security forces. This requires increased language and 
cultural capabilities throughout our entire force, not just in civil 
affairs or Special Operations. Investment in our personnel to learn 
Dari, Pashto and Urdu, as well as other strategic languages, is 
imperative in developing our abilities to better understand the needs 
of a foreign population and who best can lead it. Speaking and 
listening skills must be emphasized at all levels in the force so as 
many DOD personnel as possible can communicate with host nation 
citizens.
    The Afghanistan Pakistan Hands (APH) program, which develops 
language, regional and cultural expertise in military and civilian 
personnel throughout multiple U.S.-based and deployed assignments, 
serves as an excellent example for how to institutionalize regional and 
cultural understanding throughout the Department.
    Also, the Department can strive to strengthen relationships with 
interagency partners like DOS and U.S. Agency for International 
Development (USAID), and also the U.N. and reputable nongovernmental 
organizations with a history of achievement in that community. Other 
examples of how we can better identify legitimate community leadership 
and reputable voices include improving population-centric intelligence 
capabilities and better organizing community-level project committees 
when conducting Commander's Emergency Response Program and other 
projects.
    More broadly, we can continue to promote more accountable 
leadership and governance within our partner nations. As these 
governments gain legitimacy and power through competence and minimized 
corruption, they can become those leaders or help identify other 
community leaders.
    General Kearney. Identification of and support for community 
leaders are best done at the local level and can be improved by 
establishing persistent presence in selected areas of interest. We must 
understand the environment, culture and people within a designated area 
to truly understand who the key influencers or ``credible voices'' are 
at the local, as well as regional level.
    Additionally, identification and support for credible voices could 
be improved by better collaboration and information sharing between 
U.S. Government agencies and departments, particularly with respect to 
open source information and intelligence. An interagency process which 
oversees the identification and use of credible voices to ensure the 
synchronization of individuals and the objectives they support would 
mitigate duplication and prevent conflicting efforts.

   de-radicalization and rehabilitation programs in muslim countries
    9. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, the 
Saudi rehabilitation program, under the Saudi Ministry of the Interior, 
has reportedly had nearly 300 men complete the program, and nearly 80 
percent of these have returned to living their lives normally. Other 
predominantly Muslim countries have also instituted deradicalization 
programs, though one very significant exception is Yemen. In your view, 
how important are rehabilitation programs like the one in Saudi Arabia 
in addressing violent extremism in countries other than Iraq and 
Afghanistan?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. My discussions in Riyadh with Saudi officials as well as 
detainees in the rehabilitation program indicate that the Saudi 
initiative seems to be effective although perhaps prohibitively 
expensive for other countries. The key to its success are the two 
talented, prime movers of the program: Dr. Saad al-Jabri, special 
advisor to the Minister of the Interior, and Dr. Abdal Rahman al-
Hadlaq, of the Police Academy and director of the rehabilitation 
program. Unlike many senior officials in other countries with whom I've 
talked about radicalization and de-radicalization (Egypt, Morocco, 
Algeria, Pakistan, etc.), al-Jabri and al-Hadlaq do not attribute 
radicalization to the nebulous forces of ``international jihad,'' 
``brainwashing,'' a ``criminal mind'' or even primarily to American 
actions in the Middle East and elsewhere, but maintain that the problem 
is primarily one of public health, especially involving social networks 
of youth who seek out family but mostly friends to find faith and 
meaning in life that promises adventure and glory.
    As al-Jabri said to me:

          ``We created Bin Laden's reputation and now we are obliged to 
        destroy it. It is not an easy matter to convince our young 
        people, and for them to convince one another, that what was 
        right and good at one time [in fighting the communists in 
        Afghanistan] is bad for everyone now.''

    This degree of self reflection and self criticism, which is key to 
overcoming past mistakes and succeeding, is uncommon
    The Saudi rehabilitation program operates on several levels: 
bringing in family networks for support and assurance, and shoring up 
supportive peer groups that reject violence, providing educational 
forums for discussions of ideas (about personal grievances, religion, 
world politics, etc.) and work-study programs that could provide future 
forms of expression (e.g., art, poetry) and employment. However, the 
expense associated with this intensive, multi-pronged, and personalized 
effort far surpasses any other de-radicalization or de-criminalization 
program that I've encountered.
    For the most part, the emerging wave of jihadi wannabes that are 
inspired by al Qaeda's viral social movement tends to be poorer, less 
educated and more marginal than the old al Qaeda or its remnants. It 
relies to a greater extent for financing and personnel on pre-existing 
petty criminal networks because large-scale financing is easily 
tracked. The Saudi Ministry of Interior conducted a study of 639 
detainees through 2004, followed by a newer study through 2007. For 
example, from 2004-2006 Saudi forces killed over 100 perpetrators of 
terrorist events in the kingdom. Of the remaining 60 who were captured 
and imprisoned, 53 have been interviewed. Nearly two-thirds of those in 
the sample say they joined Jihad through friends and about a quarter 
through family. A closer look at other terrorist groups reveals 
strikingly similar patterns of self-radicalization based on almost 
chance encounters within pre-existing local circles of friends and kin. 
Marc Sageman analyzed Qaeda networks through 2003 and found that about 
70 percent join through friends and 20 percent through kin.
    The newer Saudi sample bears this out. Compared to the earlier 
sample, the newer wave tends to be somewhat younger (and more likely to 
be single), less educated and less financially well off, less 
ideological, and more prone to prior involvement in criminal activities 
unrelated to Jihad, such as drugs, theft and aggravated assault. They 
are much more likely to read jihadi literature in their daily lives 
than other forms of literature. They tend to look up to role models who 
stress violence in Jihad, like the late Abu Musab al-Zarqawi, than to 
those who justify and limit violence through moral reasoning, such as 
the late Abdullah Azzam. A majority come to religion later in life, 
especially in their early twenties. In the older cohort there was 
little traditional religious education; however, the newer cohort tends 
to be less ideologically sophisticated and especially motivated by 
desire to avenge perceived injustices in Iraq and now Afghanistan and 
Pakistan. (When I asked detainees in Saudi Arabia who had volunteered 
for Iraq why they had, some mentioned stories of women raped, the 
killing of innocents and desecrations of the Koran, but all mentioned 
Abu Ghraib).
    Across, North Africa, the Middle East and South Asia, our research 
teams find similar patterns developing among socially marginalized 
youth.
    Dr. Forest. Sir, to my understanding Yemen has had for several 
years a deradicalization program--the ``Committee for Dialogue'' 
initiative--as does Northern Ireland, Colombia, Indonesia, Malaysia, 
Singapore and many other countries. In my opinion, the very best expert 
on the topic of deradicalization programs is Professor John Horgan, the 
Director of the International center for the Study of Terrorism at Penn 
State University. In assessing these programs, and their central, 
common effort to influence an individual's movement away from 
terrorism, Horgan notes that there is broad confusion about the 
terminology used, the objectives these programs seek to achieve, and 
the kinds of evidence (or lack thereof) to indicate an individual has 
truly adopted a system of beliefs, values and thoughts in which the 
rejection of terrorism is permanent. Drawing lessons from the diversity 
of such programs around the world may be informative and useful, but in 
my view sponsoring a program of this type in Iraq and Afghanistan 
should be seen as a small portion of a much broader, full-spectrum 
effort to combat violent extremism, an effort that is proactive, and 
seeks to diminish the resonance of violent extremist ideologies, 
counter the illegitimate extremist narratives with facts and 
counternarratives that are culturally and contextually relevant. At the 
end of the day, our ultimate goal here should be to make all 
``deradicalization programs'' completely unnecessary.

    10. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, are 
there steps the U.S. Government could be taking to encourage the 
establishment of deradicalization programs along the Saudi model in 
other countries? Are there variations or alternatives to the Saudi 
model that you believe would be appropriate in some nations?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. Something similar to the program instituted among 
detainees in Iraq by Doug Stone shares many productive aspects of the 
Saudi program, including involvement of family and peer support groups, 
and help in finding alternative sources of inspiration and employment. 
The model would seem a ``natural'' for the detainee situation in 
Afghanistan (where current internment procedures only seem to 
contribute further to radicalization to violence).
    Turkey and Indonesia countries where de-radicalization, and 
containment of radicalization seem to be working and to provide 
promising models for use elsewhere. In Turkey, the National Police has 
taken the lead. Like the Saudis, they tend to see the problem in terms 
of social and public health, rather than as a criminal or military 
matter. For example, if someone is tracked returning from Afghanistan 
or Pakistan, national police agents visit the families with the 
message: ``we don't want your son to turn on his friends but if there 
is violence there will be trouble for everyone; so let's see what we 
can do together to prevent that.'' Police follow through with in trying 
to find employment for the person and even for other family members, 
assistance with medical problems, and opportunities for religious and 
technical education. The police also systematically also give 
assistance with food or other gifts at Ramadan. The result is that 
jihadi terrorism has virtually ceased in Turkey (with some police 
station chiefs complaining that former jihadis are now coming to them 
with too much advice and information).
    The Kurdish problem is different however, and here the National 
Police are at loggerheads with the army over how to deal with 
potentially violent Kurdish youth. The army tends to deal with the 
problem as a military and criminal matter, whereas the National police 
seek to apply the public health model they have so far successfully 
used against jihadis. In Diyarbakir, for example, the National police 
paid out of their own pockets (with no government money) to set up 
computer training facilities with marginalized youth, and helped set up 
supportive chat rooms where everyone could discuss issues that 
concerned them (with the police openly and productively participating).
    Although less expensive than the Saudi program, the Turkish 
National Police effort is unusual in terms of the high levels of 
education and motivation among its leading personnel. Over 150 senior 
police agents in the last few years have gone on to graduate training 
in the United States, ranging from masters and Ph.D. programs in 
criminal justice at the City University of New York and Rutgers, to the 
PhD program in anthropology at Columbia University, International 
Relations at the University of Texas, and so on. Unless other countries 
are committed to such intense educational investment, it is unlikely 
that they could emulate Turkey's de-radicalization program.
    In Indonesia, too, the police have taken the lead in a generally 
successful de-radicalization program. General Tito Karnavian, the head 
of Strike Force 88, which has tracked and killed some of the world's 
most wanted terrorists (Azhari Husin in 2005, Noordin Top in 2009, 
Dulmatin in 2010), has been a prime mover in getting former Jemaah 
Islamiyah leaders and foot soldiers, such as Nasir Abas (former JI 
leader of Sulawesi and Philippines) and Ali Imron (one of the four 
convicted October 2002 Bali bomb plotters), to work with their 
erstwhile colleagues, communities and networks to help turn them away 
from violence. Results have led both to the undoing of planned plots 
and to increased rejection of violence by would-be jihadis.
    In December 2009, General Karnavian told me:

          ``Knowledge of the interconnected networks of Afghan Alumni, 
        friendship, kinship and marriage groups was very crucial to 
        uncovering the inner circle of Noordin.''

    It is by understanding how terror networks naturally form - through 
kinship, friendship, discipleship, and the like (and not through top-
down recruitment, cells, command-and control organizations)--that the 
best results against their further development have best been obtained, 
both in terms of derailing plots in preparation and in re-routing 
potential terrorists away from violence.
    Based on my field research, I argued for just such a strategy in a 
New York Times oped (``To Beat Al Qaeda, Look to the East,'' December 
12-13, 2009). A January 10, 2010 report by the Senate Foreign Relations 
Committee titled, ``Al Qaeda in Somalia: A Ticking Bomb,'' suggested 
(p. 6) that a strategy similar to the one outlined in my oped could be 
profitably applied to Yemen to take down terror networks.
    But the broader lesson, I believe, is that:

          The best strategies for undoing terror networks, both in 
        terms of disrupting operations in the short term and de-
        radicalizing personnel in the long term, is to co-opt the very 
        same social and psychological processes that lead to successful 
        formation of terror networks in the first place.

    A final observation in this regard: the only consistently 
successful people and groups I have witnessed who have convinced 
committed jihadis to abandon violence, including suicide terrorism, are 
committed Salafis themselves, especially those who belong to the same 
social networks as the jihadis.
    [To be clear: ``Salafi,'' or ``purist,'' refers to vast groups of 
people in the Sunni Moslem world, including near all Saudis, many 
Yeminis, Egyptians and Jordanians, and tens of millions of others. Like 
``Christian fundamentalism,'' there is nothing inherently violent about 
Salafism. But there is a small group of ``Takfiris'' (those who 
``withdraw'' from religious compromise and ``excommunicate'' and target 
fellow Moslems who do) that piggybacks Salafism, just as there is a 
small group of ``Supremacists'' that piggybacks Christian 
fundamentalism. In general, Saudi ``Wahabis'' are Salafis who are 
committed to the Saudi state, just as Calvinists were committed to the 
Swiss state. It offends millions in the Moslem world when Jihadis and 
Takfiris are conflated with Wahabis and Salafis].
    Dr. Forest. As indicated in my response to Question #9, these 
programs may be informative and useful, but my strong preference is for 
a less reactive, and more proactive, approach to countering violent 
extremism.

    11. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, what 
are your reactions to the suggestion of Jessica Stern, a Harvard Law 
School lecturer, who wrote in Foreign Affairs earlier this year that 
deradicalization programs should resemble anti-gang programs rather 
than a war effort?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. Gangs and terror groups have much in common, and Dr. 
Stern (with whom I am currently working on a National Science 
Foundation Project) is right to suggest that the way police, academics 
and others are beginning to understand and deal with gangs can 
profitably be used for terror networks (Phil Mudd and Marc Sageman have 
had a similar view of dealing with susceptible youth ``from the bottom 
up,'' that is, in terms of working with self-organizing peer groups). 
Again, this places the emphasis on public health, rather than criminal 
behavior or military threat, which seems right to me.
    Nevertheless, there is a crucial difference between gangs and 
ideologically or religiously-motivated terror groups. And that is 
commitment to a moral cause, however misguided, which gives such groups 
a willingness to sacrifice personal self-interests, including life, 
limb and treasure. This willingness to sacrifice, in turn, makes such 
groups much more resistant to materially superior forces, such as most 
armies and police, which are much more dependent on maerial incentives 
and reward structures.
    Under uncertain or constantly changing conditions, relatively fluid 
and flat networks that are self-organizing, decentralized and 
overlapping--like terrorist or drug networks, financial or black arms 
markets, or information webs of the Google or Wikipedia kind--tend to 
outperform relatively rigid, centralized and hierarchical competitors. 
Hierarchies are structured so that the bottom layers (workers) perform 
day-to-day tasks and the upper layers (management) plans for the long 
term. But in a rapidly changing world, large management structures set 
up for long-term maintenance of their organization's position in a 
predictable world often cannot compete with smaller, self-motivated and 
self-correcting systems that can more readily innovate and respond when 
opportunities or challenges arise.
    In the case of terrorist networks, the heightened burden of 
surviving and maintaining security under sustained attack from law 
enforcement and counterterrorism might be expected to put a fatal break 
on efficiency and innovation. But the interlocking relations of trust 
and familiarity inherent in the organic bonds of friendship, kinship 
and neighborhood make these networks highly resilient to local failures 
and to predatory attacks from the outside. Of course, criminal gangs 
and groups, like the Mafia and the Latin American drug cartels, also 
have these sorts of resilient networks. Again, though, terrorist 
networks often have something more: commitment to a transcendent cause, 
which allows for greater sacrifice than is usually possible with 
typical reward structures based on material incentives (and my 
interviews and studies of jihadis across the world indicates that this 
commitment is quite often sincere and steadfast). In the Jihad, even 
petty criminals come to transcend any usual motives for gain. They see 
a way of becoming part of something grand rather than small, and 
willingly give up their lives for a greater cause. No gang or criminal 
enterprise quite compares.
    Dr. Forest. Professor Stern is one of the world's foremost experts 
on religious and other forms of terrorism. What she suggests in that 
article reinforces my own arguments about the critical need to 
strategically influence whole communities, not just the armed 
combatants who are targeted for kinetic operations by military and law 
enforcement. Effective programs require a healthy mix of psychology, 
sociology, political science, economics, anthropology and several other 
disciplines; a sophisticated understanding of ideologies and the 
reasons they resonate (or do not resonate) among specific populations 
and communities; and a solid understanding of how and why our enemies 
succeed or fail when trying to influence those communities with their 
extremist messages.

                    empowering credible local voices
    12. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, 
empowering credible local voices sounds easy on its face, but it is 
truly a complex effort that must be done carefully. Given your 
experience on these issues, how would you recommend the U.S. Government 
undertake an effort to identify and empower credible local voices in 
the Middle East, South Asia, or Africa?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. Thus far, I see little awareness or acknowledge of 
relevant local voices. The focus is often on political, military and 
community leaders. But the critical relationships are peer-to-peer and 
mostly orthogonal to such leadership.
    Furthermore, the emphasis is on providing a ``moderate'' or 
``true'' message of Islam. But youth is not inclined to listen to 
moderation. A thrilling and daring call to adventure, heroism, and 
glory is demonstrably more appealing, especially to those on the 
margins of society already in search of personal and social 
significance.
    As for there being a ``true'' version of Islam, or any other 
religion, this--at least from the standpoint of scientific inquiry into 
the historical development and psychological interpretation of 
religion--can never be more than a matter of opinion, which is a most 
dubious basis for policy. Religions have no fixed meanings (no 
statement has a propositional content with logically or empirically 
verifiable truth value), which is what allows them to survive over time 
and in such varied contexts (see In Gods We Trust: The Evolutionary 
Landscape of Religion, Oxford University Press). Rather, religious 
canons, utterances, rites and so forth are inherently open-textured so 
as to allow widely different, and even contradictory, meanings to be 
attached to given behaviors and events as different circumstances may 
warrant. Again, a key to successfully using religion to end its abuse 
unto violence, is to make creative use of the inherent flexibility and 
openness of religious insights, and especially to help allow youth to 
explore this for themselves. One of the prime ingredients in the 
success of al Qaeda's message is its claim that present religious 
authorities speak lies and that more ancient religious authorities 
directly speak to, and empower, each individual to choose the right 
path (much as Luther told the people to reject Catholic authority and 
go personally and directly for guidance in life to the teachings of 
Christ). We must beat al Qaeda at its own game, and not by going 
backwards and sideways to moderate Imams, lessons in Quranic exegesis, 
and the like.
    Dr. Forest. Perhaps the most important aspect of this question 
involves the U.S. Government's willingness to sponsor initiatives that 
it does not take credit for. As an example, philanthropic foundations, 
nongovernmental organizations, others in the private sector could 
receive substantial grants from the United States to sponsor 
communication and community engagement efforts that identify and 
empower local voices. Messenger matters here as much as the message.

    13. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, can 
identifying and empowering local voices be done without compromising 
the individual's credibility because of their association with the U.S. 
Government?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. There is no need to have local voices directly 
identified with the Government of the United States. In the present 
atmosphere, this would be an unnecessary and weighty handicap for many 
potentially good people in many bad places. Leave it to the people in 
place to decide when, where and how any association with the U.S. 
Government should be made public.
    A mark of success would be to have current adversaries, such as 
those who identify with the Taliban or Hamas (who are interested less 
in global jihad against ``the far enemy'' than in their own homeland), 
be publicly associated with U.S Government peacemaking efforts, 
assuming enough common ground could be found to make such efforts 
worthwhile.
    Dr. Forest. Yes; see my response to Question #12.

    14. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, is 
there any CVE effort underway today that you feel is effective or 
noteworthy?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. Unfortunately, I cannot judge any noteworthy 
accomplishments abroad that have probable stable and sustainable 
effects in the desired direction. Various programs aimed at empowering 
women in Afghanistan are laudable but I cannot ascertain how effective 
they might be in the long term (unless tolerated and eventually 
accepted by presently hostile tribal groups).
    In the United States however, efforts by the NYPD to engage 
potentially susceptible communities, including Muslims in detention, 
appear to be quite effective. (In the U.K., outreach efforts by the 
Metropolitan Police are also noteworthy and effective).
    The FBI's recent community-outreach efforts to Somali immigrants 
and other potentially susceptible groups are also most noteworthy.
    I would recommend that the Departments of Defense and State pay 
closer attention to these efforts at home when planning abroad.
    Dr. Forest. Yes; I've been impressed with Maghrebia and other 
online efforts of the DOD that seek to engage communities of interest 
without feeling the need to focus discussion or perspectives in a 
particular direction. Open debate and sharing of information, 
particular irrefutable facts (like the Combating Terrorism Center's 
report that used data from Arabic news sources to show that al Qaeda 
has killed eight times more Muslims than infidels) are powerful tools 
in countering violent extremism. Other, more noteworthy and effective 
efforts I'm aware of are all non-governmental, like the Radical Middle 
Way in the United Kingdom, popular moderate preachers in Egypt, Jordan, 
et cetera. Here in the United States, Professor Jarret Brachman is more 
knowledgeable about such efforts than anyone I know of, and his blog 
(jarretbrachman.net) has become a very popular and important forum for 
monitoring and engaging violent extremists--again, nongovernment 
sponsored.

                         review of u.s. efforts
    15. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, what 
is your view of the collective efforts of the U.S. Government, such as 
with Voice of America, Alhurra, or ongoing capacity-building efforts, 
to CVE messages and ideology today?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. The information the Voice of America and Alhurra provide 
is useful and the fact that representatives of the likes of the Taliban 
and Hamas are sometimes given voice in these media means that they 
cannot be so readily dismissed as mere propaganda instruments. 
Nevertheless, the focus should be less on ideology and more on how 
matters of faith and friendship are embedded in supportive social 
networks. Socially disembodied discussions of ideology and religion 
have demonstrably little effect on people's thinking and behavior 
unless those people were already inclined in the direction of those 
discussions.
    While similar efforts were effective in Eastern Europe during the 
Cold War, it was because people were unhappy with the regimes they were 
forced to live under and with the messages imposed upon them. This is 
not the case today. There is a massive, media-driven global political 
awakening concerned with hopes for the future, but also with injustices 
that are perceived to prevent realization of those hopes. Here, ``Yes, 
We Can'' and ``Happiness is Martyrdom'' more or less freely compete, 
independent of political regimes and national boundaries, for anyone 
who cares to tune in. Our current programs suggest little awareness of 
these developments, much less an ability to steer or master them. Thus, 
we presently lack the long-term means for detecting or deciding who in 
the future among the world's youth will likely become our friend or our 
foe.
    Dr. Forest. (1) Capacity building in foreign communities should be 
the highest priority; as Secretary Gates said in 2007, ``the most 
important military component in the War on Terror is not the fighting 
we do ourselves, but how well we enable and empower our partners to 
defend and govern themselves.'' I would extend this to include how we 
enable and empower our state and non-state, nongovernmental allies to 
engage the enemy in the ideological battlespace. (2) We need to do much 
more online; as noted in my responses to other questions here, we need 
to have a more proactive, less reactive mindset. DOS's efforts to 
debunk conspiracy theories about the September 11 attacks is just one 
small example of a much broader, and necessary, ``shaping perceptions'' 
effort in support of the fight against violent extremism. (3) We need 
to have a better understanding, at the local, micro-level, of why 
violent extremist ideologies resonate in specific communities; with 
that knowledge, we then need to explore ways in which we can diminish 
the factors that sustain ideological resonance.

    16. Senator Bill Nelson. Dr. Stone, Dr. Atran, and Dr. Forest, what 
areas of the U.S. Government's CVE efforts are in most need of our 
attention and how would you address these shortcomings?
    Dr. Stone did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Atran. I have not seen any evidence of a stable, long-term CVE 
effort, promoted by the U.S. Government that promises stable, long term 
rewards (apart from Gen. Stone's Iraq mission). As indicated in my 
response to the previous question, many efforts that I have seen in the 
field are irrelevant: given over to the wrong people with the wrong 
ideas.
    In addition, precious little meaningful, field-based scientific 
research has been carried out to evaluate efforts. For the most part, 
evaluation measures and indicators are concocted in Washington 
according to previous formulae used to give and get grants and 
contracts. Consider, for example, measures employed by USAID, which 
typically involve about 15 ``indicators.'' But what is their real-world 
relevance? In Morocco, for example, USAID's support of local governance 
initiatives to empower women and youth presently does not assess the 
extent to which women and youth may be really empowered. The fact that 
12 percent of women, by the King's decree, are now entering local 
governing councils is a meaningless statistic in itself. To what extent 
are these women networking with one another across governing councils, 
with women in positions of power in business (there are increasingly 
many), or in other ways that could truly change their structural role 
and power base in society?
    As for youth, enumerating the number of government ``Youth Houses'' 
(maisons de jeunesse, dar al-shabab) created is pretty meaningless, and 
even misleading. To what extent to these youth spontaneously bring 
others form their neighborhoods, families and peer groups into new 
forms of social discourse and organization? (In fact, I have found in 
the field that the youth in the Youth Houses are often left to their 
own resources, and some even radicalize in them). A better course would 
be to think of how youth in the United States become empowered and 
apply that model: of Silicon Valley, of creative internet networks, of 
spontaneous peer-to-peer relationships and productions. At present 
about 60 percent of Moroccan youth are functionally illiterate. Yet, 
many are fascinated by the internet and are spontaneously developing an 
ersatz language to communicate among themselves (called charbiya, 
written in Arabic, with some French, Spanish and English words and 
sayings). Rather than promoting this spontaneous, potentially 
productive, means of expression and interaction which appeals to youth 
because it is their creation, authorities either ignore it or try to 
stifle it because they cannot control it.
    Recently, someone who served with the U.S. Afghan mission for some 
years asked if I would be willing to help evaluate U.S. success in 
winning hearts and minds. The first thing I asked her was: ``Do the 
Afghans you're in contact with accept Americans as guests, and do the 
Americans act as if they were guests?'' A bit startled, she answered, 
``of course not, we're here because we have to be.'' I then asked, ``Do 
they act as if they are the hosts and masters?'' She didn't respond at 
first, so I gave her this scenario: ``Surely you must have seen or 
heard about accidents on the road involving a U.S. military vehicle 
colliding with some Afghan's donkey-drawn cart. What happened? Do the 
American military personnel come out of the vehicle and try to help the 
poor fellow?'' Her answer: ``Never. They leave the scene, those are the 
rules of the engagement; any Afghan knows where to find us to lodge a 
complaint or make a claim.'' I told her that I'd bet my bottom dollar 
that al Qaeda doesn't behave that way, because they understand what it 
means to be a guest, and that's one good reason why they survive among 
the Pashtun tribes.
    In sum, the U.S. Government might do well to care less about what 
is religiously moderate or true, and not focus almost exclusively on 
economic and employment opportunities, but rather help more to provide 
peer-age heroes and ambitions that speak to youth's creative energy and 
idealism, sense of adventure and mission, and need for friendship and 
belonging.
    Dr. Forest. (1) Institutional capacity and leadership is critical; 
we are still suffering the negative impacts of the demise of the once-
vital U.S. Information Agency. The U.S. DOS is unable to meet the 
`strategic influence' needs of the world's superpower with its limited 
resources. (2) Some potential efforts to engage the enemy and its 
online propaganda, ideological influence efforts are constrained by 
policies, bureaucratic politics, and legal restrictions like the Smith-
Mundt Act. These things should be looked at carefully, in the hopes of 
finding creative ways to overcome such constraints. (3) Much more could 
be done to educate the public about the true nature of our enemies, 
their objectives, and most importantly, their vulnerabilities. Al Qaeda 
is on the defensive far more often than we acknowledge; we should make 
a more concerted effort to help Americans and the world understand why. 
(4) Similarly, there is a dire need to educate the media about who are 
the most influential voices in the Muslim world, both extremist and 
non-extremist; influential media outlets should take more 
responsibility for understanding why these voices are influential, and 
work to raise our collective understanding to a new level.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                        interagency coordination
    17. Senator Reed. Ambassador Benjamin, Mr. Reid, and General 
Kearney, we are often told that the quality of interagency coordination 
is dependent on the personalities involved. Interagency coordination 
seems to work best out in the field within our embassies, but back in 
Washington, it can become more stovepiped. Do you believe more formal 
arrangements are necessary to facilitate interagency coordination at 
higher levels within departments and agencies?
    Ambassador Benjamin. In an effort to galvanize and coordinate the 
interagency's work on CVE, the Office of the Coordinator for 
Counterterrorism convened a one-day interagency summit in October 2009 
to examine U.S. Government efforts in CVE, identify programmatic 
shortcomings, and make recommendations for creating a sustainable 
strategy going forward. The summit brought together senior attendees 
from the NSC, NCTC, USAID, intelligence agencies, and the Departments 
of State, Defense, Homeland Security, and Justice.
    The administration has taken significant steps to bolster formal 
arrangements that facilitate interagency coordination and has created a 
new NSS-led interagency working group on CVE that meets every three 
weeks. Several other fora exist for interagency coordination related to 
CVE, including:

        <bullet> NSC's Weekly Strategic Communication IPC. Chaired by 
        the NSS' Global Engagement Directorate. Regular participants 
        include State and DOD.
        <bullet> Bi-weekly ``Small Table Group'' at the National 
        Counterterrorism Center (NCTC). Regular participants include 
        State, DOD, the CIA, and NCTC.
        <bullet> The Global Strategic Engagement Center (GSEC). GSEC is 
        specifically chartered to support the NSC's Global Engagement 
        Directorate.
        <bullet> Monthly CVE Interagency Coordination Group (ICG). 
        Chaired by the Global Engagement Group at NCTC, this is a 
        senior working level meeting to coordinate both domestic and 
        overseas CVE work.

    We also have an excellent relationship with the Department of 
Defense (DOD), which informs new CVE programming. Together we can 
complement each other's strengths and efforts in the field, and 
determine which CVE efforts are best done by the military and which are 
best handled on the civilian side. A number of offices in DOD and the 
combatant commands that fund CVE projects and research have expressed a 
desire to collaborate with us on new programs.
    Mr. Reid. Formal arrangements enhance existing informal interagency 
efforts to collaborate and communicate with each other. As the members 
of this subcommittee well know, section 1054 of the 2009 National 
Defense Authorization Act directs DOD, DOS, and USAID to establish a 
panel focused solely on making recommendations to improve interagency 
communication on national security matters. The Quadrennial Diplomacy 
and Development Review (QDDR), currently being written, is certain to 
include several recommendations to improve U.S. Government 
coordination. After the QDDR process is complete, Secretary Gates has 
stated that he will work with Secretary Clinton and Ambassador Shah to 
ensure that DOD, DOS, and USAID agree on the formation of this advisory 
panel.
    With regards to U.S. Government coordination on CVE efforts 
specifically, the issue is not whether we need more formal arrangements 
to help with interagency coordination; rather, the challenges that 
exist are with the efficacy of the existing fora. CVE in particular has 
an abundance of venues for the interagency to meet, discuss, 
coordinate, and deconflict plans and programs at the strategic level. 
The National Security Staff (NSS) chairs several meetings, including 
several sub-Counterterrorism Security Group meetings specifically 
involving CVE, the Strategic Communications Interagency Policy 
Committee (IPC), which routinely touches upon CVE issues, and the 
Domestic Radicalization IPC which focus solely on ensuring that violent 
radicalization does not become an issue within our own borders. In 
addition, the National Counterterrorism Center (NCTC) chairs several 
CVE specific meetings monthly that bring foreign and domestic-focused 
agencies together to discuss and coordinate CVE programs.
    We can, and must, do a better job of making these existing fora 
more effective and results-oriented. The challenge is that while we all 
agree that efforts to deny terrorists the next generation of recruits 
are of the highest priority, obtaining the requisite long-term funding, 
policy support, and dedicated resources to undergo and assess long-term 
projects is a government-wide problem. Until dedicated funding and 
manpower is afforded to long-term projects that may be successful in 
convincing someone that violence is not an acceptable option , we will 
be limited in our ability to effect sustainable change.
    General Kearney. I agree that interagency coordination is often 
``at its best'' when focused teams ``forward'' come together in our 
embassies on common efforts and that unfortunately ``stove-piping'' 
does often occur in Washington. My experience has been that written 
procedures are the best way to reduce the influence of personalities in 
attempting to improve interagency coordination. These written 
procedures need to be concise, recognize the cultural differences 
existing in our U.S. Departments and Agencies, and authoritative in 
nature to unify efforts. Creating more formal arrangements can be 
useful only if the organizations are given the statutory and budgetary 
authorities to act with effectiveness. One technique successfully used 
in the Intelligence Community, law enforcement community, and other 
places in government is the ``task force'' concept. Small groups of 
subject matter experts brought together to focus on a set of well-
defined tasks has proven successful (e.g., Joint Terrorism Task Force 
(JTTF)). This concept does not always require additional legislation. 
U.S. SOCOM is experienced at forming, contributing to, and coordinating 
with various governmental task forces and we find that the key to 
success is an in-depth knowledge of the problem-set, senior interagency 
leader participation, and a robust community of interest with 
``flattened collaboration'' at the participant level to prevent 
``stove-piping.''

    18. Senator Reed. Ambassador Benjamin, Mr. Reid, and General 
Kearney, how would or should such arrangements for interagency 
coordination be structured?
    Ambassador Benjamin. The Office of the Coordinator for 
Counterterrorism believes that enough formal arrangements already exist 
that help facilitate high-level coordination and communication among 
the agencies and departments working on CVE issues and programs, 
including:

        <bullet> NSC's Weekly Strategic Communication IPC. Chaired by 
        the NSS' Global Engagement Directorate. Regular participants 
        include State and DOD.
        <bullet> Bi-weekly ``Small Table Group'' at the National 
        Counterterrorism Center (NCTC). Regular participants include 
        State, DOD, the CIA, and NCTC.
        <bullet> The Global Strategic Engagement Center (GSEC). GSEC is 
        specifically chartered to support the NSC's Global Engagement 
        Directorate.
        <bullet> Monthly CVE Interagency Coordination Group (ICG). 
        Chaired by the Global Engagement Group at NCTC, this is a 
        senior working level meeting to coordinate both domestic and 
        overseas CVE work.

    Mr. Reid. Presidential Policy Directive 1 from February 13, 2009 
organizes the current National Security Council system and sets forth 
the process and structures for interagency coordination. In the case of 
CVE, the administration has set up several fora to discuss and 
coordinate this topic. Standing committees include but are not limited 
to the Counterterrorism Security Group (CSG), the sub-CSG on CVE, the 
Strategic Communications Interagency Policy Group (IPC), the Domestic 
Radicalization IPC. Various regional IPCs also periodically meet to 
discuss CVE issues within their respective areas of responsibly. The 
administration has also reaffirmed the NCTC's legislated responsibility 
to coordinate strategic operational planning for all counterterrorism 
issues, to include CVE and Global Engagement. The Department supports 
how the administration has chosen to structure the U.S. Government's 
interagency coordination mechanisms and continues to actively support 
the development and efficacy of those forums to ensure that our 
national objectives are obtained.
    Further, in a recent letter to the leadership of the House 
Committee on Armed Services, House Committee on Foreign Affairs, and 
House Subcommittee on State, Foreign Operations and Related Programs, 
Secretary Gates described how a more formal coordination mechanism 
between DOS, DOD, and USAID could be structured. In compliance with 
Section1054 of the 2009 National Defense Authorization Act, DOD, DOS, 
and USAID will establish a panel focused solely on making 
recommendations to improve interagency communication on national 
security matters. The format of this panel will be largely dictated by 
recommendations made in the QDDR, which is currently being written.
    General Kearney. The structure for effective interagency 
coordination, whether in a statutorily created agency like the National 
Counterterrorism Center or `task force'' construct, should keep in mind 
the principles that U.S. SOCOM has found useful in its Interagency Task 
Force:

        <bullet> seeking out subject matter experts with an in-depth 
        knowledge of the problem-set,
        <bullet> senior interagency leader participation, and
        <bullet> developing a robust community of interest with 
        ``flattened collaboration'' at the participant level to prevent 
        ``stove-piping.''

    Identifying the key stakeholders in the interagency process on any 
given subject is critical as these are the decisionmakers who can move 
an initiative forward or kill it in its tracks.

    19. Senator Reed. Ambassador Benjamin, Mr. Reid, and General 
Kearney, U.S. Africa Command (AFRICOM) has engaged in counter-
radicalization work in East Africa in some cases by deploying civil 
affairs personnel to engage local populations in typical development 
activities. Some have criticized the DOD for this type of outreach as 
the militarization of development work, whether in AFRICOM or 
elsewhere. Do you believe civil affairs-type outreach in non-combat 
environments like Africa and Latin America is better suited to civilian 
agencies, or do you believe the military's outreach is an essential 
piece of winning hearts and minds?
    Ambassador Benjamin. Each U.S. department and agency involved in 
CVE work possesses its own areas of expertise and resources. But all 
share a common goal: challenging violent extremist messages, supporting 
individuals vulnerable to radicalization, and constraining the 
environment where violent extremists operate. Interagency cooperation 
is critically important to attaining that goal, regardless of the 
location of the CVE activities. CVE work is extraordinarily complex, 
especially in under-governed areas, and we need to acknowledge the 
challenging nature of coordinating efforts among the various agencies 
involved.
    In some locations, civilian agencies are best placed and suited to 
assume ownership of U.S. Government activities. In other locations, 
coordinated by the Chief of Mission, the Department of Defense can help 
to fill the void when there may not be enough civilian personnel in a 
country to conduct these programs and assessments.
    Mr. Reid. Civilian agencies in the U.S. Government such as DOS and 
USAID certainly have the expertise and capabilities to successfully 
carry out certain civil affairs-type outreach. DOD supports these 
agencies with resources and expertise. In certain instances, civil 
affairs assets have the capability to deploy to and operate in areas 
that would initially be difficult for civilian agencies to reach. In 
all cases, we seek to transition development tasks to civilian agencies 
as soon as security conditions permit.
    Civil affairs outreach is often a means to foster communication 
between the U.S. Government and partner nation governments in advance 
of a crisis or humanitarian disaster. COCOM commander shaping 
operations are closely coordinated with and approved by the Chief of 
Mission. Utilization of civil affairs assets, and combining them with 
MIST programs, is one part of the overall theater engagement strategy 
of the respective GCC. The specific relationship between DOD and each 
country varies depending on a host country's needs, but the outreach is 
nonetheless essential in assisting host nations in a variety of ways 
that they identify.
    General Kearney. Civil Affairs and Civil Affairs--like outreach in 
non-combat environments is both desirable and necessary as part of a 
broader, integrated approach, to building partner capacity in isolated, 
austere and often uncertain environments. U.S. SOCOM sees this type of 
outreach as a critical component to an overall U.S. Government strategy 
that exploits the comparative advantages of both the uniformed and 
civilian assets. Civil Affairs type programs are a critical supporting 
and enabling capability that enhances the U.S. image and bolsters 
stability and credibility in the host nation government.
    Civil Affairs and similar programs conducted by DOD are some of the 
tools that the U.S. country team can use in their efforts to build host 
nation government legitimacy through the development of capabilities 
and capacities. By bolstering their legitimacy in the eyes of their 
people, the host nation government can win the competition for 
sovereignty, preempt existing violent extremist organizations (VEOs) 
from gaining a stronger foothold, and preventing incursion by future 
VEOs.
    While the idea of `winning hearts and minds' is important, the 
concept of hearts and minds is not about `liking the United States' or 
overt support to U.S. presence in a specific country. Rather, the 
concept is to influence populations to believe that supporting their 
legitimate government is in their best interest--economically, 
politically, socially--and that legitimate government can and will 
succeed against those forces of instability. `Hearts and minds' is a 
function of building partner governance capability and capacity to win 
the competition for sovereignty and establish influence and control. 
Civil Affairs type outreach is an important tool in building such host 
nation capabilities.

    20. Senator Reed. Ambassador Benjamin, Mr. Reid, and General 
Kearney, how do you believe we should ensure that there is adequate 
coordination between DOD, DOS, and USAID within our embassies to ensure 
that military outreach fits into the chief of mission's strategic plan 
for the country?
    Ambassador Benjamin. The Chief of Mission (COM) in a given country 
is responsible for interagency coordination within the Embassy. The COM 
is best placed to weigh the various factors involved, adjudicate among 
possibly competing interests, and determine the best mix of activities 
to be effective in his or her host nation. Additionally, interagency 
coordination in Washington can resolve broader issues and ensure that 
appropriate guidance is provided to our embassies abroad.
    At the regional level, there are a variety of coordination 
mechanisms. One key example is the State political advisors (POLADs) 
and USAID senior development advisors (SDAs) embedded at regional 
military combatant commands. They typically review and are in a 
position to provide guidance about the commands' messaging efforts and 
program proposals.
    Mr. Reid. One way we can ensure that DOD, DOS, and USAID coordinate 
appropriately is through formal channels, based on recommendations from 
the interagency advisory panel established in section 1054 of the 
Duncan Hunter National Defense Authorization Act of 2009. Also, we can 
continue to ensure that military outreach activities are conducted in 
full coordination with the Chief of Mission.
    DOD's aim is to support and enhance the activities of country teams 
in our efforts to CVE. To accomplish this, we ensure that communication 
is open and frequent among DOD representatives and the embassy in each 
country. We work to ensure that our deploying personnel are fully aware 
of the efforts and operations conducted by our interagency partners, 
particularly in areas where DOD is not the lead actor, such as in 
strategic communications and augmenting host nation civil capacity. In 
general, the vast majority of country teams coordinate well, and the 
ambassadors in these countries have created an environment of 
collaboration and sharing that ensures all actors bring their 
respective authorities and capabilities to the table.
    General Kearney. A key focus area of U.S. SOCOM's Strategic Plan is 
the SOF operator and the development of the Operator's ability to 
fulfill the myriad defense, diplomatic, and developmental roles 
required in whole-of-government approaches. We emphasize the building 
of mechanisms to effectively mesh DOD activities with the diplomatic 
and development efforts of interagency partners, especially at the 
country team level. We develop language, regional/local expertise, and 
diplomacy skills in our personnel. When deployed, we build long-term 
trust with populations, local/regional officials, and foreign security 
forces. We strive to understand strategic/regional/local interests and 
how they affect governance and security in order to assist in local 
development programs that are integrated with broader interagency 
efforts. Finally, we balance the application of direct and indirect 
skills to achieve optimal effect. As an extension of an Ambassador's 
country team, the SOF Operator is expected to use his unique skills in 
close coordination with interagency partners to achieve the Embassy's 
goals.

                       measures of effectiveness
    21. Senator Reed. Ambassador Benjamin, Mr. Reid, and General 
Kearney, one of the common criticisms of indirect CVE missions, such as 
the media campaigns and civil affairs projects, is that the 
effectiveness of the activity is difficult to measure and, as a result, 
the entire activity is called into question. Please explain how your 
respective organization measures the effectiveness of your CVE 
activities.
    Ambassador Benjamin. CVE work is primarily about preventing 
violence or the support of violent action, and measuring the absence of 
violence or conflict presents a significant challenge. Nevertheless, it 
is critical to understand the effect our programs are having on target 
communities and to be able to measure that effect in a meaningful way. 
Prior to supporting CVE programs, it is imperative to assess and 
understand the drivers of violent extremism for the program area. 
Establishing a baseline that identifies the push and pull factors, as 
well as integrating rolling assessments, is key to measuring the 
programs' effectiveness against the identified drivers of violent 
extremism.
    Therefore, we will work closely with our interagency partners on 
using existing tools to measure behavioral and attitudinal change as 
they relate to the country-specific extremism drivers. An assessment of 
the radicalization risk and extremism drivers will be conducted before 
beginning new programs in any country. The assessment results will 
guide programming and serve as a baseline to measure the programs' 
effectiveness.
    We also coordinate with partner nations to understand how they 
develop and use program metrics.
    Mr. Reid. Proving or measuring whether an activity has effectively 
countered violent extremism is incredibly challenging, because we are 
essentially faced with trying to prove a negative. Nevertheless, we 
work with our interagency partners and outside experts to attempt to 
assess the effectiveness of our CVE activities. Based on targeted 
programs developed by academic partners, we are able to have confidence 
that our programs have some measure of their intended effect. Due to 
the difficulty in measuring the effectiveness of CVE activities, 
resources are applied at the outset of a program to utilize the best 
minds in social psychology, anthropology, and sociology to create 
initiatives that, due to the unique cultural and political factors 
involved, stand the best chance on having the intended effect.
    Every CVE program is measured differently, but we do tend to look 
to behavioral and attitudinal change through polling results, even 
though we know that data is far from perfect. It is important to note 
that CVE activities are not conducted independently of other theater 
shaping operations, but are a component of COCOM activities in each 
area of responsibility and country team priorities in each nation. 
Accordingly, the specific success of a certain CVE activity is often 
more appropriately judged based on the overall success of the entire 
operation and whether we achieve our objectives in that region.
    General Kearney. We don't measure the effectiveness of CVE 
activities very well at this time, but are working to improve both our 
capability and process for doing so.
    In its current form, we have a very basic approach to measuring the 
effectiveness for CVE activities. As an initial step, we attempt to 
establish a `baseline' of the civil domain and indentify critical 
(civil) vulnerabilities, the `drivers of conflict.' With this 
understanding of the domain and vulnerabilities, we then develop, 
prioritize and synchronize CVE objectives with the GCC, the Theater 
SOCOM, the U.S. Embassy and the host nation. Based on these coordinated 
CVE objectives, we next develop coordinated `action plans' to reduce, 
mitigate, or eliminate those vulnerabilities; these plans identify 
`benchmarks' to be used for the measurement of progress and/or 
reassessment. During the execution of the CVE activities, we collect 
information within the civil domain and measure the progress of those 
actions against the previously developed benchmarks. Feedback from 
analysis of the measurements drive an assessment of what is working and 
what isn't, and continually steers follow-on efforts toward the desired 
objectives.
    The key to this process is the development of functional benchmarks 
and `sustaining/rolling' assessments against an accurate baseline to 
continually inform and refine the execution of CVE activities.

                         accessing denied areas
    22. Senator Reed. Ambassador Benjamin and Mr. Reid, Yemen and 
Somalia are often referred to as failing or failed states. From a CVE 
perspective, they present very different and unique challenges. In 
Yemen, the United States and the international community enjoy access 
to the country and its people. However, in Somalia, the United States 
and the international community have very limited access to the country 
and its people. Please explain how the United States can engage in the 
critical task of countering the influence and activities of violent 
extremists in denied areas, like Somalia.
    Ambassador Benjamin. The U.S. Government remains committed to 
advancing the Djibouti Peace Process and supporting Somalia's 
Transitional Federal Government (TFG) to bring security and stability 
to all of Somalia. Central to this effort are actions that help build 
the TFG's capacity to counter al-Shabaab's narrative and influence. The 
Department is unable to operate directly in Somalia, but assists the 
TFG in challenging al-Shabaab in myriad ways, including:

        <bullet> Strengthening the TFG's strategic communications and 
        public outreach capabilities by providing $350,000 to help the 
        Ministry of Information get Radio Mogadishu back on the air 
        with expanded reach.
        <bullet> Encouraging the TFG through public diplomacy efforts 
        to build alliances with clans and groups that would further 
        legitimize and broaden its geographic reach.
        <bullet> Providing employment and skills training for 7,500 
        youth in Somalia through USAID's Somali Youth Livelihood 
        Program.
        <bullet> Additionally, the United States remains the largest 
        provider of humanitarian assistance to Somalia, having provided 
        more than $150 million in food aid and other humanitarian 
        assistance to help the people of Somalia in fiscal year 2009.

    Speaking more broadly, what we are doing in Somalia is what we are 
doing in many other countries--building capacity. Consistent diplomatic 
engagement with counterparts helps build political will for common 
counterterrorism objectives. When there is political will, we can 
address the nuts and bolts aspect of capacity building.
    The United States has obligated approximately $185 million worth of 
training, non-lethal equipment, and logistical support to the African 
Union Mission in Somalia, of which $15 million was recently reimbursed 
by the United Nations. The U.S. Government has also obligated more than 
$23 million of Title 22 Peacekeeping Operations funding to provide in-
kind support to the TFG, including equipment and supplies to support 
regional training efforts, and a limited amount of weapons and 
ammunition. We are addressing the state insufficiencies that terrorism 
thrives on, and we are helping invest our partners more effectively in 
confronting the threat.
    Mr. Reid. The most difficult issue in conducting CVE in denied 
areas is being effective without having a DOD footprint in the region. 
However, we strive to CVE in denied areas by using the COCOM Voice 
programs. These programs CVE using media such as regional magazines, 
newspapers, radio, and television broadcasts. In some areas, web-based 
programs also may be the optimal method.

    23. Senator Reed. Ambassador Benjamin and Mr. Reid, what agency 
should take the lead in CVE activities in denied areas?
    Ambassador Benjamin. The U.S. Government as a whole--and the 
Department of State in particular--is realistic about what it can 
achieve on its own to counter violent extremist ideologies. Limiting 
the U.S. footprint and letting partner nations lead--and have ownership 
- is often crucial to long-term success. To ensure that efforts are 
sustainable, the U.S. Government is working to build capacity in host 
governments and strengthen local networks that oppose violent 
extremism.
    The U.S. CVE approach in under-governed areas must truly be a 
whole-of-government effort. No single agency or department will be able 
to tackle successfully the complex and interweaving issues that result 
in the radicalization of vulnerable or alienated individuals. In some 
circumstances, the U.S. military will be best positioned to take the 
lead on programmatic efforts; in others, the Department of State or 
USAID should spearhead the U.S. approach. Sustained engagement and 
coordination are critical to increasing the U.S. Government's chances 
of success.
    Mr. Reid. The 2008 National Implementation Plan for the War on 
Terror clarifies lead and supporting roles for CVE. State is the 
``lead'' on 9 of the 12 CVE subobjectives. DOD is listed as a Partner 
on 10 of the 12, but is not listed as the interagency lead on any of 
the sub-objectives. There is no distinction between denied or 
permissive environments.
    DOD works in close consultation with the U.S. Chief of Mission, who 
leads U.S. Government efforts to CVE outside of Iraq and Afghanistan. 
The Department is always open to, and often seeks, input and advice 
from our DOS, USAID, Intelligence Community, and other interagency 
colleagues on efforts to CVE.
    For Washington-based interagency coordination efforts, the NSS is 
currently the lead. The NSS is chairing several interagency groups that 
involve CVE directly or other efforts that impact our CVE initiatives.

    [Whereupon, at 12:30 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
